<html>
<title> - THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 BUDGET REQUEST</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 BUDGET REQUEST

=======================================================================

                                HEARINGS

                               BEFORE THE

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                AND THE

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                          MARCH 1 AND 8, 2007

                               ----------                              

                           Serial No. 110-11


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

  THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 BUDGET REQUEST

=======================================================================

                                HEARINGS

                               BEFORE THE

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                AND THE

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                          MARCH 1 AND 8, 2007

                               __________

                           Serial No. 110-11


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
38-829                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

  THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 BUDGET REQUEST
?

                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan, 
             Chairman
HENRY A. WAXMAN, California
EDWARD J. MARKEY, Massachusetts
RICK BOUCHER, Virginia
EDOLPHUS TOWNS, New York
FRANK PALLONE, Jr., New Jersey
BART GORDON, Tennessee
BOBBY L. RUSH, Illinois
ANNA G. ESHOO, California
BART STUPAK, Michigan
ELIOT L. ENGEL, New York
ALBERT R. WYNN, Maryland
GENE GREEN, Texas
DIANA DeGETTE, Colorado
    Vice Chairman
LOIS CAPPS, California
MIKE DOYLE, Pennsylvania
JANE HARMAN, California
TOM ALLEN, Maine
JAN SCHAKOWSKY, Illinois
HILDA L. SOLIS, California
CHARLES A. GONZALEZ, Texas
JAY INSLEE, Washington
TAMMY BALDWIN, Wisconsin
MIKE ROSS, Arkansas
DARLENE HOOLEY, Oregon
ANTHONY D. WEINER, New York
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana               JOE BARTON, Texas
                                         Ranking Member
                                     RALPH M. HALL, Texas
                                     J. DENNIS HASTERT, Illinois
                                     FRED UPTON, Michigan
                                     CLIFF STEARNS, Florida
                                     NATHAN DEAL, Georgia
                                     ED WHITFIELD, Kentucky
                                     BARBARA CUBIN, Wyoming
                                     JOHN SHIMKUS, Illinois
                                     HEATHER WILSON, New Mexico
                                     JOHN B. SHADEGG, Arizona
                                     CHARLES W. ``CHIP'' PICKERING, 
                                         Mississippi
                                     VITO FOSSELLA, New York
                                     STEVE BUYER, Indiana
                                     GEORGE RADANOVICH, California
                                     JOSEPH R. PITTS, Pennsylvania
                                     MARY BONO, California
                                     GREG WALDEN, Oregon
                                     LEE TERRY, Nebraska
                                     MIKE FERGUSON, New Jersey
                                     MIKE ROGERS, Michigan
                                     SUE WILKINS MYRICK, North Carolina
                                     JOHN SULLIVAN, Oklahoma
                                     TIM MURPHY, Pennsylvania
                                     MICHAEL C. BURGESS, Texas
                                     MARSHA BLACKBURN, Tennessee
<RULE>_________________________________________________________________

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
   Bud Albright, Minority Staff 
             Director

                                  (ii)
          Subcommittee on Environment and Hazardous Materials

                   ALBERT R. WYNN, Maryland, Chairman
FRANK PALLONE, Jr., New Jersey       JOHN SHIMKUS, Illinois,
BART STUPAK, Michigan                     Ranking Member
LOIS CAPPS, California               CLIFF STEARNS, Florida
TOM ALLEN, Maine                     NATHAN DEAL, Georgia
HILDA L. SOLIS, California           HEATHER WILSON, New Mexico
    Vice Chairman                    JOHN B. SHADEGG, Arizona
TAMMY BALDWIN, Wisconsin             VITO FOSELLA, New York
G.K. BUTTERFIELD, North Carolina     GEORGE RADANOVICH, California
JOHN BARROW, Georgia                 JOSEPH R. PITTS, Pennsylvania
BARON P. HILL, Indiana               LEE TERRY, Nebraska
DIANA DeGETTE, Colorado              MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
HENRY A. WAXMAN, California          TIM MURPHY, Pennsylvania
GENE GREEN, Texas
JAN SCHAKOWSKY, Illinois
                              ----------                              

                 Subcommittee on Energy and Air Quality

                    RICK BOUCHER, Virginia, Chairman
G. K. BUTTERFIELD, North Carolina    J. DENNIS HASTERT, Illinois,
    Vice Chairman                         Ranking Member
CHARLIE MELANCON, Louisiana          RALPH M. HALL, Texas
JOHN BARROW, Georgia                 FRED UPTON, Michigan
HENRY A. WAXMAN, California          ED WHITFIELD, Kentucky
EDWARD J. MARKEY, Massachusetts      JOHN SHIMKUS, Illinois
ALBERT RUSSELL WYNN, Maryland        JOHN B. SHADEGG, Arizona
MICHAEL F. DOYLE, Pennsylvania       CHARLES W. ``CHIP'' PICKERING, 
JANE HARMAN, California                  Mississippi
TOM ALLEN, Maine                     STEVE BUYER, Indiana
CHARLES A. GONZALEZ, Texas           MARY BONO, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          MICHAEL C. BURGESS, Texas
JIM MATHESON, Utah


                             C O N T E N T S

                              ----------                              

                             MARCH 1, 2007

                                                                   Page
Hon. Albert R. Wynn, a Representative in Congress from the State 
  of Maryland, opening statement.................................     1
 Hon. John Shimkus, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. Tammy Baldwin, a Representative in Congress from the State 
  of Wisconsin, opening statement................................     5
Hon. Tim, Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     6
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................    10
Hon. Hilda L. Solis, a Representative in Congress from the State 
  of California, opening statement...............................    11
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    12
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    13

                               Witnesses

Bill Roderick, Acting Inspector General, U.S. Environmental 
  Protection Agency..............................................    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................   170
J. Christian Bollwage, mayor, city of Elizabeth, Elizabeth, NJ...    30
    Prepared statement...........................................    32
    Answers to submitted questions...............................   139
Robert W. King, Jr., president, Environmental Council of the 
  States; deputy commissioner, South Carolina Department of 
  Health and Environmental Control...............................    45
    Prepared statement...........................................    47
    Answers to submitted questions...............................   144
Andrew M. Langer, manager, regulatory affairs, Federation of 
  Independent Business...........................................    59
    Prepared statement...........................................    62
    Answers to submitted questions...............................   150
Maurice McTigue, director, government accountability project, 
  George Mason University, Fairfax, VA...........................    77
    Prepared statement...........................................    79
    Answers to submitted questions...............................   155
Patrice Simms, senior attorney, Natural Resources Defense Council    88
    Prepared statement...........................................    90
    Answers to submitted questions...............................   160

                             MARCH 8, 2007

Hon. Albert R. Wynn, a Representative in Congress from the State 
  of Maryland, opening statement.................................   183
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................   186
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................   187
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................   189
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................   190
    Prepared statement...........................................   190
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................   191
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................   191
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................   192
Hon. J. Dennis Hastert, a Representative in Congress from the 
  State of Illinois, prepared statement..........................   194
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................   195

                                Witness

Stephen L. Johnson, Administrator, Environmental Protection 
  Agency.........................................................   195
    Prepared statement...........................................   197
    Answers to pre-hearing questions.............................   255
    Answers to submitted questions...............................   271


  THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 BUDGET REQUEST

                              ----------                              


                        THURSDAY, MARCH 1, 2007

                House of Representatives,  
                Subcommittee on Environment
                           and Hazardous Materials,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:45 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Albert R. 
Wynn (chairman of the subcommittee) presiding.
    Members present: Representatives Pallone, Stupak, Solis, 
Baldwin, Butterfield, Barrow, Hill, DeGette, Green, Shimkus, 
Stearns, Terry, Rogers, Sullivan and Murphy.

 OPENING STATEMENT OF HON. ALBERT R. WYNN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Wynn. This is the first of two hearings on the fiscal 
year 2008 budget for the Environmental Protection Agency. Today 
we will hear from a distinguished panel of stakeholders who are 
directly affected by EPA's funding levels, and later on March 8 
we will have the honor and pleasure of hearing from the EPA 
administrator, Mr. Stephen Johnson.
    For purposes of making opening statements, the chairs and 
ranking members of the subcommittee and the full committee will 
each be recognized for 5 minutes. All other members of the 
subcommittee will be recognized for 3 minutes. Those members 
may waive their right to make an opening statement when first 
recognized to raise questions. They may add those 3 minutes to 
their time for questions. Without objections, all Members will 
have 5 legislative days to submit opening statements for the 
record.
    Before I begin my opening statement, I would like to 
recognize the premier of Bermuda who is with us, the Honorable 
Ewart Brown. We are delighted to have you, Mr. Premier.
    Mr. Brown. Thank you.
    Mr. Wynn. It was just suggested we have an oversight 
hearing in Bermuda. Thank you very much for stopping by.
    Since at least 2003, there has been growing concern about 
the ability of the Environmental Protection Agency to fulfill 
its programmatic mission in several critical areas including 
Superfund, Brownfields, Leaking Underground Storage Tanks, the 
Safe Drinking Water Act Revolving Loan Fund and environmental 
justice, among other issues. However, this is the first hearing 
this subcommittee has held on the EPA budget in 6 years and it 
is the first under the current administration. I believe that 
it is part of Congress's institutional and constitutional 
responsibility to hold oversight hearings on the EPA, and 
unlike the last Congress, this subcommittee will 
enthusiastically pursue these responsibilities.
    As we move forward, there are several realities we must 
consider. First, the President's EPA budget request for fiscal 
year 2008, when adjusted for inflation and constant dollars, 
shows a dramatic decline over the last 10 years. Second, the 
Superfund program has seen a precipitous drop in the number of 
sites being completed. And third, the President has expressed 
his opposition to reinstatement of dedicated taxes, resulting 
in all EPA-funded cleanups having to come out of general 
revenues.
    It appears the administration has a less-than-serious 
commitment to environmental protection since the EPA is one of 
only two agencies to see a decline in the President's budget. 
First, in terms of the Superfund, the fiscal year 2008 budget 
request for Superfund is $35 million less than the President's 
fiscal year 2006 budget request. These reductions come at a 
time when progress in completing construction activities of 
Superfund national priority list sites has slowed dramatically. 
EPA has projected completion of 40 sites in fiscal year 2007 
but recently announced that it will achieve only 24 
construction completions this year, a reduction of 40 percent. 
In many instances, EPA has been unable to begin construction 
cleanup on new Superfund sites or more commonly, EPA has been 
unable to move to completion on sites already in the pipeline. 
What this means is that EPA is unable to adequately meet its 
mission of protecting human health and the environment and our 
constituents continue to remain at risk.
    Turning to the Leaking Underground Storage Tanks program, 
leaking underground storage tanks are the leading source of 
groundwater contamination in the United States, posing a risk 
to the Nation's drinking water supply. Congress enacted the 
LUST Trust Fund in order to deal with this growing threat to 
the Nation's health. Interest on the LUST Trust Fund is 
estimated to add an additional $109 million in fiscal year 
2008, bringing the total LUST Fund surplus to $3 billion. The 
President's budget, however, requests just $72.5 million from 
this trust fund for cleanup, slightly less than last year's 
appropriations. Gasoline taxes paid by consumers are not going 
for their specified purpose: the cleanup of spills and releases 
and contaminated water supplies. Using this important trust 
fund to offset other administration spending is quite frankly a 
farce on the American public. But in the meantime, there is a 
backlog of 113,000 cleanups. The longer this contamination is 
left unaddressed, the greater the adverse effect on human 
health, increasing the ultimate cost of the cleanups.
    In terms of Brownfields, the President's fiscal year 2008 
budget request of $89 million for cleanup and assessment grants 
is 26 percent less than his request for 2006. Current law 
provides an authorization of $200 million per year but the 
President's request for 2008 seeks only 56 percent of the 
amount authorized for cleanups and assessment grants. This is 
troublesome when you consider that in 2006 there were 694 
Brownfield project grant proposals but only slightly more than 
a third actually received funding. This is also of concern 
because demand for cleanups has intensified, particularly with 
the increased focus on environmental justice for low-income and 
minority communities.
    In terms of the drinking water revolving loan fund designed 
to support States in helping public water systems finance the 
cost of infrastructure improvements, again we see inadequate 
funding. When adjusted for inflation in 2006 dollars, the 
President's budget request for 2008 is the lowest in the 
history of the revolving loan fund program. These reductions 
lead to shortfalls in State resources and consumers are hurt. 
They either foot the bill or they suffer outbreaks of 
waterborne diseases due to failing infrastructure.
    Overall, there are concerns that EPA's funding is 
insufficient to meet its mission to protect the environment and 
the public health. There are unfunded mandates for States, a 
backlog of polluted sites and spreading contamination. In the 
face of chronic underfunding of EPA's core health programs, I 
am also concerned that EPA is expending significant resources 
on voluntary programs with questionable oversight and 
evaluation.
    I look forward to hearing from today's witnesses, the 
stakeholders who represent the interests of the States, the 
environmental community and the small-business community and 
learning more about their views of our efforts to protect the 
health of our constituents and the environment.
    At this time I would like to recognize my distinguished 
colleague, Mr. Shimkus, the ranking member.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, and I want to 
congratulate you on your chairmanship and tell you how much I 
look forward to working together. We have already had a couple 
meetings and I think that is very important. I know there will 
be times when we will agree to disagree, and if we do that 
amicably, I think that is going to help us also in the movement 
of public policy. But I am sure we both can agree that 
protecting human health, one of the duties of our jurisdiction 
on this committee, is something members on both sides of the 
aisle want.
    One thing we know is that no real progress occurs on 
environmental issues unless both Democrats and Republicans 
stand behind the same policy. In fact, Chairman Dingell and I 
talked about this prior to the markup that we just left. I also 
want to be very clear that I and the Republican members of this 
committee welcome congressional oversight by this panel and 
want to extend our hand in cooperation to these efforts. We 
want the facts, both the budgetary and the scientific, and we 
support thoughtful, reasoned, deliberate and meaningful 
questioning that advances the needs of our constituents, not 
Republicans or Democrats. It goes without saying that efforts 
outside of these parameters are viewed by myself and my 
colleagues as partisan commercials that should not have a place 
in this committee.
    For this reason, I wanted to share with you my surprise at 
not being asked to join you and other members of this committee 
on a couple letters that were sent to the EPA and the 
Government Accountability Office on waste generated at CAFOS. 
At least give me the chance to say no, I won't sign it. I am 
especially concerned about CAFOS, the Combined Animal Feeding 
Operation Districts, because the three signers of the letter, I 
have as many head of animals, poultry, beef, pork, as you all 
do people, plus 70 percent more in my congressional district, 
so there is a different view of CAFOS in rural America, and I 
think that is why we want to encourage you to come out to 
southern Illinois, but I have already made that invitation to 
you and we can see a part of the country in which some of the 
issues may be a little bit different.
    Certainly long before any pollution from a farm reaches an 
urban setting, it passes through a rural one and we have the 
mayors here or the representatives of mayors and they are 
mayors of small towns that have to deal with these issues. That 
is why I would like to follow up and encourage a visit by you 
and other members if we can arrange it, both to the St. Louis 
metropolitan area and southern Illinois.
    I only think it makes sense to focus our time and 
understanding on the budget of the main Federal agency that our 
committee oversees. I applaud your decision to hold 2 days' 
worth of hearings and I would like to personally thank you for 
allowing the minority two requested witnesses to appear on this 
panel. I made that personal request and you agreed, and I do 
appreciate that. This is a great start to our working together 
as chairman and ranking member.
    I think the budget of the U.S. Environmental Protection 
Agency is not an easy document to understand. I prefer things 
to be simple, and this budget, just like the budget of other 
Federal agencies, is not. What strikes me is that nothing the 
EPA does happens in a vacuum. It has ramifications for Federal, 
State and local regulators. It impacts large, medium and small 
business and it translates into how public health protections 
can and will be carried out. Simply looking at the numbers does 
a disservice to the work of the agency and its partners. 
Rather, we need to step back and ask ourselves if progress is 
happening, are people being protected and how do we know: a 
result-oriented approach. We also need to decide of the money 
we are spending is being spent wisely. Is it sapping resources 
from other potentially more crucial public health needs or it 
is being used as a crutch for programs or stakeholders that no 
longer need it or could do without it? We must admit that it is 
misguided to beat up the Bush administration when all 
appropriations are required by the Constitution to begin in the 
House. So you all are going to have a chance to submit a budget 
and address some of these wrongs and we are going to see how 
well you guys do.
    Mr. Chairman, the Republican members of this committee and 
I pledge to be an honest broker on the issues that lie ahead. I 
welcome the witnesses and yield back the balance of my time.
    Mr. Wynn. I want to thank the gentleman for his opening 
statement. I look forward to working with the gentleman. We 
have had a good and cordial working relationship and had 
several conversations prior to this hearing. I also want to 
indicate that I am sorry if you feel excluded from our 
correspondence. I am sure we will have an opportunity to talk 
about that in the future.
    Mr. Shimkus. If the gentleman would yield, you can always 
say, well, you never signed that letter.
    Mr. Wynn. That was my intent, but I certainly don't want 
you to feel excluded.
    Mr. Shimkus. Mr. Simms wants to make sure that I don't sign 
my letters. He will let me know.
    Mr. Wynn. With respect to the appropriations, I do want to 
note that it was the Congress under the Republican majority 
that was responsible for some of the shortages that we have 
experienced.
    But not to belabor that point, I want to move into the 
opening statements by members of the committee, and at this 
point the Chair would recognize Ms. Baldwin.

 OPENING STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Mr. Chairman.
    It is exciting to be here today to finally discuss the 
operation of our Nation's Environment Protection Agency. Too 
many years, in fact, 6 years have passed since our last public 
conversations about EPA's programs and priorities, and this 
body has been lax, perhaps even negligent in its use of 
oversight power and it is certainly time for us to exert our 
constitutional responsibilities and ask difficult but important 
questions about the actions the EPA is taking, and I commend 
the committee and you, Mr. Chairman, for beginning our 
discussions today with testimony from people who see firsthand 
the impact of the EPA's actions and funding decisions. Quite 
frankly, over the last 6 years it has been difficult for the 
EPA to fully meet its mission of protecting human health and 
the environment, given that the administration does not seem to 
place a priority on its proper funding. In fact, the EPA's 
budget has been stuck in a downward spiral for years. The 
result has been that Superfund sites remain dangerous, drinking 
water is threatened and air quality is jeopardized.
    In my home State of Wisconsin, our environment is 
considered precious. Our tradition is of stewardship, 
conservation, preservation and environmental protection, and 
that tradition is long. We rely heavily on groundwater and 
freshwater from lakes. We believe in protecting our wetlands 
and ensuring that our air is fresh to breathe. However, lately 
our efforts to preserve and protect our environment have been 
jeopardized. Our State and local authorities have expressed 
concern about the effects of cuts to programs like the State 
and tribal grants program, the State Drinking Water Revolving 
Fund and the Clean Water State Revolving Fund. They are worried 
that as funding levels for programs decrease or remain 
stagnant, States are expected to provide a greater share of the 
funding, and at the same time pick up responsibility for 
implementing new requirements promulgated by the EPA. It is 
simply not fair to place unfunded mandates on our neighbors and 
communities back home.
    Let me also add that in Wisconsin, we are deeply concerned 
about the lack of attention that EPA is placing on efforts to 
reduce mercury pollution. Exposure to and consumption of 
mercury-laden fish can result in severe health effects. The EPA 
recognized this in its 2006 roadmap for mercury and outlined a 
number of promising programs to retire mercury-containing 
devices, address mercury releases to the environment and 
conduct mercury research and monitoring. Unfortunately, the 
administration's budget does not appear to provide the 
appropriate financial support or staffing levels needed to 
implement many of these initiatives. Meanwhile, we continue to 
hear about the dangers of exposure to mercury in our school 
classrooms, our water and our food supply. Mr. Chairman, I am 
hopeful that by holding these EPA budget hearings we will be 
able to able to refocus our attention back to environmental 
protection and show that protecting our environment should not 
solely be a State or interest group responsibility. Rather, the 
Federal Government has a role to play in ensuring that our air 
is clean to breathe, our water is safe to drink and our 
communities are preserved and protected for future generations 
to enjoy.
    I look forward to hearing the testimony of our witnesses. 
Thank you, Mr. Chairman.
    Mr. Wynn. I thank the gentlelady.
    At this point the Chair would recognize Mr. Terry.
    Mr. Terry. I waive.
    Mr. Shimkus. Mr. Murphy for an opening statement.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak at this hearing.
    Back in the 1800's, I believe it was Charles Darwin that 
referred to the city of Pittsburgh as ``Hell with the lid 
off.'' Up until the 1940's and 1950's, it was the city that 
when men came to work, they brought with them an extra shirt 
and they would change it at noontime because by then it was 
gray from the soot that was in the air. Pittsburgh, which 
obviously has a legacy of steel, and the region, which has a 
legacy of coal, of which we will have 190 years worth of coal 
long after Saudi Arabia is out of oil, still finds itself in 
making the transition from a century-plus of bad environmental 
policies. We probably have one of the highest numbers of 
environmental engineering companies in the Nation in Pittsburgh 
and they have made some significant progress as we have looked 
at how environment and health has worked to make positive 
changes. This includes such things as coal mine sites and 
continuing coal mines being turned into botanical gardens, 
which will be an economic engine for the region, large steel 
mill Brownfields which have been turned into vital shopping 
centers and housing areas of which the housing demand is so 
high in these areas people can't get them as far as they build 
them.
    Pittsburgh was home to a national bass fishing tournament 
in rivers that used to be ones that people would not even want 
to stand by, let alone see any fish in there. We have gone from 
the smoky city, Hell with the lid off, to an area that really 
as an example of one of the great, beautiful views of America. 
In fact, they say that standing from Mount Washington is 
probably second only to standing out and looking at the rocks 
in Arizona as a view.
    That being said, it has been done by large investments and 
upgrading, incentives for positive change, building 
partnerships for change with business and industries and public 
health, embracing positive solutions and engine for economic 
growth and doing those together, and not just with a heavy hand 
of ones that works to threaten or destroy our local economy as 
moving toward these. We all want, and our primary purpose 
should be looking at public health but that also has to partner 
with making sure we do not destroy our industries and our jobs 
in the meantime. I think all the public can agree on that, and 
sometimes I have questioned if EPA has all those things in mind 
too. I hope it does but I think we do best when we work 
together and we do worse when we work apart.
    So given that case, as we work to recognize that we are 
going to still need coal energy, we are going to still need to 
manufacture in the United States, we should be looking at ways 
to help transition from the legacy as opposed to just shutting 
it down. I suppose we could clean all the air and streams in 
America if we shut down our industry but then we would find 
everyone else struggling to even survive from there. So let us 
hope that all the aspects of this budget and all the working 
towards will be money well spend and money that is multiplied 
by working together with business and industry, communities and 
public health to clean our air, clean our water, cleanup our 
Brownfields by making these positive economic engines in place 
that we can be proud of.
    Thank you, Mr. Chairman.
    Mr. Wynn. Thank you. As a graduate of the University of 
Pittsburgh, I actually recognize the progress that you cite.
    At this time the Chair would recognize my good friend from 
North Carolina, who represents the district where I grew up, 
Congressman Butterfield.
    Mr. Butterfield. Thank you very much, Mr. Chairman. I don't 
have any prepared remarks. I simply want to thank you for your 
leadership and look forward to working with you on the 
subcommittee. I thank the witnesses for coming forward today. 
This is a very important subject, not only to America but to 
the world. And so thank you for your testimony. I look forward 
to hearing from you and look forward to working with all of you 
including my friends on the other side of the aisle.
    I yield back.
    Mr. Wynn. Thank you.
    At this time the Chair would recognize Mr. Rogers from 
Michigan.
    Mr. Rogers. I waive.
    Mr. Wynn. The Chair recognizes Mr. Barrow of Georgia.
    Mr. Barrow. I waive.
    Mr. Wynn. The Chair would recognize Ms. DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman.
    I want to echo Ms. Baldwin's dismay at the fact that this 
is the first hearing this committee has had on the EPA's budget 
since the Clinton administration and I think that is really 
shocking, but what is more shocking is what the administration 
has done to some of our most vital environmental and public 
health programs in that short amount of time. I do appreciate 
the willingness of our panel to come and testify today and tell 
us their views. I am pleased, Mr. Chairman, to see that real 
oversight has returned to Capitol Hill.
    I am also pleased to see Mr. Stupak here because I think 
between the two committees, the Environment and the Oversight 
and the Investigation Subcommittee, both of which I serve on, 
we know that your testimony will be very helpful to us as we 
begin to look and see not only what this budget means but also 
what the administration's environmental programs mean.
    Last fall, I was privileged to attend a ceremony at a site 
in Denver, the Shaddock site, which had been contaminated by 
hazardous waste and which had a Record of Decision where 
everything would be scraped in a big football field-sized area 
and left in the middle of a low-income residential 
neighborhood. I worked with Senator Allard on a bipartisan 
basis to get that Record of Decision reversed and now we are 
developing houses in that area, but while I was at that happy 
event, I got to spend some time talking to my local EPA staff 
in Denver and also to some of the activists and they confirmed 
what I have believed for several years now: we are not 
undertaking environmental enforcement at nearly the pace we 
should be in this country to protect the health and welfare of 
our citizens. There are a number of areas, and I hope to still 
be here to question the panel about these areas of concern that 
I have.
    I am concerned about the lack of reauthorization for the 
Polluter Pays tax into the Superfund. We may have many 
Superfund sites around this country that are not being cleaned 
up because there is not enough money in the Superfund and so I 
think that I am interested in learning either today or later 
what the impact of shifting the burden onto the taxpayer from 
the polluter has been in cleaning up these heavily contaminated 
sites.
    A second issue that I have been working on many years ever 
since I was in the Colorado State Legislature is the issue of 
Brownfields, and I am very concerned in this budget about the 
severe lack of funding for the Brownfields program. In 2005, 
for example, the EPA received 673 requests for funding but it 
only funded a third of the projects.
    And last, Mr. Bilirakis, the senior Mr. Bilirakis and I 
worked hard on the integrity and independence of the EPA 
ombudsman program and I am looking forward to knowing next week 
at the hearing that we have what is going on with the ombudsman 
program and under the current structure at the Inspector 
General's Office is the ombudsman really independent.
    And with that, Mr. Chairman, I thank you for having this 
hearing and yield back.
    Mr. Wynn. I thank the gentlelady, who has been a champion 
on environmental issues.
    At this time the Chair would recognize Mr. Pallone for an 
opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. Let me first 
congratulate you on becoming the Chair of the subcommittee. 
Having previously been the ranking member, I know the complex 
but critical issues under our jurisdiction here and I look 
forward to working with you. I know that several of us have 
mentioned how little the subcommittee has done over the past 
several years, and just the fact that you are having the EPA 
Administrator in front of us for the first time in his career 
next week I think says a lot about where we are going. In fact, 
I think it was already mentioned, for the first 6 years of the 
Bush administration we didn't even have a hearing on the EPA's 
budget requests, so obviously there are going to be some big 
changes here.
     President Bush's budget request is no different than what 
we have been getting in the past and I frankly think it is 
shameful because it is not going to allow the EPA to do its job 
in protecting human health and the environment, and I am 
particularly upset at the fact that there are cuts in programs 
that are critical to cleaning up the toxic legacy that plagues 
my district and my home State of New Jersey. For example, the 
request for the Superfund program is $7 million less than the 
enacted level, even though the administration lowered its 
target number of site cleanups mid-year and is clearly lagging 
behind in eliminating this most serious of environmental health 
threats. The Inspector General has previously noted the serious 
backlog in funding plaguing the program and I am eagerly 
looking forward to updated figures from Mr. Rogers' office.
    I would also like to note that the more and more we learn 
about funding problems with Superfund, the more urgent it 
becomes that we reinstate the Superfund taxes as Mr. Simms 
indicates in his written testimony, and I intend to reintroduce 
a bill that I have introduced in the past to bring back the 
taxes and put the burden for cleanups on the backs of 
polluters, not taxpayers.
    I am glad to welcome Mayor Bollwage from Elizabeth, New 
Jersey, here representing the U.S. Conference of Mayors. In 
your written testimony, Mayor, you make important points about 
the role of local governments in environmental protection and I 
agree with you about the need to fully fund the Brownfields 
program. I know that has always been a major issue for you. You 
talked about it with me many times. A few years ago when I was 
the ranking member, I helped author the Federal Brownfields 
program so I want you to know that I intend to introduce a 
reauthorization of that program so that we can continue to 
strengthen it.
    And finally, I want to recognize Mr. Langer here from the 
National Federation of Independent Business. In your testimony, 
you discuss your support of the EPA's recent changes that 
undermine the Toxics Release Inventory program. You may know 
that I have introduced a bill with Senator Lautenberg to 
restore this important program and protect communities' right 
to know about what toxic materials are dumped in their 
backyards, and I think TRI is a successful program that has 
gotten companies to voluntarily slash pollution without 
imposing burdensome regulations, and I believe it should be 
kept as it had been before the EPA's changes.
    So again, Mr. Chairman, thank you for holding this hearing. 
Congratulations. This subcommittee has a long history and under 
the Democrats previously was a very significant subcommittee. I 
remember our former Governor, Jim Florio, was once the chairman 
of it and so many things were done and I know that will happen 
again under your tutelage. Thank you.
    Mr. Wynn. Well, thank you, and I look forward to leading 
the committee to its former grandeur.
    At this time I would like to recognize Mr. Stupak, who is 
also the subcommittee chairman for Oversight and 
Investigations. Mr. Stupak.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman.
    After more than 6 years of little or no oversight of the 
Environmental Protection Agency from this committee, I am 
pleased we are finally holding hearings on EPA's budget 
proposals. As the chairman of Oversight and Investigations, I 
look forward to working to improved congressional oversight 
with this subcommittee on this very critical agency.
    State and local governments face a daunting task in 
protecting public health and providing a clean environment. 
They depend on the assistance on the Federal Government to 
cleanup environmental problems, update their water and 
wastewater infrastructure and protect residents from 
environmental hazards. Unfortunately, rather than helping 
States reach these goals, the President's fiscal year 2008 
budget faces significant burdens on State and local 
governments. By cutting funding for EPA and important programs 
such as the State Drinking Water Act Revolving Loan Fund, the 
Brownfield Revitalization Program, Superfund, Leaking 
Underground Storage Tanks, Beach Protection and others, the 
administration has made it harder for State and local 
governments to protect the public.
    Across the country, communities are struggling to keep up 
with the needs of their residents. Rather than cutting these 
programs, the Federal Government should be increasing the 
assistance so State and local governments can provide the basic 
health and environmental needs. Despite what the administration 
may think, slashing Federal environmental assistance does not 
save us money. Instead, we are merely passing the bucks onto 
States who are already struggling to make ends meet. More often 
than not, the States don't have the resources to fix 
environmental and public health hazards. The end result is the 
American people suffer the side effects, which usually include 
diminished health and poorer quality of life.
    In my district, preventing drinking water contamination is 
a major problem. Communities are having a hard time keeping up 
with the problems, whether they are aging infrastructure or 
polluted areas that are not being cleaned up. The Great Lakes 
is a source of drinking water for more than 30 million people. 
Programs that cleanup the Great Lakes developed by the Great 
Lakes Collaboration have been flat-funded in this budget as 
well as past budgets. This flat funding completely ignores the 
needs outlined by the Great Lakes Collaboration, which has 
recommended that water quality funding should be increased 
exponentially. As a result, we have community health 
departments and municipal water systems in Michigan that are 
attempting to cope with higher bacteria counts, closed beaches 
and sometimes even significant health concerns.
    The American people deserve better. Rather than passing 
hazardous public health and environmental problems onto local 
governments, this administration should take some leadership 
and accept the responsibility it has for protecting public 
health rather than ignoring it.
    I look forward to the testimony of our witnesses. I will be 
in and out but I hope to be back to ask questions at the 
appropriate time.
    Thank you again, Mr. Chairman. I look forward to working 
with you. I must say, I have been on this subcommittee for some 
time, and when Ms. Solis was the ranking chairperson we tried 
many, many times to have hearings on very important matters. We 
never really got too far so I look forward to working with you, 
and in my oversight role I am sure together we can move some 
good environmental legislation to help protect the American 
people and do the job we should be doing for them.
    Mr. Wynn. I want to thank the gentleman, and I concur. I 
look forward to working with him as well. I think we can get 
some real good things done.
    I also want to echo his sentiment in recognizing Ms. Solis, 
the former ranking member, current vice chair, who has been a 
tremendous leader on these issues, and it is with great 
pleasure that I recognize Ms. Solis for an opening statement.

 OPENING STATEMENT OF HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you, Mr. Chairman, and congratulations. 
Boy, how times have changed. I want to thank also Ranking 
Member Shimkus and I also just want to thank you again, Mr. 
Chairman, for having this hearing. I can tell you that this 
indeed has been a long-awaited time, 6 years in waiting to have 
the EPA come forward so we could have an oversight hearing 
regarding their budget.
    As policymakers and responsible parties, we know the 
importance of how we utilize our taxpayer dollars and it is our 
responsibility to understand what EPA has done in the last 6 
years or has not done, and over the 6 years I am seeing that 
many of the core programs that EPA is supposed to be in charge 
of and implementing have not been diligent in implementing many 
of the laws that they are supposed to be implementing and 
monitoring. In fiscal year 2008 in their budget, which if 
accepted, States will have lost over $1 billion in Federal 
support if you look back over to the year 2004. Under the 
Leaking Underground Storage Tank Program, we see more than $325 
million below authorized levels. The administration has cut its 
request for the Brownfield program from $120 million to $89 
million for a second year in a row, and the proposed budget 
that funds the Safe Drinking Water Act is at its lowest level.
    Despite the 2003 needs survey which was released in 2005 
identifying $263.3 billion in needs, these budget cuts and 
funding decisions have had real impacts on our communities 
across the country. State and local agencies may be forced to 
lay off staff, leave vacancies unfilled, shut down existing air 
monitors and otherwise curtail very important monitoring 
programs. EPA can't be sure that the cleanup at Libby, the 
Superfund site in Montana, sufficiently reduces the risk to 
public health. Regional and contract personnel are making 
judgments at this time about water systems despite not being 
the most qualified, and according to an article dated October 
31, 2006, in the Seattle Times, EPA region 10, which includes 
Hanford Nuclear Reservation and 40 percent of all tribes in the 
Nation, was forced to close its Environmental Justice Office 
because of budget cuts. Two-third of already burdened cities 
who are working to create economic opportunities by 
revitalizing formerly blighted areas are not getting 
Brownfields grants and more than 113,000 leaking underground 
storage tanks will continue to contaminate drinking water 
supplies and become even more costly when we do consider 
cleaning them up.
    I am concerned about the impact that our dereliction of 
oversight duty has had on the culture of the Agency, and 
specifically, I am concerned about the movement from funding 
core programs to funding unauthorized voluntary contractor-
based programs such as Performance Track, a program which 
currently uses 32 full-time employees and appears to reward 
noncompliant facilities.
    Mr. Chairman, I am eager to address these issues and join 
in that discussion with my colleagues on this committee such as 
the Toxic-Right-to-Know program, the library closures and human 
pesticide testing in our hearings this week and next and I look 
forward to working with all of my colleagues to get our Nation 
back on track.
    I yield back the balance of my time.
    Mr. Wynn. I thank the gentlelady, and we look forward to 
having the benefit of her expertise as we move forward.
    At this time the Chair would recognize Mr. Sullivan of 
Oklahoma.
    Mr. Sullivan. I have no opening statement. Thank you.
    Mr. Wynn. Thank you, sir.
    At this time I would recognize Mr. Green of Texas.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for the hearing today 
and I welcome our panelists.
    This hearing is the first oversight hearing on the 
Environment Protection Agency's budget in over 6 years and I am 
pleased that we are having this discussion on the issues we are 
facing today. The administration's fiscal year 2008 EPA budget 
request is significantly lower than the previous fiscal year 
budget request. Most people in this room are not surprised. I 
am particularly dismayed by the fact that 13 percent of the 
EPA's fiscal year 2008 budget request has been allocated to 
Clean Air. Of the $7.2 billion, the EPA is requesting only $912 
million be available for one of the most important issues 
facing our communities, air quality.
    In my statement I would like to highlight two important 
issues that did not get enough attention at the EPA or the 
public discussion the EPA's duty, air toxics control and EPA's 
role in accident prevention at chemical plants. In Houston we 
have significant high levels of air toxics and some of the 
highest in the Nation, although all major cities have levels 
that are too high. Many in my district feel that the Texas 
Commission on Environmental Quality, which regulates air toxics 
in my State, has failed to focus on the air toxics in Houston. 
The burden of reducing air toxics falls on the local 
communities, which is not the most effective way to solve the 
larger clean air issue. Cities provide water, streets, police, 
firefighters, so they do not have the resources to craft the 
best environmental regulations and to conduct enforcement.
    I believe the EPA needs to show more leadership on the air 
toxics issue, especially after a 2005 Inspector General report 
critical and a 2006 GAO report both found that not enough is 
being done at the Federal level. Some State agencies like our 
Texas Environment Quality with huge responsibilities and 
limited resources are not meeting communities' needs for all 
air toxic improvement so they need more Federal help. The EPA 
has set a bad example by repeatedly missing deadlines for 
setting the maximal achievement control technology standards 
and subsequent residual risk assessments. The EPA has recently 
tried to help out State and local governments on air toxic 
monitoring, which is the least they can do. However, we still 
have urgent needs for more monitoring information in my own 
area in Houston, which like large cities has a high 
concentration of air toxics, and I hope to hear more from the 
Inspector General on the issue.
    In addition, I would like to note that the EPA has a role 
in improving chemical facility risk management plans that 
address accident risk outside the fence line. However, reducing 
risk outside the fence line also reduces risk inside the fence 
line for workers at chemical facilities, many of whom are my 
constituents. Our office has heard that EPA has not fully 
implemented several of the recommendations over the years from 
the Chemical Safety Board. We also understand the EPA is not 
providing the Chemical Safety Board with the documents and 
information they are requesting for their investigation of 
dangerous incidents in refineries and chemical facilities. Most 
people think of OSHA when they think of workplace safety but in 
the area of chemical facilities, the EPA has a significant 
role. Perhaps the Inspector General should look into also 
whether EPA is taking these responsibilities seriously.
    Mr. Chairman, I am glad to be on the subcommittee and I 
look forward to our hearings. Thank you.
    Mr. Wynn. Thank you.
    Does any other Member wish to make an opening statement?
    If not, any other statements will be included in the record 
at this time.
    [The prepared statement of Mr. Barton follows:]

  Prepared Statement of Hon. Joe Barton, a Representative in Congress 
                        from the State of Texas

     Mr. Chairman, I commend you for having two hearings to 
examine EPA's proposed budget for this upcoming fiscal year. 
However, their appropriate sequence is upside down. I think for 
a couple reasons the administration, regardless of party, 
should testify first. It is our responsibility to have a dialog 
with the administration directly, not through the filter of 
special interest groups . It is the custom of this committee to 
afford the administration the courtesy of testifying first, 
regardless of party. Once that testimony is heard and our 
questions have been answered by the administration, then we 
turn to outside witnesses. In the spirit of inter-branch 
comity, I hope we can return to that practice in future 
hearings.
     Although some will want to use these hearings to make 
definitive statements about EPA's programs or spending 
priorities, I find that understanding EPA's efforts and 
priorities is akin to the job of herding cats.
     EPA is not a perfect agency, and our efforts should be to 
achieve an EPA that is competent, effective, and efficient. EPA 
is entering the middle of its fourth decade of existence. Its 
infrastructure and organization is predicated on a collection 
of well-meaning, but disparate laws. We need to ensure that 
EPA's efforts are focused, competent, reasoned, cost-effective, 
and successfully achieving those program goals that further 
public health protections.
    For this reason, I think the most important issue for our 
hearing today is whether, as EPA's mission statement proclaims: 
``public health'' is being protected and ``a cleaner, healthier 
environment'' is being produced for the American people. Next 
week, I plan to be more specific in my questioning about 
individual programs when the Administrator appears before our 
committee. Mr. Chairman, I hope you will lead us in pledging 
allegiance not to the programs of this Agency for their own 
sake, but rather to its mission and the people it serves.
    I welcome all of our witnesses and thank them for their 
participation. Despite the irregular order of the two hearings, 
I think it is essential that we hear from each of these 
witnesses as they represent an important segment of our public, 
private, and academic sectors. I am pleased to see the State 
and local governments here. They are an important part of our 
Nation's overall environmental strategy and we should welcome 
and encourage that partnership. However, while States and 
localities have special understanding and expertise, in this 
time of tight budgets, we should not hold the Federal Treasury 
out as a fund for pet projects that these levels of Government 
can and should fund themselves. This principle also applies to 
well funded private groups who receive EPA monies. We must 
maximize what we have rather than rely on increased taxes for 
these programs.
     I also appreciate the fact that small, medium, and large 
businesses are being represented on our panel today. EPA's 
budget, whether discussing new regulatory programs or the 
maintenance of existing ones, is a crucial factor for many of 
these groups and their employees. We cannot afford real 
environmental protection without a thriving economy and 
business should not always be seen as the environmental enemy. 
I believe there are productive voluntary programs that show 
American business can create, innovate, and grow as well as be 
good environmental stewards without the hammer of mandatory 
programs hanging over their heads. We should always encourage 
economic freedom when public health is not directly threatened.
     Mr. Chairman, I hope we can bring an engineer's penchant 
for thoughtful analysis and problem solving to these budget 
hearings. Let's focus on making EPA's efforts help people as 
opposed to bean counting, statistical manipulation, and 
political posturing.
     Again, I look forward to the testimony of our witnesses 
and thank the Chair for his kindness.
                              ----------                              

    Mr. Wynn. We will turn to our distinguished witnesses. I 
want to welcome each of you and thank you for coming. On our 
panel today, we have with us Mr. Bill Roderick, who is the 
acting Inspector General for EPA. We have Mr. J. Christian 
Bollwage, mayor of Elizabeth, New Jersey, and speaking on 
behalf of the United States Conference of Mayors. We also have 
Mr. Robert King, president of the Environmental Council of the 
States and deputy commissioner of South Carolina's Department 
of Health and Environmental Control. We have Mr. Andrew Langer, 
who is the manager of regulatory affairs for the National 
Federation of Independent Business; Mr. Maurice McTigue, 
director of the Government Accountability Project and vice 
president of the Mercatus Center at George Mason University, 
and we also have Mr. Patrice Simms, senior attorney at the 
Natural Resources Defense Council. I would like to welcome all 
of you.
    We will now have 5-minute opening statements from the 
witnesses. The prepared statements of the witnesses have been 
submitted and will be made a part of the hearing record.
    At this point I would like to recognize Mr. Roderick for an 
opening statement and wish to express a special appreciation to 
him for accommodating us by appearing on the same panel as 
witnesses who are not representing governmental interests, so 
Mr. Roderick, we thank you for coming.

  STATEMENT OF BILL RODERICK, ACTING INSPECTOR GENERAL, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Roderick. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and members of the subcommittee. I am Bill Roderick, 
Deputy Inspector General of the EPA. I have been serving as 
acting Inspector General since March 2006. I am pleased to 
testify during this oversight hearing on the EPA's budget. The 
views I express here today are those of the Office of Inspector 
General and do not represent the Environment Protection 
Agency's final position.
    An issue of primary and current concern in the Superfund 
program is whether there is sufficient funding for cleanups. 
Work that we did in 2003 at the request of Chairman Dingell and 
Congresswoman Solis showed a funding shortfall for non-Federal 
Superfund sites. We found that limited funding prevented EPA 
from beginning construction at all sites and providing 
additional funds needed to address sites. We estimated that the 
fiscal year 2003 site-specific funding shortfall was nearly 
$175 million. One of these sites was Libby, Montana. The 
remedial project manager at the time indicated to us that an 
additional $740,000 was needed for sampling and to conduct a 
study to determine the cost-effective method for quantifying 
the amount of asbestos in the soil.
    More recently, funding was again raised as a concern in a 
report we issued in December 2006 that looked at EPA's cleanup 
efforts in Libby. In our limited review, we identified 
significant issues that we believed were critical to the 
successful cleanup. EPA has not completed a toxicity assessment 
necessary to determine the safe level for human exposure to 
asbestos. Therefore, EPA cannot be sure that the Libby cleanup 
sufficiently reduces the risk that humans may become ill. One 
of the reasons provided by OSWER officials for not performing a 
toxicity assessment was that while it was proposed, EPA did not 
approve the budget request. We recommended that EPA fund and 
execute a comprehensive asbestos toxicity assessment to 
determine the effectiveness of the Libby removal actions and to 
determine whether more actions are necessary. EPA responded 
that they are committed to beginning a toxicity assessment 
early this year.
    Superfund mega-sites are taking a financial toll on the 
program because their cleanup is costly, complex and lengthy. 
In 2004 we identified 156 hardrock mining sites nationwide that 
have the potential to cost between $7 and $24 billion to 
cleanup. These costs were over 12 times EPA's total annual 
Superfund budget. Most of these hardrock mining sites are 
located in the western and southeastern United States. These 
sites will impact those States because EPA eventually turns 
over responsibility for long-term response actions to the 
States.
    We noted several organizational and accounting obstacles 
that impact EPA's ability to efficiently and effectively manage 
the Superfund resources. EPA has disbursed responsibilities for 
Superfund management and resources so that no single EPA office 
including OSWER, which is the office accountable for Superfund 
cleanup goals, has full responsibility or control over EPA 
Superfund appropriation.
    Another obstacle we identified is EPA continuing to 
maintain unliquidated Superfund obligations and money in 
special accounts as a hedge against tough financial times. We 
made several recommendations to help address those issues.
    I understand that the subcommittee is concerned about the 
resources being expended on EPA's partnership programs. Some of 
these programs report very small budgets and only a fraction of 
the staff members' time devoted to operating them. Other 
programs report more. We are currently evaluating one of these 
programs, Performance Track. We initiated this review to 
evaluate how the program contributes to EPA's goal of improving 
environmental performance through pollution prevention and 
innovation and how well it accomplishes its program goal of 
recognizing and encouraging top environmental performers. To do 
this, our approach was to analyze a randomly selected sample of 
40 member facilities to determine if they met their Performance 
Track commitments and assess how much progress they have made. 
In order to demonstrate these facilities represent top 
performers, we also sought to compare sample facilities' 
compliance records and toxic release with others in their 
sectors. We are compiling compliance information from EPA 
databases and verifying individual facility data for sample 
members with reasonable enforcement and compliance data 
stewards. Since this work is incomplete, I am unable to report 
on our findings and recommendations at this time. We expect to 
issue a final report in April. I will gladly brief everyone 
that wants to have the details of that audit.
    The OIG's fiscal year 2008 budget request will enable us to 
meet our statutory obligations and other higher priority work. 
However, at these levels we will be challenged to meet every 
demand placed upon us. We will need to make some difficult 
choices in order to ensure the OIG remains a catalyst for 
improving the quality of the environment.
    Thank you for the opportunity to testify today. We view all 
of you on the committee as our customers and we would be 
pleased to answer any questions you have at this time.
    [The prepared statement of Mr. Roderick follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.001
    
    [GRAPHIC] [TIFF OMITTED] T8829.002
    
    [GRAPHIC] [TIFF OMITTED] T8829.003
    
    [GRAPHIC] [TIFF OMITTED] T8829.004
    
    [GRAPHIC] [TIFF OMITTED] T8829.005
    
    [GRAPHIC] [TIFF OMITTED] T8829.006
    
    [GRAPHIC] [TIFF OMITTED] T8829.007
    
    [GRAPHIC] [TIFF OMITTED] T8829.008
    
    [GRAPHIC] [TIFF OMITTED] T8829.009
    
    [GRAPHIC] [TIFF OMITTED] T8829.010
    
    [GRAPHIC] [TIFF OMITTED] T8829.011
    
    [GRAPHIC] [TIFF OMITTED] T8829.012
    
    [GRAPHIC] [TIFF OMITTED] T8829.013
    
    Mr. Wynn. Thank you very much, Mr. Roderick. As you know, 
we have a vote coming up but I think we have time to have 
testimony from Mr. Bollwage, so we will proceed with that. Then 
we will recess until after the vote. Mr. Bollwage.

 STATEMENT OF J. CHRISTIAN BOLLWAGE, MAYOR, CITY OF ELIZABETH, 
                         ELIZABETH, NJ

    Mr. Bollwage. Thank you very much, Mr. Chairman. First I 
would like to request a technical correction in my prepared 
testimony on paragraph 4, page 3, changing it from $150 to $200 
million. Thank you, Mr. Chairman.
    Mr. Wynn. Certainly.
    Mr. Bollwage. Mr. Chairman, ranking member and my friend, 
Congressman Pallone, members of the committee, I am Chris 
Bollwage, the mayor of the city of Elizabeth for the past 15 
years. I also serve as a trustee for the U.S. Conference of 
Mayors and co-chairman of the Mayors Brownfields Task Force.
    Mayors have an interest in broader environmental issues 
including increasing our energy independence in an 
environmentally sound way and protecting our climate, and as 
chief executives of our cities, we are in a unique position. We 
are on the front lines protecting the health of our citizens. 
Unfortunately, however, we are at the end of the line when it 
comes to unfunded mandates. Mayors do not have a problem with 
passing good environmental public policy. We have a problem 
with passing the public policy without providing the necessary 
resources to pay for it. There is no one left at the local 
level that we can pass on these costs except to our 
constituents, which we often have to do.
    So I wanted to take this opportunity as you deliberate the 
various environmental rules and regulations that come before 
you to keep in mind that some costs will be incurred by local 
government and our citizens and I hope that Congress is going 
to take a hard look at where we are spending our money to 
determine what the priorities should be for our Nation if we 
are to remain economically competitive with the rest of the 
world. We need to balance our budget every year and sometimes 
that means deciding the best paths for the future with the 
limitations we have, and on this EPA oversight hearing, I want 
to outline some of the priorities for the Nation's mayors and 
the most useful programs and ask that all of you do your part 
in fully funding these programs.
    Brownfields, which many of you mentioned in your opening 
statements--I have been the co-chair of the U.S. Conference of 
Mayors for 12 years, have had extensive conversations with 
Congressman Pallone about this issue and I want to commend EPA 
for listening to the mayors at that time and establishing the 
EPA Brownfields program. It has been extremely successful in 
cleaning up thousands of acres of sites and turning formerly 
blighted areas into productive pieces of property. There is 
still a lot of unrealized potential. Currently the Brownfields 
law has authorized $250 million. It never received more than 
$162 million. It is estimated there are 400,000 to 600,000 
Brownfield properties in the United States, and as you said, 
Mr. Chairman, currently only one out of three qualifying 
Brownfield applications are funded. The Conference of Mayors 
and members of a Brownfields coalition are pleased to hear that 
Congressman Pallone is going to introduce the reauthorization 
of the Brownfields Law.
    On a related topic, the Superfund program, many properties 
are still in the process of being assessed and cleaned up. 
Mayors who have Superfund sites in their communities are 
anxious to have these sites cleaned up and we urge Congress to 
reinstate the Superfund taxes and assist EPA with its efforts 
to expedite the cleanup of these severely contaminated sites, 
and we thank you, Congressman Pallone, for those comments.
    As this committee debates the issue of climate change, 
mayors would like for you to consider a multilevel approach to 
help deal with this problem. A cap and trade program as well as 
encouragement for alternative energy sources and fuel 
efficiency will be needed to reduce greenhouse gas emissions at 
the national level. However, there are many solutions that are 
coming from the local level. The conference has held two 
national summits that brought together public and private 
sector to highlight what is currently being done and what can 
be done to increase our Nation's independence. Through the 
conference's work we have determined that much more could be 
done. That is why the mayors of this Nation are proposing the 
formation of an Energy and Environmental Block Grant, EEBG. Our 
proposal would require local governments to determine their 
carbon footprint and create a plan for reducing their 
greenhouse gas emissions. Monies could be used to implement 
this plan.
    The Mayors' Water Council conducted a survey that asked 
cities to identify the most important resources and issues they 
face. The top three: rehabilitating aging water and wastewater 
infrastructure, security protection of water resources and the 
water supply availability. The MWC prepared a report on city 
attitudes about the Clean Water State Revolving Loan Fund 
program and the Safe Drinking Water State Revolving Loan 
program. The findings indicate that cities generally prefer to 
use municipal bonds and pay as you go rather than the SRF 
loans. The primary reason for this is because it is more cost 
efficient due to better finance terms and greater time 
certainty in the finance process. As often cited figures, local 
governments are responsible for 90 percent of the public-
purpose water investments and the U.S. Bureau of the Census 
reports that combined municipal expenditures for water and 
wastewater infrastructure are second only to educational 
expenses.
    While most mayors are not directly responsible for most 
clean air programs, we have local and State agencies that are, 
and at the city level we are responsible for implementing many 
of the programs that can have tremendous clean air benefits.
    In conclusion, Mr. Chairman, I know I could have come here 
today and identified programs at EPA that could be cut in order 
to meet our environmental priorities. However, I hope you 
recognize that the needs of this Nation are great, as all of 
you do, to remain a competitive nation. I know that budgets are 
strained but I hope you will take up the Nation's mayors' offer 
on our offer to work with you in solving a lot of these 
problems.
    [The prepared statement of Mr. Bollwage follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.014
    
    [GRAPHIC] [TIFF OMITTED] T8829.015
    
    [GRAPHIC] [TIFF OMITTED] T8829.016
    
    [GRAPHIC] [TIFF OMITTED] T8829.017
    
    [GRAPHIC] [TIFF OMITTED] T8829.018
    
    [GRAPHIC] [TIFF OMITTED] T8829.019
    
    [GRAPHIC] [TIFF OMITTED] T8829.020
    
    [GRAPHIC] [TIFF OMITTED] T8829.021
    
    [GRAPHIC] [TIFF OMITTED] T8829.022
    
    [GRAPHIC] [TIFF OMITTED] T8829.023
    
    [GRAPHIC] [TIFF OMITTED] T8829.024
    
    [GRAPHIC] [TIFF OMITTED] T8829.025
    
    [GRAPHIC] [TIFF OMITTED] T8829.026
    
    Mr. Wynn. Thank you for your very constructive testimony. 
At this time the committee is going to stand in recess until 
immediately following the last vote of this series of votes. 
Thank you.
    [Recess]
    Mr. Wynn. Mr. King, I believe you have the microphone.

  STATEMENT OF ROBERT W. KING, JR., PRESIDENT, ENVIRONMENTAL 
  COUNCIL OF THE STATES; DEPUTY COMMISSIONER, SOUTH CAROLINA 
         DEPARTMENT OF HEALTH AND ENVIRONMENTAL CONTROL

    Mr. King. Thank you, Mr. Chairman, and members of the 
committee for providing the Environmental Council of States, 
ECOS, the opportunity to present testimony on the U.S. 
Environmental Protection Agency's 2008 budget.
    My name is Robert W. King, Jr., and I am the deputy 
commissioner for Environmental Quality Control at the South 
Carolina Department of Health and Environmental Control. Today 
I am here representing not only my State but all the 
environmental agencies in the States belonging to our 
organization. Our comments are primarily directed to the STAG 
portion of EPA's budget.
    States are co-regulators with the U.S. EPA and have the 
challenging job of frontline implementation of our Nation's 
environment pollution laws. EPA has delegated most of the work 
on the core environmental responsibilities to us. Today States 
are responsible for managing most of the delegable 
environmental programs and rules, issuing environmental and 
public health standards under Federal laws and for State-
specific laws, issuing most environmental permits, collecting 
nearly 94 percent of the environmental monitoring data and 
conducting over 90 percent of all enforcement actions.
    Funds have been provided to the States to assist them in 
the implementation of Federal programs. States also provide 
funds for these programs, anywhere from half to 90 percent of 
the costs. Federal funds are important to States because they 
are targeted to specific programs and help States meet Federal 
requirements such as permitting, enforcement, monitoring, 
standards development, rule issuance and reporting, in short, 
all the significant components of our co-regulator agreements 
with the Federal Government.
    In the 2008 budget development cycle, EPA for the first 
time involved the States in the early stages of the budget's 
development and we were very appreciative of this opportunity. 
The ECOS officers presented information to the Agency and 
proposed a tier of priorities shown in figure 2 of our package. 
Our highest priorities included programs mandated by Congress 
in the major environmental statutes. The EPA accepted some of 
these recommendations but the 2008 budget continues a downward 
funding trend as shown in figure 1.
    If Congress accepts the 2008 proposal for STAG, it will 
mean that States will have lost over $1 billion in Federal 
support since 2004. This has come at the same time U.S. EPA has 
promulgated a significant number of new rules for the States to 
implement. From 2000 to 2006, EPA issued and proposed 390 new 
rules with a significant impact on the States. Figure 3 
demonstrates the dilemma States are in with the rising number 
of rules for States to implement while funds decrease.
    While States are reluctant to return Federal programs to 
EPA for many reasons, we have begun to see this happen as well 
as delays in implementation of new rules. This is highlighted 
in additional information I have provided you regarding the 
problems State drinking water and air programs are facing. Time 
does not permit a thorough review of these details but let me 
say this. The proposal in the EPA's budget to cut the air 
programs by $35 million will be particularly difficult for 
States. Many will have to cease operating existing monitors or 
curtail their monitoring programs. It will also affect 
development of State implementations for ozone and particulate 
matter standards, which reduce air pollution and protect public 
health. Declining Federal support and dramatically increased 
workloads in the drinking water program have resulted in about 
half of the States simply unable to take on implementation of 
some portion of these new rules.
    ECOS has again proposed an alternative budget for the STAG 
portion of the EPA 2008 budget that addresses our concern with 
continuing reductions of congressionally-mandated environmental 
statutes. This proposal is based on principles agreed upon by 
the ECOS members which include in times of fiscal crisis when 
the resources are in short supply the core mandated 
environmental programs funded through STAG and infrastructure 
capitalization must be funded first and reductions in EPA 
budget, if they must occur, should be shared proportionately by 
EPA and the States after STAG levels are returned to their 2004 
levels.
    The States are thankful for the opportunity to present our 
views to the committee and hope that Congress can assist us as 
we implement the Nation's environmental statutes as a co-
regulator with the U.S. EPA.
    Thank you, Mr. Chairman, for this opportunity to testify 
and I will be happy to answer any questions later. Thank you.
    [The prepared statement of Mr. King follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.027
    
    [GRAPHIC] [TIFF OMITTED] T8829.028
    
    [GRAPHIC] [TIFF OMITTED] T8829.029
    
    [GRAPHIC] [TIFF OMITTED] T8829.030
    
    [GRAPHIC] [TIFF OMITTED] T8829.031
    
    [GRAPHIC] [TIFF OMITTED] T8829.032
    
    [GRAPHIC] [TIFF OMITTED] T8829.033
    
    [GRAPHIC] [TIFF OMITTED] T8829.034
    
    [GRAPHIC] [TIFF OMITTED] T8829.035
    
    [GRAPHIC] [TIFF OMITTED] T8829.036
    
    [GRAPHIC] [TIFF OMITTED] T8829.037
    
    [GRAPHIC] [TIFF OMITTED] T8829.038
    
    Mr. Wynn. Thank you very much for your testimony, Mr. King.
    Mr. Langer.

  STATEMENT OF ANDREW M. LANGER, MANAGER, REGULATORY AFFAIRS, 
          NATIONAL FEDERATION OF INDEPENDENT BUSINESS

    Mr. Langer. Chairman Wynn and members of the subcommittee, 
thank you for the opportunity to testify this morning on the 
issue of the EPA's budget.
    I would like to say at the outset that while my prepared 
written and oral remarks represent the collaborative views of 
NFIB, the U.S. Chamber of Commerce and the National Association 
of Manufacturers, any questions I might answer following my 
testimony will represent the views of NFIB and not the other 
two organizations. I hope that is alright.
    I am here today to talk about the EPA's relationship to 
America's smallest businesses. Businesses with fewer than 20 
employees comprise roughly 90 percent of the universe of 
businesses in America. These businesses want to comply with the 
Nation's environmental laws but invariably they find compliance 
to be a difficult and cumbersome proposition. The EPA's 
proposal is to spend just over a half-billion dollars on 
environmental enforcement this year. Their term is ``compliance 
improvement.'' This number is dwarfed, however, by the mandates 
by EPA. If environmental regulations account for roughly 40 
percent of regulatory costs and regulatory costs last year were 
$1.13 trillion, then Americans spent more than $400 billion in 
complying with Federal environmental regulations alone.
    In the private sector, we have learned that more money does 
not equal more results, and our members constantly strive to 
achieve more and better results with less money and fewer 
resources. EPA's budget does not exist in a vacuum. It 
represents choices, choices between larger priorities in the 
Federal budget including homeland security, worker safety and 
trade promotion. Through that lens we view the EPA budget as 
one that makes tough choices in an environment of limited 
resources, and there are a number of ways one can look at 
regulatory costs both through efforts to reform regulation and 
in looking at ways to streamline the regulatory compliance 
process itself.
    For the purposes of today's testimony, I want to focus on 
that end of the pipeline, compliance assistance efforts. It is 
well established that regulatory agencies get a greater ``bang 
for the buck'' when they promote compliance assistance over 
enforcement. It is more cost-effective than dedicating enormous 
resources towards investigations and prosecutions and gets us 
closer to the goals of more comprehensive environmental 
compliance. In terms of giving people foreknowledge of their 
responsibilities and walking them through how they can fulfill 
their obligations, it is compliance assistance and not 
enforcement that will get us closer to our ultimate goal of 100 
percent compliance with 100 percent of regulations 100 percent 
of the time. The movement away from enforcement as a primary 
tool of compliance improvement is one that will have to be 
driven by Congress, however. Continued oversight, encouragement 
and budgetary prodding are going to be necessary. The Agency 
ought to be rewarded when they decide to shift money away from 
sticks and directed towards blackboards.
    Unfortunately, the regulatory state is so complex, I want 
you to consider for a moment that the Code of Federal 
Regulations itself is thousands upon thousands of pages, 
roughly 19 feet of shelf space that is out there, and what a 
small-business owner needs to do to figure out his 
responsibilities is next to impossible. It is next to 
impossible for them to be in compliance with all the regulatory 
requirements he faces. But imagine a system in which a small-
business owner can enter simple information about his business, 
then that system takes this information and spits out each and 
every regulation that applies to this business along with 
simple compliance information. Yes, this is an ambitious idea 
but in an era in which huge databases can be accessed from 
thousands of miles away, it is not an impossible task. The 
current iteration of this, the Business Gateway, Business.gov, 
is a solid step in the right direction, but it must do more, 
far more in terms of offering a simple way for businesses to 
determine what their regulatory responsibilities are and to 
make living up to those responsibilities as easy as possible. 
What it will take is leadership from Congress, funding, 
oversight and a political will to see it happen.
    If Congress is serious about environmental compliance, then 
it must do something about making a fully functional, fully 
realized Business Gateway a reality. Once that is established, 
businesses know their responsibilities and compliance is made 
as simple as possible and then businesses will not only have 
the time and resources to devote to helping the Government 
craft smarter regulations, they will have an incentive to be 
invested in the process. And while we believe that Business 
Gateway will be a tremendous tool for truly improving 
compliance, we recognize that there are a number of interim 
steps that must be taken, steps that will also require 
tremendous leadership on the part of Congress. Success of the 
Business Gateway will hinge on the quality of the information 
it provides, simple explanations and easy-to-understand-and-
follow step-by-step instructions on how to comply. That means a 
wholesale restructuring of the information that is conveyed to 
the public, a comprehensive review of all regulations mandated 
by the Agency, the review of all guidance documents, manuals 
and other publications the citizen uses to determine what their 
obligations are and how to go about complying with them. Then 
the Agency will have to start building from the ground up, 
creating plain-language guides to each of their regulatory 
regimes, guides that are as short as possible, guides that are 
easy to find, guides that take a commonsense approach to 
compliance, walks small-business owners through their 
compliance process and offer them clear suggestions of what 
they ought to be doing to be in compliance with a particular 
regulation.
    There are no two ways about it: this will be a Herculean 
task. Nevertheless, it must be undertaken. Heretofore the 
Agency has balked at such reviews and it is not difficult to 
understand why. They get no credit for it, simply put. Why put 
resources into developing easy-to-understand compliance guides 
when Congress and active stakeholders are going to ask them why 
they didn't spend more resources on investigations and 
prosecutions.
    Thank you very much for allowing me to testify, and I look 
forward to answering any questions you might have.
    [The prepared statement of Mr. Langer follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.039
    
    [GRAPHIC] [TIFF OMITTED] T8829.040
    
    [GRAPHIC] [TIFF OMITTED] T8829.041
    
    [GRAPHIC] [TIFF OMITTED] T8829.042
    
    [GRAPHIC] [TIFF OMITTED] T8829.043
    
    [GRAPHIC] [TIFF OMITTED] T8829.044
    
    [GRAPHIC] [TIFF OMITTED] T8829.045
    
    [GRAPHIC] [TIFF OMITTED] T8829.046
    
    [GRAPHIC] [TIFF OMITTED] T8829.047
    
    [GRAPHIC] [TIFF OMITTED] T8829.048
    
    [GRAPHIC] [TIFF OMITTED] T8829.049
    
    [GRAPHIC] [TIFF OMITTED] T8829.050
    
    [GRAPHIC] [TIFF OMITTED] T8829.051
    
    [GRAPHIC] [TIFF OMITTED] T8829.052
    
    [GRAPHIC] [TIFF OMITTED] T8829.053
    
    Mr. Wynn. Thank you very much.
    Mr. McTigue.

      STATEMENT OF MAURICE MCTIGUE, DIRECTOR, GOVERNMENT 
  ACCOUNTABILITY PROJECT, GEORGE MASON UNIVERSITY, FAIRFAX, VA

    Mr. McTigue. Thank you, Mr. Chairman, and thank you to the 
members of the committee for the invitation to be present here 
today.
    I have now been in the United States for 9 years and I have 
spent those 9 years on the faculty of George Mason University 
and my interest there has been to do research work on 
accountability in government. It is from that perspective that 
I am going to speak to you this morning. Preceding that 9 years 
that I have spent in the United States, I was nearly 4 years in 
Canada as New Zealand's ambassador to Canada and the Caribbean 
and that was preceded by 10 years as an elected member of 
Parliament in the New Zealand Parliament, and some of that 
period of time I spent also as a member of Cabinet where 
Cabinet members under parliamentary system were also members of 
the legislature. But one of my portfolios was associate 
minister of finance and in that portfolio I was responsible for 
controlling the Government's spending and it is from that 
background that I want to make comments to you this morning 
about the process of budgeting.
    Since I have been in America, there have been some 
innovations which I think are important, particularly in terms 
of the quality of the information that they put before 
committees when they make decisions about budgets. One of them 
is GPRA, the fact that it requires results information to be 
produced. The move towards performance budgets as part of the 
President's Management Agenda and the Program Assessment 
Reading Tool are subsequent processes that produce us with 
better information.
    The process of making budget decisions really revolves 
around some very simple tasks and some relatively simple 
questions, the answers to which are often very difficult. A 
department makes a budget request. Congress must then decide 
whether or not to grant the request. What should the committee 
know before it grants the department's request is the piece of 
knowledge that I want to address, and that encompasses four 
major questions. First, how big is the problem; second, what 
progress has been made; third, how much is left to be done; 
fourth, will the current tools and strategies provide the 
remedy; fifth, how quickly can the current tools achieve the 
result; and sixth, is this an acceptable level of progress.
    The answers to these questions are a mix of facts and 
values. The departments should be providing you with the 
necessary facts. The value judgments should be made by the 
political process. In the case of this budget request, the two 
value judgments to be exercised by the political process are: 
should we spend money on this activity, and the second one, is 
this enough money to make acceptable progress.
    Comments on the EPA's information in their budget 
justification are as follows. First, I would like to 
congratulate OMB on the decision to make budget justification 
information readily available to researchers and the public and 
it is from information that I make my comments. When I look at 
EPA's budget request, what I find are two problems, in my view, 
with the EPA's budget information. The first is the lack of 
information to demonstrate the scale of the problem, how big is 
this issue. The second is the lack of information that would 
indicate acceptable progress on resolution of this problem.
    I am now going to quote you something from the EPA's budget 
justification and it is under the strategic objectives for 
clean air and global climate change and it reads as follows. 
``By 2030, through worldwide action, ozone concentrations in 
the stratosphere will have stopped declining and slowly begun 
the process of recovery and overexposure to ultraviolet 
radiation, particularly among susceptible populations such as 
children, will be reduced.'' That sounds good until you ask the 
following question: So how many people will contract skin 
cancer from this cause over the next 23 years and who will they 
be and from what populations. Without that knowledge, we don't 
know how serious that problem is or whether or not progress is 
rapid enough.
    Now I going to quote from some information that I picked up 
from the science and technology part of EPA's budget, and this 
is about the air toxics program and here is what it actually 
says when it looks at the measures. ``The measure is the 
cumulative percentage reduction in tons of toxicity weighted 
for non-cancer risk emissions of air toxics before using the 
1993 baseline.'' First problem: the data for 2006 will not be 
available until 2009. That is not acceptable. The target for 
2006 was a 58 percent reduction. The target for 2007 was a 58 
percent reduction. The target for 2009 was a 59 percent 
reduction. If zero is the goal, the problem will be eliminated 
by the year 2048. Is that satisfactory progress? And I don't 
think it tells us that because it doesn't tell us whether zero 
is the right target if that is where we need to get to.
    Here is a more serious one, in my view. Same issue, the 
cumulative percentage reduction in tons of toxicity-weighed for 
cancer risk emissions of air toxics from the 1993 baseline. 
Once again, the data for 2006 not available. But the targets 
are 34 percent for 2006, 35 percent for 2007 and 35 percent for 
2008.
    Mr. Chairman, if that is factual information, it means 
their problem never gets fixed. This is the kind of information 
I think should be in front of the committee if it is able to do 
its job well.
    Thank you for the opportunity of being able to present in 
front of you.
    [The prepared statement of Mr. McTigue follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.054
    
    [GRAPHIC] [TIFF OMITTED] T8829.055
    
    [GRAPHIC] [TIFF OMITTED] T8829.056
    
    [GRAPHIC] [TIFF OMITTED] T8829.057
    
    [GRAPHIC] [TIFF OMITTED] T8829.058
    
    [GRAPHIC] [TIFF OMITTED] T8829.059
    
    [GRAPHIC] [TIFF OMITTED] T8829.060
    
    [GRAPHIC] [TIFF OMITTED] T8829.061
    
    [GRAPHIC] [TIFF OMITTED] T8829.062
    
    Mr. Wynn. Thank you, Mr. McTigue.
    Mr. Simms.

STATEMENT OF PATRICE SIMMS, SENIOR ATTORNEY, NATURAL RESOURCES 
                        DEFENSE COUNCIL

    Mr. Simms. Good morning, Chairman Wynn, Ranking Member 
Shimkus, members of the committee. Thank you for inviting me to 
speak with you today. My name is Patrice Simms. I am a senior 
attorney with the Natural Resources Defense Council.
    I would like to address a few specific concerns that NRDC 
has and I want to start with a couple of concerns that have a 
common theme, and that theme is transparency, accountability 
and oversight. The two issues relate to, one, the outsourcing 
of important functions within the Agency's authority and, two, 
the increasing use of voluntary programs instead of regulatory 
programs within the Agency over the last several years.
    Some clear examples of troubling relationships that 
demonstrably compromise quality of EPA's scientific inquiry, 
and one of those is the Agency's relationship with the 
International Life Sciences Institute. This is an example of 
the situation where the Agency has farmed out some of its 
responsibilities in a particularly troubling way. In 2003, the 
EPA issued some proposed guidelines that were based almost 
entirely on a policy proposal that was drafted by an ILC 
subgroup using EPA funding. Those guidelines addressed how to 
assess the toxicity of certain chemicals, chemicals that are 
used in, for example, Dupont's Teflon. That report was later 
rejected by an independent scientific panel and subsequently in 
2005 Dupont paid more than $16 million to settle charges that 
it had hidden information for two decades about the toxicity of 
Teflon chemicals. And I just cite that as an example of a 
situation that presents serious problems for the Agency in 
terms of its public accountability, the public perception of 
the Agency and the Agency's scientific credibility.
    Congress should ensure that money going to EPA is used in a 
manner that preserves the Agency's scientific integrity and 
that important science activities that the Agency funds are 
conducted with adequate transparency and direct lines of 
accountability.
    Another recent trend, as I mentioned, is voluntary 
programs. While some voluntary programs produce important and 
substantial benefits, NRDC is concerned with others that 
provide few real benefits and give the erroneous impression 
that important environmental issues are being adequately 
addressed.
    The Performance Track program is a fine example of a 
voluntary program that has gone awry. It has as a central 
feature some deregulatory off-ramps that potentially compromise 
the effectiveness and integrity of existing regulatory 
programs. In addition, there is little evidence to suggest that 
this program actually accomplishes better environmental 
results.
    In sum, NRDC is very concerned about EPA's expenditures on 
voluntary programs that are not subject to rigorous oversight, 
allow for so-called regulatory streamlining and cannot 
demonstrate meaningful environmental payoffs, especially where 
those programs appear to take the place of prudent regulatory 
alternatives. I look forward, as I am sure you do, to seeing 
the Inspector General's report on Performance Track and I hope 
it is a rigorous and thorough report.
    I would like to turn to a quick discussion of a few EPA 
programs that are chronically underfunded. Chairman Wynn 
mentioned a few of these at the beginning in his opening 
testimony and I would like to echo some of them. Superfund, the 
Nation's premiere program for cleaning up hazardous waste, has 
paid huge dividends over the years, facilitating the cleanup of 
hundreds of the most contaminated sites in the country yet it 
is currently underfunded and bankrupt. The current budget 
proposal is for $1.24 billion for Superfund, $14 million less 
than requested in 2006. At the same time the fund is dried up, 
cleanups have also slowed. During the 1990's, the number of 
cleanups ranged from 88 cleanups in 1992 to only 61 in 1994. 
However, in 2001 there was a dramatic drop-off from the 2000 
number, being 87 cleanups in 2000 and only 47 in 2001. In 2006, 
only 40 site cleanups were completed and EPA has a target of 
only 24 site cleanups for 2007. Despite the meager request for 
Superfund, there are still hundreds of sites on the national 
priorities list and more being discovered each year. 
Underfunding this program does a material disservice to the 
American public and Congress should fund this program at least 
to the $1.7 billion that is recommended by Resources for the 
Future.
    Another funding concern is the Safe Drinking Water Act, 
State Revolving Fund. There is a tremendous burden on the 
States to improve the infrastructure over the next 20 years, 
$276 billion estimated by the EPA.
    And finally, I would like to touch really quickly on the 
underground storage tank program, 117,000 known leaking 
underground storage tanks now, some 54,000 of which will 
require public funds for cleaning up. A total of $14.5 billion 
will be needed over the next 5 years. Clearly, the funds are 
there to do that, and that should be part of what this Congress 
funds the Agency to do.
    I see my time is up. I have just a couple other things I 
wanted to point to in my written testimony. I wanted to mention 
that reduction in funding for environmental justice is very 
serious and upcoming needs for carbon sequestration framework 
and examination of nanotechnologies.
    Thank you very much.
    [The prepared statement of Mr. Simms follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.063
    
    [GRAPHIC] [TIFF OMITTED] T8829.064
    
    [GRAPHIC] [TIFF OMITTED] T8829.065
    
    [GRAPHIC] [TIFF OMITTED] T8829.066
    
    [GRAPHIC] [TIFF OMITTED] T8829.067
    
    [GRAPHIC] [TIFF OMITTED] T8829.068
    
    [GRAPHIC] [TIFF OMITTED] T8829.069
    
    [GRAPHIC] [TIFF OMITTED] T8829.070
    
    [GRAPHIC] [TIFF OMITTED] T8829.071
    
    [GRAPHIC] [TIFF OMITTED] T8829.072
    
    [GRAPHIC] [TIFF OMITTED] T8829.073
    
    [GRAPHIC] [TIFF OMITTED] T8829.074
    
    [GRAPHIC] [TIFF OMITTED] T8829.075
    
    [GRAPHIC] [TIFF OMITTED] T8829.076
    
    [GRAPHIC] [TIFF OMITTED] T8829.077
    
    [GRAPHIC] [TIFF OMITTED] T8829.078
    
    [GRAPHIC] [TIFF OMITTED] T8829.079
    
    [GRAPHIC] [TIFF OMITTED] T8829.080
    
    [GRAPHIC] [TIFF OMITTED] T8829.081
    
    [GRAPHIC] [TIFF OMITTED] T8829.082
    
    [GRAPHIC] [TIFF OMITTED] T8829.083
    
    [GRAPHIC] [TIFF OMITTED] T8829.084
    
    [GRAPHIC] [TIFF OMITTED] T8829.085
    
    [GRAPHIC] [TIFF OMITTED] T8829.086
    
    [GRAPHIC] [TIFF OMITTED] T8829.087
    
    [GRAPHIC] [TIFF OMITTED] T8829.088
    
    [GRAPHIC] [TIFF OMITTED] T8829.089
    
    [GRAPHIC] [TIFF OMITTED] T8829.090
    
    [GRAPHIC] [TIFF OMITTED] T8829.091
    
    [GRAPHIC] [TIFF OMITTED] T8829.092
    
    Mr. Wynn. Thank you, Mr. Simms.
    I want to thank all the witnesses for their excellent 
testimony. This concludes our witness statements and I will now 
recognize myself for 5 minutes.
    I will begin with you, Mr. Langer. NFIB, I believe, 
represents convenience store owners, gas station owners, truck 
stop owners and they, to my knowledge, have taken a position 
that the Federal LUST Trust Fund should not be used as a 
deficit reduction tool but rather a trust fund, which totals $3 
billion right now, and it should be used for that purpose, that 
is to deal with the 113,000, I believe it is, sites that need 
cleanup. Is that the position of NFIB?
    Mr. Langer. Well, we are a membership-driven organization, 
as you know. We have lots of members, and before we can take a 
position on an issue we have to ballot our members regarding 
it, and I actually went and looked throughout ballot 
initiatives over the last 15, 20 years. We have never balloted 
the issue of underground storage tanks. However, I can say if I 
had to hazard a guess in terms of small businesses, as a rule, 
small businesses, if they are collecting fees, excise taxes, et 
cetera, for a particular Federal program, they are going to 
want those fees to be used for that program and not for 
something else. So if they are collecting fees for underground 
storage tanks, they are going to want it to be used for 
cleaning up underground storage tanks.
    Mr. Wynn. Thank you very much.
    Mr. Roderick, I believe you referenced the 2002 shortfall 
between cleanup needs and actual spending. It is my information 
that in 2003 the shortfall grew to $174 million and the 
following year, 2004, this committee surveyed EPA regional 
staff and our finding was a shortfall of $263 million in terms 
of the gap in Superfund cleanup needs and actual spending. Have 
you projected the gap for the upcoming year?
    Mr. Roderick. No, sir, we have not.
    Mr. Wynn. Do you have an estimate of the gap?
    Mr. Roderick. No, sir, we have not done any further work 
since the work that was requested in terms of estimating the 
gap.
    Mr. Wynn. Would you in any way disagree with the $263 
million as of 2004?
    Mr. Roderick. I cannot verify that number without actually 
doing work with it, sir.
    Mr. Wynn. OK. Now, you are aware the EPA projected 40 
Superfund completions for 2007?
    Mr. Roderick. Yes, sir.
    Mr. Wynn. They now revised that to 24 completions. Has your 
office done an evaluation of this reassessment by EPA?
    Mr. Roderick. No, sir, we have not done that.
    Mr. Wynn. You did not mention in your testimony that in 
fact this budget contains a 26 percent reduction in your 
budget. How do you plan on completing your mission in light of 
the 26 percent reduction?
    Mr. Roderick. The budget difference is about $5.1 million, 
or 10 percent, and I believe that will be sufficient for us to 
conduct our highest-priority work and I think please most of 
our customers with our products.
    Mr. Wynn. Mr. King, you said the EPA accepted some of the 
things that your organization recommended, some of the State's 
recommendations, but that the budget basically continued the 
pattern of business as usual. Is that a fair assessment?
    Mr. King. That is a fair assessment.
    Mr. Wynn. What do you mean when you say business as usual?
    Mr. King. Well, the concern we have is that a number of the 
programs that are congressionally-mandated are losing dollars 
when other activities are being funded, and we are concerned 
about those things, and as we noted in the written testimony, 
we did set up a priority, high, medium or moderate and low 
priorities so that we could hopefully direct funding to those 
high-priority areas that are congressionally mandated.
    Mr. Wynn. And I believe on page 6, you site those 
priorities as the categorical grants, Brownfields, hazardous 
waste, financial assistance, underground storage tanks, under 
infrastructure, the Drinking Water State Revolving Fund. Is it 
fair to say that you are not satisfied with those funding 
levels?
    Mr. King. We would like to see more funding in those areas. 
That is correct, sir.
    Mr. Wynn. Mr. Bollwage, you indicated on I think it is page 
8 that about 15 percent of the cities cited red tape, 
burdensome paperwork in the State Revolving Fund. Are there any 
specific recommendations that you would make to us on that 
score?
    Mr. Bollwage. On the revolving loan fund?
    Mr. Wynn. Right.
    Mr. Bollwage. One of the things that we would recommend is 
that the mayors would need more tools and resources to meet 
these costs and the conference recommends fully funding the SRF 
programs, grants, 30-year no-interest loans and a greater use 
of the private activity funds.
    Mr. Wynn. Thank you.
    At this time I recognize the ranking member, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    I would like to start with, this whole debate on trust 
funds is going to be an interesting dilemma that we have. I 
mean, we do have trust funds. They ought to go for the intended 
purposes, they never do, or at least only portions of it, and 
we have numerous trust funds. So budget reform would be a good 
process. Does anyone on the panel disagree that if you have a 
trust fund, that that money should go for its intended 
purposes? Mr. Roderick, you probably have to be given a request 
to do a review but do you want to mention it or do you want to 
say ``no comment''?
    Mr. Roderick. It would probably be best to say no comment.
    Mr. Shimkus. Mayor?
    Mr. Bollwage. It would be nice to have money.
    Mr. Shimkus. Do you have trust funds in your mayoral 
capacity and do you use some of those funds for other purposes?
    Mr. Bollwage. I do not have trust funds.
    Mr. Shimkus. If we have a trust fund, it is probably the 
Conference of Mayors' position that it ought to go for that 
intended purpose. Wouldn't you agree?
    Mr. Bollwage. I would tend to agree with that.
    Mr. Shimkus. Mr. King?
    Mr. King. In South Carolina, we do have trust funds and the 
expectation is that those funds will be used for----
    Mr. Shimkus. Do they? Are they?
    Mr. King. Yes, they are, and those people who have 
oversight on those funds look at that and----
    Mr. Shimkus. Mr. Langer?
    Mr. Langer. I think it is fairly clear, taxes are a high 
issue for my members and if my members are going to be paying 
taxes, they obviously want them to be going to good Government 
services and the services they are intended to go for.
    Mr. Shimkus. Mr. McTigue?
    Mr. McTigue. Absolutely, sir.
    Mr. Shimkus. And there is some accountability there also.
    Mr. McTigue. Absolutely. If you set up a trust, you should 
abide by the rules of the trust. If you no longer want the 
trust, you should repeal it but you shouldn't leave it there 
and just not honor it.
    Mr. Shimkus. And really use that money to fulfill other 
obligations that are not accountable for the trust itself.
    Mr. McTigue. That is even worse.
    Mr. Shimkus. We do it all the time here.
    Mr. McTigue. You are taking it for the wrong purpose but it 
is actually unethical.
    Mr. Shimkus. I would concur. We are so reliant on trust 
funds here and using that money for other purposes that it does 
distort the whole oversight view and the accountability. Mr. 
Simms?
    Mr. Simms. I agree, it is hard to argue with the general 
principle that when you allocate funding to a trust fund it 
ought to go to what you have allocated it toward. I would add 
to that, when that trust fund is being allocated to something 
that has significant and intangible health impacts, if it is 
well-funded, then that is an even greater reason to make sure 
that that money is spent the way it was intended.
    Mr. Shimkus. Like the nuclear trust fund to make sure we 
dispose adequately of high-level nuclear waste. I mean, nuclear 
power is putting billions of dollars into a fund, right? We are 
using that money for doing other things. So the trust fund is a 
way to address funding and accountability and, well, it is. I 
appreciate my friend letting you come because shouldn't we be 
about cost-benefit analysis and making sure that we get the 
biggest bang for the buck and make sure that we have some 
results from the analysis, Mayor? Wouldn't you like to see 
that? And you probably have to see that in your budgeting.
    Mr. Bollwage. But it is real difficult when the Brownfields 
program, for an example, consistently gets cut and it gets 
lower and lower so whether you call it a trust fund or whatever 
you call it, the resources are just not there.
    Mr. Shimkus. Right. Whether there is a trust fund or 
whether the money gets appropriated out of the trust fund, that 
is the whole debate that we just had. I mean, if you are going 
to have a trust fund, it is ethically imperative to fulfill 
those obligations of that trust fund, and if you have a trust 
fund and you only use a portion of it, then you have a problem 
with that. Wouldn't you agree?
    Mr. Bollwage. I wouldn't disagree.
    Mr. Shimkus. I will take that as an agreement then. My time 
is going to go tremendously fast, and it is unfortunate. Maybe 
we will get a chance to go again since we are so few members 
here. But I also wanted to focus on the 1993 piece of 
legislation that you quoted, Mr. McTigue, which I didn't now 
about, the Government Performance and Results Act which you 
credit as being a good step forward in causing us--of course, 
that was in the old era--it is now the new era here--when the 
Democrats were in control and they passed legislation and said 
we ought to be accountable with the results. Can you talk about 
that one more time?
    Mr. McTigue. The legislation is really very simple and it 
is a first internationally in that you have placed in the 
statute a requirement for government departments to, A, 
identify what public benefits flowed from the actions that they 
took and then to publish an account for those. I think that 
that is an excellent step forward. From there you have now 
started to use some of that information to inform the budget 
decision-making. That is even better. There is a publication 
that we prepare each year as a matter of some of the research 
that we do that looks at that reporting of all of the agencies, 
and from my testimony you will see that EPA sort of falls in 
the middle. It is not better or worse than the others but it is 
certainly not great. But the quality of information being put 
in front of the legislature is dramatically improving as a 
result of this piece of law. It was passed in 1993 but didn't 
become effective until fiscal 1999. So you now are into your 
seventh year of results coming out of that piece of law.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Wynn. Thank you.
    The Chair would recognize Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask two questions of Mayor Bollwage, one about 
Brownfields and one about the Energy and Environment Block 
Grant Program that has been proposed by the U.S. Conference of 
Mayors. I don't know how familiar you are with Elizabeth. It 
basically includes most of the port facilities. It is known as 
the Port of Newark and Elizabeth but people think of it as the 
Port of Newark and then it also includes part of the Newark 
Airport and then it has a very dynamic downtown area in a 
traditional city. But in his time as mayor there, it has seen a 
major transformation. A city that a lot of people had left to 
move to other parts of the State has grown and he has used some 
of the Brownfields areas to build new developments and shopping 
centers, and if you go to Elizabeth now at night, you can go 
there 9, 10 o'clock at night. All the stores are open. It is 
dynamic. There is nightlife. It is a major transformation. So 
he really can give us a good example of how to turn things 
around.
    But I want to ask you first, if you could give us, Mayor, 
an example of how Elizabeth or other neighboring communities 
have taken advantage of the Brownfields program to try to 
redevelop blighted industrial sites and maybe some examples of 
how the program could be improved in terms of either funding or 
changes to the underlying law.
    Mr. Bollwage. Thank you, Congressman, for those kind 
comments. I will take the second part first if I can because I 
think we should focus on that and move forward, and one is the 
increase in the cleanup grant amounts would be a good way to 
go, establishing multipurpose Brownfield grants. These grants 
could be used up to $1.5 million. Applicants could be required 
to demonstrate a plan first and a capacity for using this 
multipurpose funding. Most importantly is increase the total 
Brownfield grant program funding, overall EPA funding for 
Brownfields grants beginning with $350 million in fiscal year 
2007 and then maybe increasing $50 million annually to a goal 
of $600 million to fiscal year 2012 and beyond so there is a 
constant attention. Reauthorization of the Brownfield 
legislation that you spoke about in your earlier remarks, 
Brownfield remediation grant sites, facilitate petroleum and 
UST Brownfield cleanups are just some of the issues. We 
prepared a document on that, Congressman, and we can forward it 
to you.
    On the first part of your question, we took a 166-acre 
landfill in the city of Elizabeth that was closed in 1970 and 
capped it and built the Jersey Gardens Mall, which is 2 million 
square feet of retail. We have four hotels on this site. We now 
have a state-of-the-art 21-screen cinemaplex plus restaurants 
working with the Port Authority to, hopefully, have a ferry at 
that location as well into lower Manhattan. We have used 
Brownfield grants and that type of funding for the completion 
of our Hope Six grant which we took 550 units of dilapidated 
public housing, used some turnkey sites with Brownfield 
legislation for new housing. We have used some of it or at 
least tools of it for new schools in our city. We built nine of 
them over the last 3 years, and plus market-rate housing. So 
Brownfield tools and all the programs around it are important 
to urban communities like myself to develop.
    Mr. Pallone. I mean, it is just amazing how the small 
amount of money that comes from the program has been leveraged 
by them to do so many different things.
    Mr. Bollwage. Thank you, Mr. Chairman.
    Mr. Pallone. It is just unbelievable, I have to say. I am 
just running out of time so I want to get to the second 
question. The U.S. Conference of Mayors had this idea you 
mentioned of Energy and Environment Block Grant program similar 
to the existing CDBG and I went to the mayors' energy committee 
and they talked to me about this more when they had their 
conference here in DC. But if you could talk a little more 
about that and specifically what types of activities would be 
funded by it.
    Mr. Bollwage. Some of the things we could do is, integrate 
energy management for municipal buildings and municipal fleet 
of automobiles. We could stimulate a discussion in growth, 
especially green building programs and green building 
certification for code enforcement. Replacing traffic lights 
would be key with the LED technology that is existing. Emission 
reductions of the fleet, renewable energy. A new biodiesel 
plant just opened up in the city of Elizabeth--the owners came 
to see me the other day--where they are going to be bringing in 
the product and then shipping out the product. This is a great 
way to reduce emissions as well. And we prepared a book, 
Congressman, that I can forward to you on some of the best 
practices throughout the Nation and how these practices can be 
implemented on even a more broad scale for use in our cities if 
we had such a type of a grant.
    Mr. Pallone. And if I could just tell my colleagues, again, 
this type of thing would be leveraged with State funds too 
because our State, for example, New Jersey, has a lot that they 
are doing now in terms of grants to towns for renewable 
resources and trying to make buildings more energy efficient so 
it is just like a small amount of Federal dollars really go a 
long way. Thank you, Mayor.
    Mr. Bollwage. Thank you.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Wynn. I certainly thank you. Mayor Bollwage, I would 
also like to get a copy of that book on best practices, how 
they can be a very useful tool.
    Mr. Bollwage. Thank you, Mr. Chairman.
    Mr. Wynn. I would like to recognize Mr. Terry of Nebraska 
now.
    Mr. Terry. Thank you, Mr. Chairman. I appreciate it.
    I actually have a unique position from amongst my 
colleagues and our distinguished panel, that I spent 8 years on 
the city council and within those 8 years on the Omaha City 
Council. We did a Brownfield project with the old Asarko Plant 
site of which I was sued, being served in my law office by an 
organization represented here today so that makes me unique 
probably. But also then dealing with a Superfund site for the 
city of Omaha that literally is 25 percent of the land mass of 
Omaha, Nebraska's, city boundaries that does affect children's 
health in particular from lead contamination. So I have been 
through Brownfields and Superfund and I have got to tell you 
that we have been--well, to put it bluntly, the Superfund 
process is not an enjoyable process. It is still going on years 
later when we were designated as such a site. It is a very slow 
process. It is one where the Nebraska delegation comes crawling 
to the EPA every year begging that we remain a priority so they 
don't abandon the project. In comparison, doing it under the 
State DEQ, Department of Environmental Quality, a different 
project, the Asarko property, as a Brownfield where we 
partnered with the city, then partnered with the State with 
oversight from the EPA on an appropriate environmental cleanup, 
it was done in less than a year. We have a great city park back 
to the river. We now have the Gallup University campus there. 
We now have our new Qwest Center on that property, and yet the 
EPA or the Superfund continues to drag out.
    So I would agree with the conclusion of the panel that at 
least on Superfund as well as the other funds that there is a 
funding gap between the needs and what is appropriated. But it 
also begs the question from seeing the process and being 
involved firsthand, I question the efficiency of the spending 
of the dollars and I wonder, Mr. Roderick, if any part of your 
investigation has determined the efficiency of the dollars 
spent, maybe just cursory percentage of dollars appropriated 
versus dollars actually used in cleanup.
    Mr. Roderick. No, sir, I don't believe we have examined 
that in the terms you are speaking of but I think we determined 
in Superfund that more money was going to administrative costs 
and less to programmatic or actually cleanup costs. That was 
one of the conclusions of our most recent reports. But as to 
dollars associated with that, I don't have the numbers.
    Mr. Terry. I think it would be interesting to know because 
the perception is that we use a great deal of the funds 
appropriated, as you said, for administrative overhead, 
defending lawsuits, as opposed to actually cleaning up so I 
wonder if appropriating more dollars really gets to cleaning up 
more properties, and perhaps we could be looking at ways to 
streamline or create efficiencies within the administration 
where we can more effectively use dollars.
    I would like to know this question. Again, the panel seems 
generally in agreement that there is a gap. How do we make up 
that gap then if it is simply appropriating more dollars? You 
may be exempt from answering that question. I will start with 
Mr. Bollwage on down. How do we make up that gap?
    Mr. Bollwage. Well, one of the things that Congressman 
Pallone talked about earlier was doing the polluters' tax and 
reinstituting that again. That is one way you can do it.
    Mr. Terry. The polluter tax was a tax where we taxed 
industry in general to fund the Superfund?
    Mr. Bollwage. Yes, because now it is coming out of the 
general fund but you could reinstate it. You could recoup much 
more dollars. And we had a Superfund site in our city at 
Chemical Control which has been cleaned up in the 1980's.
    Mr. Terry. Mr. King?
    Mr. King. Well, quite truthfully, I can't speak for ECOS.
    Mr. Terry. Mr. Langer, do you have an opinion?
    Mr. Langer. Taxes hit our members disproportionately as do 
environmental regulations so we are loathe to endorse any sort 
of a tax on anything, frankly.
    Mr. Terry. Mr. McTigue?
    Mr. McTigue. Sir, I served on a government where we moved 
dramatically toward user pays and I still support that 
philosophy, that as much as you can move toward user pays, that 
is a good thing to do. There is a second thing though. I think 
in the case of every site you seek to clean, you should look at 
how big is the problem, how quickly can we complete this whole 
operation and at what cost, because if you don't look at how 
quickly, then I don't think that you are going to give pressure 
on how could we more innovatively find ways of solving these 
problems. We are using processes and procedures that many 
instances I believe are old and archaic and there are probably 
better processes and procedures that would be available, and 
they may well be much cheaper than what is being used at the 
moment.
    Mr. Terry. Interesting.
    Mr. Simms?
    Mr. Simms. I would agree with a couple of the points that 
you are making. One is that the Agency's programs including the 
Superfund program do deserve and require some evaluation for 
efficiency in how those programs are managed to make sure that 
we really are getting the best quality that we can be getting 
out of these programs when they go to a site, that that site is 
managed well, it happens quickly and it is done effectively.
    As for the funding question, I would certainly endorse what 
I think I heard one of the other panelists say, that 
reinstating the chemical industry tax, petroleum industry, 
chemical industry tax for Superfund is, in my opinion, the one 
way to resuscitate the monies in order to get this done and it 
ties those monies back to the industries that are creating the 
chemicals. Clearly not all the industries are contaminating but 
it is these chemicals that are ending up in the environment at 
some point and reintegrating those costs at the front end of 
that process is a way that makes sense and has worked clearly 
in the past.
    I wanted to make one other observation. You are not alone 
here in the fact of having been sued by someone on the panel. 
Before I moved to NRDC, I was an attorney in the Office of 
General Counsel at EPA. I worked on several rulemakings that I 
was sued upon by myself.
    Mr. Wynn. Mr. Stearns?
    Mr. Stearns. Yes. Thank you, Mr. Chairman.
    So you were sued by yourself?
    Mr. Simms. In a manner of speaking.
    Mr. Stearns. OK. Mr. McTigue, you are a vice president at 
George Mason, the director of Government Accountability 
Project. Lots of times on EPA projects, we are always talking 
about more money to get absolute success on these projects 
versus methodology, and I guess my question to you is, how do 
you find the EPA measure, their way of measuring absolute 
success in environmental protection? Do you have your own 
method or thoughts on how goals and measuring of success can 
best be achieved? Is it by throwing more money? Is that always 
the most appropriate way to do it?
    Mr. McTigue. No. Throwing more money at a problem, if you 
don't know what the problem is, how big it is and how it is 
best rectified is not the right thing to do for a start. You 
should identify those things.
    Can I say as a compliment to EPA, from when I first became 
associated with it 9 years ago and looked at their first 
strategic plan to where they are today, they have a much 
clearer view of the world and what they are trying to do so 
they have improved dramatically. Where they are in my view 
still short of good performance is in identifying the scale of 
the problem, how big is this problem. For example, sir, with 
regard to Omaha, how much has the health of people in Omaha 
deteriorated because of the lead problem? What is the increased 
fatality level there compared to other places? What is the 
diminished wellness of the people of Omaha? And the knowledge 
of that would then provide for us some idea of what 
prioritization we would give to fixing that problem and how 
much we might be prepared to invest in it, and in many 
instances in my view, EPA falls short of scooping the problem 
and giving us a good idea of what sound science tells us would 
be the way to fix this problem permanently.
    Can I just finish with this comment? When I was in the 
Cabinet, we had a test for all proposals that came up to us, 
and one of the questions in that test was, what is the problem, 
clearly define it, what will remedy it, what action are you 
going to take, when will we be finished and not have to spend 
money on it. You would be surprised how many times that last 
question sunk all of the proposals because nobody was able to 
say we will be finished in X period of time. If you haven't got 
that answer, I don't think you are properly addressing the 
problem. The EPA does not do that well.
    Mr. Stearns. If you can't define when you are going to be 
finished with a problem, then you can't define how much money 
you are going to spend?
    Mr. McTigue. Exactly.
    Mr. Stearns. Do you have another example where the EPA may 
have fallen short?
    Mr. McTigue. In my view, yes. If I look at the budget 
justification this year, and I think that it is great that we 
have got this information available because it was never 
available before.
    Mr. Stearns. Because what you are saying is, the EPA 
oftentimes wants more money and Congress wants to give them 
more money but there are cases where they haven't defined the 
components you just mentioned and it makes no sense to give 
them more money or to talk about an absolute success until all 
those things have been defined.
    Mr. McTigue. Well, one of the weaknesses in their budget 
presentation this year in my view is the fact that for many of 
places where there are changes, either increases or decreases 
in spending, there is not good rationale to say what is the 
consequence of this change. There is a presumption in many 
cases that this amount of money can be withdrawn and the 
capability of the organization will not be affected one way or 
the other. I think that that is a leap of faith that we 
shouldn't really be prepared to accept.
    Mr. Stearns. Mr. Langer, you are manager of regulatory 
affairs at the NFIB and this question is dealing with voluntary 
programs.
    Mr. Langer. Sure.
    Mr. Stearns. A lot of people have talked about the merits 
or lack thereof. I somehow think there is a lot of merit to 
them. You sort of represent the small-business community. I was 
a member of NFIB when I had my small business. So you have 
real-world experiences, and lots of times in a small business 
you have to comply with a lot of EPA programs and lots of times 
you would like to know if you could do it voluntarily without 
this huge mandate or this threat of fines and everything. So 
how has the voluntary program worked and benefited the 
environment in your view and is it a very useful tool?
    Mr. Langer. Well, I think one of the problems you have to 
look at is, the scope of the burden that is faced by these 
businesses in day-to-day operations. We know that regulations 
cost small businesses about $7,700 per employee per year for 
businesses with fewer than 20 employees, and that is 90 percent 
of the businesses that are out there. So if you are an average 
NFIB member with six employees, you are talking about a roughly 
$50,000-a-year regulatory compliance cost, and that is the cost 
of when you know exactly what you are doing and the amount of 
time you have to spend figuring out what needs to be done.
    Mr. Stearns. Fifty thousand dollars would take some of 
those businesses and put them in bankruptcy.
    Mr. Langer. It does. It does. The bigger problem is, we are 
trying to reach this goal of 100 percent compliance and it is a 
lofty goal. It is a laudable goal. I mean, we need to have 
that. We all want environmental protection. But the problem is 
that these small businesses simply don't know where to go to 
get the information so they spend a considerable amount of time 
having to ferret out what they need to do, whereas if EPA took 
an active role--and I will give you an example, OSHA, for 
instance. OSHA is about as big a bogeyman to small businesses 
as the EPA is and when it comes down to it, OSHA has taken an 
active role. The new director, Ed Folk, is going out and 
proselytizing to small businesses about the importance of 
occupational safety and health in their businesses and he is 
getting a greater bang for the buck in doing it. He is 
investing them in the process, showing them how they can save 
money by being compliant with the regulations that are out 
there and showing them what they need to do in a non-punitive 
manner. You can go out and you get an OSHA consultation, an 
OSHA inspector will come out and review your business and show 
you what you need to be doing.
    Mr. Stearns. Thank you.
    Mr. Wynn. Thank you. Since we don't have too many Members 
here, I think we will probably have a second round of 
questioning and if Members want to stay and do follow-up, they 
can.
    I would like to proceed and I want to ask you, Mr. 
Roderick, it is the Inside EPA reprinted e-mail you sent out on 
February 9, and it said that you anticipate losing about 30 
employees, FTEs. Is that correct?
    Mr. Roderick. Yes, sir, that is correct.
    Mr. Wynn. And it also said that very likely you will have 
to close facilities.
    Mr. Roderick. That is a possibility, sir, yes, sir.
    Mr. Wynn. Your term was ``very likely,'' and your 
characterization was ``unwelcome and disappointing,'' which is 
a little bit different from what you said here.
    Now, you have staffers who work on this voluntarily 
Performance Track program, right?
    Mr. Roderick. Yes, sir.
    Mr. Wynn. And in fact, you studied 30 member companies and 
found less than two out of 30 had fulfilled their commitments; 
93 percent did not fulfill their commitments. Isn't that true?
    Mr. Roderick. Well, sir, I don't want to discuss that 
report until it is actually completely completed. We want to 
complete our process.
    Mr. Wynn. Alright, fine, if you don't want to discuss it, 
but it was characterized as a gold standard, this Performance 
Track program was characterized as a gold standard?
    And also, this was not done by congressional statute, was 
it, these voluntary programs?
    Mr. Roderick. No, sir.
    Mr. Wynn. Thank you.
    Mr. Simms, I think at the very end of your testimony you 
were trying to mention a couple points about the voluntary 
programs and also I think environmental justice. If you would 
kind of expand on that, I would appreciate it.
    Mr. Simms. Well, I wanted to mention environmental justice. 
Environmental justice is obviously a very important issue, and 
the budget request reduces funding to the Office of 
Environmental Justice by, I believe it is 28 percent. This is a 
very troubling development, given that it is very clear from 
the data that is readily available that people in low-income 
and minority communities are still disproportionately affected 
by pollution. In addition to that, there are clear indications 
in recent IG reports that EPA is already not living up to its 
obligations under the Environmental Justice Executive order. 
That was one of the issues I wanted to make sure that the panel 
is aware of. That funding is very important to communities that 
in many cases are least able to protect themselves.
    Mr. Wynn. And did you want to comment on the voluntary 
program?
    Mr. Simms. Well, I believe I did comment on the voluntary 
program, and I can expand on that a little bit. One of the 
things I want to make sure that this committee understands is 
that there are a number of voluntary programs that are very 
good and that have demonstrated very good results. There are a 
number of voluntary programs for what that is absolutely not 
the case, and there are voluntary programs that have a 
deregulatory component to them that allow otherwise regulated 
industries to take a regulatory off-ramp that reduce the 
scrutiny of permanent reviews, reduce inspections and to the 
extent that that happens, to the extent that these voluntary 
programs have a central component of the program, an element of 
deregulation. There has to be a heightened level of scrutiny 
and accountability for those programs to absolutely ensure that 
if that program is going to exist and it is going to remove 
otherwise applicable regulatory requirements, that it is going 
to achieve the results that it is intended to achieve and I----
    Mr. Wynn. Can I just interject here? What is the authority 
for a non-statutory program to remove statutorily imposed 
regulations?
    Mr. Simms. Well, the voluntary programs do not remove the 
applicability of the statutory requirements. What they do in 
many cases is provide alternative compliance mechanisms the 
statute itself does not require a certain schedule for 
inspections or a certain depth of process for permanent reviews 
and so the Agency has the authority within its discretion to 
implement the statutory requirements to allow for different 
levels of scrutiny.
    Mr. Wynn. Before my time runs out, let me interject, 
because you make some very good points. Don't you think then if 
they are going to have these programs to create these, I think 
you described them as detours or off-ramps, that they ought to 
be required to submit--that the Agency rather ought to be 
required to submit them to Congress so that we could review 
them before they are implemented?
    Mr. Simms. Absolutely, and I will go back to my three 
themes which are accountability, transparency, and 
accountability--and those things are absolutely important both 
EPA holding accountable the participants in these voluntary 
programs and Congress holding accountable EPA to make sure that 
the benefits of those programs are actually realized.
    Mr. Wynn. Thank you. My time is up.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    I think one thing that we found in the hearing is there is 
a consistency by everyone in the panel, real information, real 
science, evaluation of the response. Even with you, Mr. Simms, 
when you were talking about these voluntary programs, you are 
saying there are some good programs, there may be some bad 
ones, but until we gather up the real information to make value 
judgments, likewise on a cleanup site, the same issue on the 
flip side is, real information, real data, let us see if there 
is a real return on the money we are spending. So Mr. Simms, I 
would encourage you to talk with Mr. McTigue because I think 
some of those responses, it is really the same formula, in 
other words, looking at it from different arenas but it is the 
same formula.
    Let me go to the mayor for a second. As you know, Federal 
Brownfields law does not allow States and municipalities to use 
cleanup funds to pay for administrative costs, and I have been 
surprised by your organization's argument that this provision 
was a technical flaw that Congress did not intend. I noticed in 
your testimony that you are encouraging statutory changes to 
this law that you have previously emphatically considered 
unamendable. Do you consider this change, meaning a reduction 
of cleanup funding grants in favor of municipal and State 
bureaucracy costs, one of those you allude to in your 
testimony?
    Mr. Bollwage. Could you go through that again?
    Mr. Shimkus. Well, yes. I will put it in common language. 
Brownfields funds go to cleanup. Your organization says we have 
some administrative costs that we would like to use some of 
these Brownfield dollars to go. That is really part of the 
basis of this whole debate on how we budget and what kind of 
return on the investment. Do you agree with that position?
    Mr. Bollwage. Well, we were one of the first cities to get 
a $200,000 Brownfields grant in the State. We were able to use 
that grant administratively to characterize what our Brownfield 
sites were, and going to what Mr. McTigue said, it would be a 
little difficult to cleanup a Brownfield if we didn't know what 
it was and that would have to be some type of administrative 
cost to assess that problem.
    Mr. Shimkus. But I am talking about the actual Brownfields 
fund itself. Those monies go to cleanup. We don't want those to 
go to administrative costs, do we?
    Mr. Bollwage. Well, if you agree with Mr. McTigue's 
assessment, you are going to have to figure out what the 
problem is and then know where you are going and that would be 
administrative costs, and then after that if there is a fund 
dedicated for Brownfield cleanup then that should be used for 
cleanup.
    Mr. Shimkus. Going to the Superfund debate, which I have 
been involved with for a long time since I have been on this 
committee and we did small-business relief years ago back in 
1998 through the committee, there was a NCEP study that said 50 
cents on every dollar was spent on litigation in the Superfund. 
Now, if 50 cents of every dollar is going to paperwork, 
bureaucracy and court claims, do we think there would be a 
better use of those dollars in actual cleanup?
    Mr. Bollwage. I can tell you in the city of Elizabeth, we 
had Chemical Control, which blew up in 1980, and Superfund 
dollars to the tune of $50 million were used to clean it up. It 
was not litigated in any way, shape or form. The Superfund 
dollars were used to cleanup what is now a cement slab. So from 
personal experiences, we do not deal with a lot of 
administrative costs on legal bills regarding a cleanup of a 
Superfund site, nor do we deal with it in cleaning up the 166-
acre site of the Jersey Gardens Mall, which was a Brownfield's 
site. We planned, we prepared and I think if you do the things 
that Mr. McTigue was talking about, you wouldn't deal with 
lawsuits, but there has to be some type of administrative costs 
up front.
    Mr. Shimkus. Let me see if I can get an answer----
    Mr. Bollwage. I answered. You just don't like it.
    Mr. Shimkus. Well, do you want identified cleanup funds to 
go for cleanup or administration costs?
    Mr. Bollwage. Do I want identified cleanup costs----
    Mr. Shimkus. Cleanup funds to go to cleanup or 
administration costs? In other words, bulldozers, workers to 
cleanup the site or litigation, paperwork----
    Mr. Bollwage. Well, if you do the proper planning, the 
proper planning would avoid litigation.
    Mr. Shimkus. Well, why don't you just answer the question?
    Mr. Bollwage. I am.
    Mr. Shimkus. Should cleanup costs go to clean----
    Mr. Bollwage. I am going to answer the question. Cleanup 
costs, Congressman, should go for cleaning up the site. When 
you do public-private partnerships, sometimes you can get other 
people involved in this----
    Mr. Shimkus. I don't have a beef with that. My focus is 
making sure that if we are going to do cost-benefit analysis, 
get a real return on our dollars, cleanup dollars should go to 
cleanup.
    Let me just highlight some of Mr. Langer's testimony in my 
last 10 seconds, is the Business Gateway program is a good 
program to get the small businesses involved and encouraged in 
doing proper compliance and an easy method, and I think that 
would be helpful. I don't have time to receive an answer but I 
wanted to highlight that as a thing that I thought was 
important.
    Thank you, Mr. Chairman.
    Mr. Wynn. Certainly. I noted something that is kind of 
interesting. EPA spent about $23 million on administrative 
costs in this budget.
    Mr. Terry.
    Mr. Terry. Thank you again, Mr. Chairman.
    Just following up a little bit on Mr. Shimkus's comments. 
Mayor, you mentioned something about partnerships and I think 
that is the nice thing about Brownfields as opposed to being 
put on the priority list where you really lose a lot of control 
at the local level. On a Brownfield, you can see a partnership 
between the local community and State and I think that is a 
good way to share those administrative costs. I think it is 
fair that if we have a grant program for Brownfields from the 
Federal Government, that those be used or we could say those 
can be used strictly for the cleanup. So actually my question, 
since Mr. King has been fairly lonely in this discussion about 
the participation of State governments in the Brownfields 
process and how they can lend their level of expertise in the 
administrative parts, the environmental engineering studies, 
for example. Would you care to comment on being a participant 
and the advantage of Brownfields?
    Mr. King. I will do that from my position in South 
Carolina.
    Mr. Terry. Absolutely.
    Mr. King. I think Brownfields has been just tremendous. It 
really has helped in a lot of areas that probably would not 
have been redeveloped or certainly would not be as far along as 
they are today. We are actively engaged at the State level with 
helping communities in the Brownfields area and I think it has 
been a great partnership.
    Mr. Terry. I appreciate that.
    Would you say that too as well, Mayor? Have you worked with 
your State in the Brownfield cleanup that is now a nice mall?
    Mr. Bollwage. Yes, but the Nation's mayors would like to 
see the Brownfields funds naturally directly come to the 
municipalities. As a former councilman, you would understand 
that. But we have very cooperative relationship in the State of 
New Jersey. We would have never been able to build the Jersey 
Gardens Mall because there was legislation to offset bringing 
private dollars to offset the Brownfield dollars.
    Mr. Terry. Well, in all due respect, as one of the people 
that voted to put up funds to do the administrative work, we 
were gladly putting those up to make sure that we didn't get 
EPA and a priorities list on us. I think the little dollars 
that we spent--I shouldn't say little. It was probably a 
million or two.
    Mr. Bollwage. That is why you got sued.
    Mr. Terry. I was personally served by the sheriff at my law 
office. I thought I was being sued for malpractice, which I 
never was. But I want to end with that.
    Mr. McTigue, I will tell you, your comments here I think 
have been the most intriguing of the hearing, and just a little 
bit of editorial comment. I think probably one of the areas 
that we can help the EPA improve on are exactly the criteria 
that you set out. I think on their priority projects, they set 
goals. I think they have the right intent but sometimes they 
don't have it clearly defined what the objectives are, what the 
end game is, and we have seen that just in Omaha where in the 
lead contamination Superfund site, for example, they are still 
doing their research several years later about the health 
impacts within the city and I am not sure they have been able 
to determine what those are yet. In fact, the criteria, parts 
per billion within the soil, has actually changed throughout 
the process, which has led to a great deal of consternation 
within the community that maybe games are being played to save 
dollars. It may be. I don't know. I think it comes from the 
fact that perhaps that sound science hasn't been used at the 
beginning of the process to set the levels of contamination 
that truly affect the health that can all be agreed upon.
    In fact, this is just an editorial, not a comment. My first 
meeting with the EPA was on lead in water in small 
municipalities in Nebraska and we asked if the EPA could be 
more flexible, that the city could take out the old piping and 
put in new piping instead of having to put in a water treatment 
facility and they said no, and then-Senator Kerrey asked the 
EPA representatives how were you able to determine the 
particulate level, that that level affects health; show me the 
study. They said we don't have one but we will get you one. 
Now, that established a great deal of credibility in my mind 
that they just artificially set a level, then produced 90 days 
later a study that wow, backed up that level. And so I do agree 
with your level on sound science and perhaps maybe we can get 
to a point where we work in here not only trying to get more 
dollars but make sure that we set out some criteria to help 
them become more efficient.
    Mr. Chairman, can I just have a few more seconds?
    I want to ask Mayor Bollwage, on the revolving fund, this 
is a fund that many communities in Nebraska, not my district, 
but Nebraska use. My understanding of that revolving fund is 
that it was to go to cities or allow cities that are smaller in 
nature, can't really go into the market with municipal bonds. 
You made a comment in your statement that sounded like your 
city should not have been forced to have to go out into the 
municipal bond market to do your water treatment facilities. 
Did I understand your point correctly there?
    Mr. Bollwage. With clarification, Congressman.
    Mr. Terry. I appreciate that.
    Mr. Bollwage. I rushed through the comments because of the 
time but in my written remarks, the SRF loans, we recognize the 
importance that they are to the small municipality and we would 
like to see it funded with 30-year no-interest loans and other 
things. It was easier for a larger municipality like myself to 
go into the private financing of the bond market but for 
smaller municipalities, that revolving loan fund is direly 
important.
    Mr. Terry. Alright. Because I didn't want to have the 
League of Cities saying that----
    Mr. Bollwage. The U.S. Conference of Mayors.
    Mr. Terry. When that wasn't its----
    Mr. Bollwage. Oh, not at all, and I thank you for the 
opportunity to clarify.
    Mr. Wynn. Mr. Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman. I want to thank all 
the panelists for coming today. I appreciate your time you 
spent today here.
    Mr. Simms, as I understand it, the Democrat-authored House 
Resolution 20 only adds money to the Superfund account and the 
Clean Water State Revolving Loan Fund. Since your testimony is 
very critical of the Bush budget proposal on area such as LUST 
and the Drinking Water State Revolving Fund, in light of the 
constitutional mandate on the two branches of government, don't 
you have anything critical to say to Congress about the lost 
opportunity to increase funding for those areas, especially 
considering the weight your testimony gives them?
    Mr. Simms. I am not sure I fully understand. It is a 
relatively long question. I am trying to piece it together.
    Mr. Sullivan. Sure.
    Mr. Simms. Let me give you the gist of my testimony. The 
gist of my testimony is, there is an absolutely critical need. 
The EPA has demonstrated that need through some studies looking 
at the upcoming costs for water infrastructure, the number of 
leaking underground storage tanks and the number of Superfund 
sites yet to be cleaned up. My testimony is about making sure 
that those issues get addressed. What I have before me is the 
budget proposal. That is what I am looking at. That is why I am 
criticizing the budget proposal for its failure to do that. As 
a foundational matter, what I am talking about is getting these 
environmental issues addressed.
    Mr. Sullivan. OK. I have got a couple more, if I got the 
time. Also, Mr. Simms, you mentioned in your testimony that the 
EPA is increasingly reliant on voluntary, as opposed to 
regulatory, programs and yet you acknowledge that less than 2 
percent of the EPA's budget supports these activities. What 
percentage, Mr. Simms, of the Agency's budget would you 
appropriate in your view to support partnership activities? 
What do you think is the proper amount?
    Mr. Simms. Let me clarify.
    Mr. Sullivan. If not 2 percent, what do you think is good?
    Mr. Simms. I understand your question but it is a bit of a 
misnomer in terms of what my testimony says, and let me just 
clarify that for you so it is clear to this committee. I do not 
have a blanket criticism, NRDC does not have a blanket 
criticism of the amount of money going to partnership programs. 
There are some very good partnership programs. The criticism 
is, if money is going to partnership programs, those 
partnership programs have to be transparent and accountable and 
subject to scrutiny both through a functional process within 
EPA and an oversight function from Congress. It is not about 
how much money it is. It is about how those funds are used and 
demonstrating that those funds are used in an appropriate way 
that actually achieves the benefits that are being----
    Mr. Sullivan. Since they are transparent, you would 
advocate more partnership programs and more budget money spent 
on them, right?
    Mr. Simms. Well, I think there may be a point at which 
there is a tension between the Agency's ability to institute 
its core functions effectively and how many voluntary programs 
there are and how effective they are you could have at the same 
time. I don't know what that number is and it is not----
    Mr. Sullivan. But also if it is more transparent like you 
are saying, I agree that it should be, wouldn't you agree that 
it could be more than 2 percent should be spent on those 
programs if they are more transparent? Wouldn't you agree?
    Mr. Simms. I have no categorical objection to 2 percent or 
some level above 2 percent, as long the programs are being 
overseen.
    Mr. Sullivan. Also, I got one more question, sir. You are 
asking for $5 to $10 million per year starting in fiscal year 
2008 for EPA to develop regulations and guidelines appropriate 
for commercial-scale CO2 disposal projects. You say that for 
the EPA to develop some regulatory framework will take several 
years. I understand that a task force put together by the 
Interstate Oil and Gas Compact Commission is months away from 
developing guidelines for the States in this regard. It is 
almost complete. Before we start spending Federal dollars on 
Federal effort at EPA, would it not make more sense to take a 
close look at what the Interstate Oil and Gas Compact 
Commission task force produces first, and aren't the States 
where this kind of expertise resides?
    Mr. Simms. I would answer that in two parts. The one is, 
even if the EPA starts now with this budget year focusing 
intensely on what it will take to regulate CO\2\ sequestration, 
that feedback between the Interstate Compact and the Agency can 
happen and can happen effectively. So I don't think there is a 
tension between giving the Agency the money to do that and 
having a process that is moving forward providing some 
information about that sort of a guidance within another 
entity. So I don't think that there is a real tension between 
the two and the amount of money we are talking about going to 
EPA to do this stuff is quite small and it is absolutely 
important that this get off the dime really quickly. If it does 
not, we will be already behind the eight ball when we get to 
the point where we really need to start putting the stuff in 
the ground.
    Mr. Sullivan. Well, thank you very much for being here. I 
appreciate it.
    Mr. Simms. Thank you.
    Mr. Wynn. At this time the Chair would recognize Ms. Solis 
for 5 minutes.
    Ms. Solis. Thank you, and I apologize, Mr. Chairman, for 
being late. I was in another meeting. My question, if I might, 
I would like to pose this to Mr. King. The Congressional 
Research Service recently calculated that the President's 
budget request of $842 million for the Drinking Water State 
Revolving Fund is only, in our estimation, $802 million when 
adjusted for inflation for 2006 dollars. That is the lowest 
amount of purchasing power in the history of the program, and 
at the same time the infrastructure needs of the States, which 
EPA estimates to be at $263 billion in its 2005 report, are 
huge and apparently growing. Your prepared testimony with 
respect to Drinking Water State Revolving Fund identified 
eroding effects of inflation on the DWSRF appropriation. I 
would like to have a clarification on what you mean with 
respect to the effect inflation is having on this critical 
public health program, and I know I don't have enough time so 
if you could please be very brief.
    Mr. King. I can do that. The message there is just the fact 
that the dollar today does not buy the same amount as the 
dollar 5 years ago, and the monies that are allocated are at 
the same level and that is not different than the other 
programs that we receive dollars from EPA. The dollars are the 
same, and as inflation goes on throughout the years, that 
buying power is not there.
    Ms. Solis. But it does appear as though the level amount 
that we are looking at obviously, there is a difference there 
in terms of funding. You will admit that?
    Mr. King. Yes.
    Ms. Solis. OK. Second question for Mr. King. One of the 
ECOS's principles is to first and foremost fund the core 
programs that have been enacted by this Congress such as Safe 
Drinking Water, Leaking Underground Storage Tanks, Air Quality 
Management, Hazardous Waste Management and the State Revolving 
Fund. Last year the ECOS identified a number of EPA contracts 
where contractors were tasked to design and market voluntary 
programs including telemarketing recruiting activities. At the 
same time, EPA cut core Clear Air grants to the States. Can you 
please explain your concerns regarding the growing use of 
contracts for non-core programs that have been specifically 
authorized by Congress?
    Mr. King. We believe that because of the congressionally 
mandated programs that we have an obligation to fulfill those 
requirements, and we just cannot address those requirements 
when dollars go down in those programs that were identified.
    Ms. Solis. And are those competing programs then?
    Mr. King. In some cases they are, and as you will see in 
the testimony, we identified those priorities as a high 
priority and moderate priority and low priority and some of our 
moderate priorities are mandated as well but we had to 
establish some priorities there.
    Ms. Solis. But they would take precedent over, say, perhaps 
statutory priorities?
    Mr. King. No, there are not statutory priorities that are 
in that category.
    Ms. Solis. This is a question for Mr. Roderick. My time is 
coming to a close here. Mr. Roderick, I think that the work 
your office is doing on the voluntary Performance Track program 
is indeed important work. The program is not specifically 
authorized by any statute and is costing at least $5 million 
per year using approximately 30 full-time employees. Last year 
a group at Harvard University reviewed the Performance Track 
program and made these findings: ``It is not clear that 
programs like the Performance Track are encouraging companies 
to do more than they would anyhow.'' That is a quote. We also 
have been unable to find such evidence that Performance Track 
encourages facilities to improve their performance. The 
evaluation report prepared by your office studied whether 30 or 
so member companies fulfilled the commitments they made to 
improve environmental performance at their facilities. Your 
staff found that only two of the 30 member companies met all of 
their commitments; 93 percent did not. Have you made 
Administrator Johnson aware of these extremely disappointing 
results for the program that the Agency claims is a gold 
standard for voluntary environmental programs?
    Mr. Roderick. Well, we do not want to comment or discuss 
anything to do with our ongoing work. We want to wait until it 
is fully complete before we discuss the process that was used 
and the results that were----
    Ms. Solis. Have you spoken to the Administrator about this?
    Mr. Roderick. No.
    Ms. Solis. You have not, for the record?
    Mr. Roderick. For the record.
    Ms. Solis. I want to be clear. The Administrator is not 
aware that there is a report to this effect that I just----
    Mr. Roderick. Well, that is a different question. I am sure 
he is aware that there is a report but we have not had a 
discussion about it in any way.
    Ms. Solis. Is there a statute that specifically authorizes 
EPA to establish and implement Performance Track?
    Mr. Roderick. Not to my knowledge.
    Ms. Solis. There is not. Thank you very much.
    Mr. Wynn. I would like to thank all of our panelists for 
being so generous with their time----
    Mr. Stearns. Mr. Chairman, I ask unanimous consent that 
Members may have an opportunity to submit written questions for 
the record?
    Mr. Wynn. Without objection.
    Mr. Stearns. Thank you.
    Mr. Wynn. Again, I thank the panelists for participating. 
Thank you for your time and your testimony. This concludes our 
hearing. I would note that this subcommittee will meet next 
week, Thursday, March 8, at 9 a.m. to hear from the 
Administrator of EPA, Mr. Johnson. Thank you very much.
    [Whereupon, the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.093
    
    [GRAPHIC] [TIFF OMITTED] T8829.094
    
    [GRAPHIC] [TIFF OMITTED] T8829.095
    
    [GRAPHIC] [TIFF OMITTED] T8829.096
    
    [GRAPHIC] [TIFF OMITTED] T8829.097
    
    [GRAPHIC] [TIFF OMITTED] T8829.098
    
    [GRAPHIC] [TIFF OMITTED] T8829.099
    
    [GRAPHIC] [TIFF OMITTED] T8829.100
    
    [GRAPHIC] [TIFF OMITTED] T8829.101
    
    [GRAPHIC] [TIFF OMITTED] T8829.102
    
    [GRAPHIC] [TIFF OMITTED] T8829.103
    
    [GRAPHIC] [TIFF OMITTED] T8829.104
    
    [GRAPHIC] [TIFF OMITTED] T8829.105
    
    [GRAPHIC] [TIFF OMITTED] T8829.106
    
    [GRAPHIC] [TIFF OMITTED] T8829.107
    
    [GRAPHIC] [TIFF OMITTED] T8829.108
    
    [GRAPHIC] [TIFF OMITTED] T8829.109
    
    [GRAPHIC] [TIFF OMITTED] T8829.110
    
    [GRAPHIC] [TIFF OMITTED] T8829.111
    
    [GRAPHIC] [TIFF OMITTED] T8829.112
    
    [GRAPHIC] [TIFF OMITTED] T8829.113
    
    [GRAPHIC] [TIFF OMITTED] T8829.114
    
    [GRAPHIC] [TIFF OMITTED] T8829.115
    
    [GRAPHIC] [TIFF OMITTED] T8829.116
    
    [GRAPHIC] [TIFF OMITTED] T8829.117
    
    [GRAPHIC] [TIFF OMITTED] T8829.118
    
    [GRAPHIC] [TIFF OMITTED] T8829.119
    
    [GRAPHIC] [TIFF OMITTED] T8829.120
    
    [GRAPHIC] [TIFF OMITTED] T8829.121
    
    [GRAPHIC] [TIFF OMITTED] T8829.122
    
    [GRAPHIC] [TIFF OMITTED] T8829.123
    
    [GRAPHIC] [TIFF OMITTED] T8829.124
    
    [GRAPHIC] [TIFF OMITTED] T8829.125
    
    [GRAPHIC] [TIFF OMITTED] T8829.126
    
    [GRAPHIC] [TIFF OMITTED] T8829.127
    
    [GRAPHIC] [TIFF OMITTED] T8829.128
    
    [GRAPHIC] [TIFF OMITTED] T8829.129
    
    [GRAPHIC] [TIFF OMITTED] T8829.130
    
    [GRAPHIC] [TIFF OMITTED] T8829.131
    
    [GRAPHIC] [TIFF OMITTED] T8829.132
    
    [GRAPHIC] [TIFF OMITTED] T8829.133
    
    [GRAPHIC] [TIFF OMITTED] T8829.134
    
    [GRAPHIC] [TIFF OMITTED] T8829.135
    


  THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 BUDGET REQUEST

                              ----------                              


                        THURSDAY, MARCH 8, 2007

 House of Representatives, Subcommittee on Environment and 
 Hazardous Materials joint with Subcommittee on Energy and 
              Air Quality, Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 9:00 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Albert R. 
Wynn (chairman of the Subcommittee on Environment and Hazardous 
Materials) presiding.
    Members present: Representatives Stupak, Capps, Allen, 
Solis, Baldwin, Butterfield, Barrow, Green, Dingell, Inslee, 
Markey, Shimkus, Terry, Sullivan, Murphy, Barton, Walden, 
Pitts, Pallone, Hall, Upton, Whitfield, Hastert, Burgess, Deal, 
and Shadegg.
    Staff present: Richard A. Frandsen, Lorie Schmidt, Karen 
Torrent, Ann Strickland, Chris Treanor, Erin Bzymek, Alec 
Gerlach, David McCarthy, Jerry Couri, Tom Hassenboehler, Peter 
Kielty, and Kurt Bilas.

 OPENING STATEMENT OF HON. ALBERT R. WYNN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Wynn. Good morning. Today we have a joint hearing on 
the Subcommittee on Environment and Hazardous Materials and the 
Subcommittee on Energy and Air Quality chaired by Mr. Boucher. 
This morning we are very pleased to have with us the 
Administrator of the EPA, Mr. Stephen Johnson. The subject of 
this hearing will be the Environmental Protection Agency fiscal 
year 2008 budget request.
    For purposes of making opening statements, the chairs and 
ranking members of each subcommittee and the full committee 
will each be recognized for 5 minutes. All other members of the 
subcommittees will be recognized for 3 minutes. Members may 
waive the right to make an opening statement, and then when 
first recognized for questions may add those 3 minutes to their 
time for questions. Without objection, all members have 5 
legislative days to submit opening statements for the record.
    This is a somewhat momentous occasion. It is the first time 
in 6 years that the committee is hearing from the EPA 
Administrator on the EPA's budget submission. The EPA's role as 
our Nation's steward of the environment is critical to 
America's health, safety, and economic growth, and we take our 
constitutional responsibility at oversight very seriously.
    The President's budget requests have declined significantly 
during the last 6 years. This year, the EPA is only one of two 
agencies to see a reduction in the President's budget. This 
request is indicative of the administration's attitude toward 
environmental protection. There is growing alarm about the 
administration's lack of commitment to environment and public 
health protection. We are deeply concerned about whether the 
Environmental Protection Agency can fulfill its mission in 
terms of its core health programs, including Brownfields, 
Superfund, the Safe Drinking Water Revolving Act Loan Fund, 
Leaking Underground Storage Tanks, and Environmental Justice.
    At our first budget hearing last week, we heard from 
several stakeholders, including the Acting Inspector General of 
EPA, the Environmental Council of States (ECOS), United States 
Conference of Mayors and the Natural Resources Defense Council. 
The distressing overall message we received from these 
witnesses was that EPA's core environmental programs have been 
chronically underfunded and that this lack of resources places 
an undue burden on the States and localities and puts our 
constituents' health at risk.
    Mr. Chris Bollwage, the mayor of Elizabeth, New Jersey, 
testified on behalf of the United States Conference of Mayors. 
The mayors are facing unfunded mandates such as the Safe 
Drinking Water Act, and as a result, are often forced to pass 
the cost on to their constituents. Ironically, while we heard 
testimony on the difficulties States face trying to protect 
their citizens with less Federal funding, the Inspector General 
testified that EPA has been spending money on voluntary 
programs such as Performance Track, which yield questionable 
results.
    Unfortunately, the EPA has failed to provide this committee 
with complete information on the amount of money and the 
personnel dedicated to these voluntary partnership programs. 
That is unacceptable. The EPA's lack of response raises serious 
questions about the diversion of funds and personnel to some of 
these programs at the expense of the core public health 
programs mandated by Congress.
    In terms of these core programs, of particular concern to 
me is Superfund. The fiscal year 2008 budget request for 
Superfund is $35 million less than the President's fiscal year 
2006 budget request, yet the EPA Inspector General testified 
before this committee last week that limited funding prevented 
EPA from beginning construction at all sites. The short-funding 
appears to have impacted projected completion rates. The EPA 
initially projected it would complete 40 sites in fiscal year 
2007, but recently backtracked on its initial estimate, 
indicating it would only have 24 construction completions in 
fiscal year 2007.
    Not only has the administration underfunded EPA, it has 
also expressed its opposition to the reinstatement of a 
dedicated tax for polluters that would increase revenue for the 
Superfund. Another concern is the Leaking Underground Storage 
Tank Trust Fund. Leaking underground storage tanks are the lead 
source of groundwater contamination in the United States, 
posing a significant risk to the Nation's drinking water 
supply. While the LUST fund surplus is estimated at $3 billion 
in fiscal year 2008, the President's budget requests just $72 
million from this trust fund for cleanup, less than last year's 
appropriation.
    Gasoline taxes are paid by consumers, and these taxes are 
not going for their specified purpose: the cleanup of spills 
and underground contamination. Yet, the President is using the 
taxes designated for this environmental trust fund to offset 
other administration spending, such as the war in Iraq and tax 
cuts for the wealthy. In the meantime, however, there is a 
backlog of 113,000 LUST cleanups. The longer this contamination 
is left unaddressed, the greater the adverse impact on human 
health, increasing the ultimate cost of cleanups.
    The President's fiscal year 2008 budget requests 26 percent 
less than his budget request for fiscal year 2006 for 
Brownfields. Current law provides an authorization of over $200 
million per year, but the President's budget request is only 56 
percent of the amount authorized for cleanup and assessment 
grants. This is troublesome when you consider that in 2006 
there were 694 Brownfield project grant proposals, but only 
slightly more than one-third received funding.
    In terms of the Drinking Water State Revolving Loan Fund, 
this is yet another core program that has faced cuts. The 
President's budget request is the lowest in the history of the 
State Revolving Loan Fund in real terms. The Environmental 
Council of States testified that declining Federal support has 
caused many States to institute new fees for drinking water 
infrastructure and service. Shortfalls in funding for the SRF 
program leads not only to rate increases, but also increased 
risks of outbreaks of water-born diseases.
    Overall, States are concerned the EPA funding is 
insufficient to meet its mission to protect the environment and 
public health. Superfund and Brownfield cleanups are declining. 
States face increasing pressure to pass costs on to consumers. 
Drinking water infrastructure continues to deteriorate in the 
face of declining funds. The American public continues to face 
health risks from leaking underground storage tanks. All a 
result of chronic underfunding of EPA'S core health programs. 
Meanwhile, EPA, under this administration, is spending 
resources on voluntary programs with low oversight or 
accountability.
    I look forward, as does the committee, to hearing from the 
EPA Administrator today about these and other issues affecting 
the health of our constituents and our environment.
     At this time, I would recognize the ranking member of the 
subcommittee, Mr. Shimkus, for an opening statement.
    Mr. Shimkus. Thank you, Mr. Chairman. Can I go into 
colloquy real quick and ask, the Administrator has got a time 
constraint? Is that true also?
    Mr. Wynn. The Administrator has agreed to be here until 
12:00, which is one of the reasons we began this hearing at 
9:00, to accommodate his need to depart.
    Mr. Shimkus. The only reason I mentioned that is so Members 
understand that the longer we talk, the less questions we get, 
which may be good, but I am still going to use my 5 minutes. 
But just so other people keep that in mind.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I want to 
congratulate you on the success of your first hearing and tell 
you how much I look forward to today's follow-up hearing on the 
EPA budget proposal for fiscal year 2008.
    Our hearing last Thursday on this issue was very 
informative. I was especially pleased to hear the agreement 
voiced by our witnesses that the amount of money allocated to a 
problem does not signify commitment. Instead, we learned that 
clear objectives, transparent actions, and focused resources 
mean more to improving public health than the amount of money 
dolled out to each program. I was especially happy to hear that 
the EPA has improved since 1999 in focusing its resources and 
defining its mission.
    Ultimately the EPA's efforts should not be measured from 
the size of their budget, but whether they are protecting human 
health and the environment, and whether EPA is getting better 
and more efficient at that job with each year.
    Last week helped us set the table for our time with the 
Administrator, and I want to welcome him before our panel. Mr. 
Johnson, our Republican members support congressional oversight 
by this committee because we believe real accountability and 
oversight should not be a partisan issue, and we are looking, 
as are our colleagues on the other side, for facts, both 
budgetary and scientific.
    As a side note, I want to say how pleased I am that our 
Administrator is a scientist who understands the need for sound 
objective science at the EPA. This was a clear thing that we 
heard from our panelists last Thursday.
    I also believe that having great scientific data is only so 
helpful if we don't know how clean we want our air, soil, or 
water to be. We need to be able to place into context how one 
environment improvement fits in with another. This, to me, is 
especially important because it speaks to the very heart of 
being able to prioritize our public health needs, and I would 
guess the States would agree with me after hearing how much 
they are feeling squeezed, trying to meet their own objectives 
as well as trying to implement Federal mandates.
    One last item I want to touch on is the use of trust funds. 
I am a big proponent of using money raised in a dedicated trust 
fund for those activities a trust fund claims to address. I, 
and our witnesses, unanimously agree that once raised, these 
monies should go to their stated purposes. This includes a 
negative implication of having them being unused so they can 
cover deficit spending, a sin committed repeatedly by White 
Houses and Congresses of both parties, and I can bet after the 
budget goes through the process, it will be a sin committed 
again by the budget process here and our appropriators. We need 
to consider ways to make this money work for the purpose it was 
raised, or put the charade of having trust funds in the first 
place.
    Mr. Chairman, I think it makes sense to focus our time on 
comprehensively understanding the budget of the main Federal 
agencies that our committee oversees. EPA's budget has 
ramifications for Federal, State, and local regulators. It 
impacts large, medium, and small businesses, and it translates 
into how public health protections can and will be carried out. 
Simply looking at the numbers does a disservice to the work of 
the Agency and its partners. We must admit that Congress is the 
constitutional home of Federal spending, not the executive 
branch, and that pay-go rules forced priority spending because 
they prohibit free spending without offsets. In this context, 
we need to be responsible and construct solutions that solve 
environmental problems rather than feed political fires.
    Mr. Chairman, the Republican members of this subcommittee 
and I pledge to be honest brokers on the issues that lie ahead. 
Again, I want to welcome Administrator Johnson, and with a 
minute and 32 seconds remaining, yield back my time, Mr. 
Chairman.
    Mr. Wynn. I want to thank you for that. Can I claim it?
    Mr. Shimkus. You probably will anyway.
    Mr. Wynn. I thank the gentleman for his comments.
    I would like to recognize Mr. Dingell, who I believe is 
coming in at this moment, the chairman of the full committee. 
We are very honored to have him here, and without further 
comment, I would recognize the distinguished gentleman from 
Michigan.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Good morning, and good morning to my 
colleagues on the committee. I want to commend you, Mr. 
Chairman Wynn, and you, Mr. Chairman Boucher, for holding this 
hearing on EPA's budget request for fiscal year 2008. This is 
the first time during this administration that the EPA 
Administrator has come before this committee to justify the 
agency's funding requests for environmental protection. I am 
sure we all welcome Administrator Johnson here for this new 
experience.
    EPA plays a vital role in protecting the health of our 
public and the Nation by ensuring that the water we drink is 
safe, the air that we breathe is clean, the waste being 
generated is managed properly, and the legacy of toxic waste 
sites is cleaned up expeditiously. After reviewing the 
President's fiscal year 2008 budget, I can only conclude that 
it fails to meet the administration's professed goal of 
accelerating the pace of environmental protection, and in many 
areas, the budget falls woefully short of the needs previously 
identified by EPA. We look forward to Administrator Johnson 
telling us why EPA was one of only two agencies, the other 
being the Department of Labor, that actually faced decreases in 
the President's budget. Clearly, the President has not made 
environmental protection a priority.
    To cleanup leaking underground storage tanks that are 
polluting the drinking water supplies of the Nation, the 
President's budget requests $72.5 million. In contrast, the 
trust fund to address these matters will receive over $300 
million in annual revenues, and the trust fund surplus 
dedicated to these cleanups is projected to be over $3 billion 
in fiscal year 2008. American consumers then are being taxed, 
but the money is not being used for the specific purposes for 
which it is collected, or which the Congress intended it should 
be spent.
    The Government Accountability Office has recently 
identified a $12 billion public funding need, and EPA has 
acknowledged over 113,000 releases from leaky underground 
storage tanks that have not been addressed. We want to hear why 
that is so.
    For Brownfields grants to help communities with site 
assessments and clean-ups, the President continues his request 
from last year of $89 million, even though the Conference of 
Mayors has testified last week that only one in three 
applications has been funded over the past several years. The 
administration describes the Brownfields program as a vital 
jobs creation and economic program. If that is so, why did the 
President then cut the Brownfields grant budget request by $31 
million or 26 percent from fiscal year 2006 when not only is it 
a job creation program, but it is an urgent environmental 
necessity.
    The Drinking Water State Revolving Fund helps public water 
systems finance the cost of infrastructure improvements needed 
to achieve or maintain compliance and protect the public 
health. EPA's last drinking water infrastructure needs survey 
and assessment identified the total State need as $263.3 
billion. The President's budget request of $842 million is the 
lowest in the history of the program, when it is adjusted for 
inflation.
    In Superfund, the budget requests have been going down 
consistently over the past 5 years. There are numerous toxic 
waste sites on the National Priority List where cleanup has 
been delayed for lack of funds. Large funding shortfalls have 
been identified by the EPA Inspector General and acknowledged 
by senior EPA officials. Rather than expediting the rate at 
which Superfund sites are cleaned up, EPA has failed to meet 
the agency's own 2007 projections and has just recently 
announced that a reduction of 40 percent in construction 
completions. Only 24 Superfund sites will complete construction 
activities this year.
    Now, the States carry out, enforce, and implement most of 
our major environmental statutes. Last week, the Subcommittee 
on Environment and Hazardous Materials was told by senior State 
environmental officials that if Congress accepts the 2008 
proposal for STAG, that is, the State Territorial and Assistant 
Grants, it will mean that the States will have lost more than 
$1 billion in Federal support since 2004. This isn't normal. 
This is an enormous list of forgone opportunities to cleanup 
and better the environment.
    The subcommittee should also examine the extent to which 
EPA has been shifting money away from the States to pay for pet 
projects or programs not specifically authorized by this 
committee or by the Congress. We will look forward to comments 
on this matter from the Administrator.
    The President's budget would cut State and local air 
quality management grants by $35 million, or 15 percent, from 
fiscal year 2006 levels. These grants provide the money needed 
to pay State and local employees' salaries, and other expenses 
to develop and run State core and other local air programs. 
These programs, which are required by Federal law, reduce the 
pollution which causes asthma attacks, premature death, and 
other respiratory and cardiopulmonary problems.
    Serious cuts have also been proposed for EPA's Office of 
Inspector General, which the Acting Inspector General has 
characterized as unwelcome and disappointing. I would declare 
this to be a much more serious matter, and one on which the 
committee will want to have some rather strong answers, either 
here or at some later time. Office of Inspector General 
employees have been told that the President's budget will 
likely result in closed offices and a reduction in force for 
personnel.
    Mr. Chairman, these are important hearings. I commend you 
for having them, and I observe that they are important in 
fulfilling the oversight responsibilities of the committee. I 
look forward to Administrator Johnson's testimony, and I thank 
you for recognizing me.
    Mr. Wynn. I thank the gentleman.
    At this time, the Chair would recognize Mr. Pitts.
    Mr. Pitts. I will waive.
    Mr. Wynn. The Chair would recognize Ms. Baldwin.
    Ms. Baldwin. I, too, will waive.
    Mr. Wynn. Mr. Walden.
    Mr. Walden. I will waive, too, Mr. Chairman.
    Mr. Wynn. Mrs. Capps.
    Mrs. Capps. I will waive.
    Mr. Wynn. Mr. Terry.
    Mr. Terry. I waive.
    Mr. Wynn. The Chair recognizes Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to have my statement placed in the record, 
and I did make an opening statement the other day, but I am 
glad the EPA Administrator is here and I just want to mention 
two things.
    One, I have an interest in the Superfund sites. I have a 
very urban district in Houston with petrochemical plants. That 
is our job base and our tax base, and I have been proud, since 
I was a State legislator, that we cleaned up what we thought 
was our last Superfund site. But just recently we noticed one 
that is actually on the border of our district in East Harris 
County with Congressman Poe, and so I am going to become very 
interested in how we get that site on, because it is actually a 
submerged site that is leaking dioxin into the Houston Ship 
Channel and into Galveston Bay and ultimately into the Gulf of 
Mexico.
    But I know there is a concern, Mr. Chairman. I would like 
to also mention that I know this is a joint hearing, so I can 
talk about air quality, because our issues are only water 
quality, but I have also requested a site hearing in Houston 
because some of the issues that we are dealing with with air 
quality, air toxins in our area. So I would hopefully look 
forward that we acknowledge some of the few water problems. We 
also have a few air problems I would like to have address, so I 
yield back my time.
    Mr. Wynn. The Chair thanks the gentleman. Also without 
objection, his full statement will be entered into the record.
    At this time, Chair would recognize Mr. Murphy.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman. I will submit the rest 
of my statement for the record, too, but just very briefly I 
would like to thank Administrator Johnson for being here today.
    One of the things that the EPA has done over the years is 
certainly pressure many cities and towns to cleanup their act, 
and many industries to cleanup their act, and has done so with 
success, particularly when there has been cooperative efforts. 
I mentioned in a previous hearing here how Pittsburgh used to 
be such a polluted city that men would come to work with two 
shirts so they could change at noon because it was pretty gray 
and dingy by lunchtime. But we have in our region now beautiful 
views, rivers full of fish, and still, we have a sizable coal 
industry that yields 50,000 related jobs in the Pittsburgh 
region. We no longer have the strength of steel industry that 
we once had, but many other industries have replaced it, and 
what is important as we move forward in anything is to make 
sure we have maintained the high interest for public health 
that the EPA has, and our environment is part of that, but also 
recognizing we need to also keep jobs in our country and remain 
competitive in our marketplace. We have lost so many jobs in 
this Nation from manufacturing sector. Many have gone overseas. 
It is not just a matter of how we handle things in this Nation, 
but very much the competitive nature we see of what happens in 
other nations with little or no environmental concerns and our 
high ones, such that they can manufacture products without any 
of those costs that we see as so important to public health.
    As you continue your position as the Administrator of the 
EPA, I hope you will continue to keep this in mind: that we 
have to keep jobs in this Nation, we have to keep public health 
as high priority as working together and building the 
cooperation of our industries in this Nation, as well as the 
EPA's work in making sure we balance all these things together. 
I hope that as you spend your budget, that is part of what you 
do wisely, to multiply those dollars as we work together 
cooperatively with industry in this Nation to keep our 
manufacturing sector up in a competitive world.
    And with that, I yield back my time.
    [The prepared statement of Mr. Murphy follows:]

  Prepared Statement of Hon. Tim Murphy, a Representative in Congress 
                 from the Commonwealth of Pennsylvania

    United States Steel Corporation's Clairton Plant, located 
in Allegheny County in Pennsylvania, is the largest coke 
producer in North America producing approximately 4 million 
tons of coke a year. As evidence of U.S. Steel's corporate 
commitment to environmental compliance, Clairton has become the 
first heavy industrial facility in the United States to be 
certified to ISO 14001 standard for environmental management 
systems.
    Integrated steel facilities, coke plants in particular, are 
one of the most heavily regulated industries in the United 
States. Clairton is subject to not only Federal and State 
regulations but also the more stringent Allegheny County 
regulations. Clairton is subject to the Federal standards for 
coke oven topside emissions and for by-product emissions and 
has been in compliance with these requirements since the rules 
were promulgated in the early 1990's. Recently, in 2006, 
Clairton became subject to the Federal standards for coke oven 
emissions from pushing, stacks and quenching and is also in 
compliance with these new requirements. Allegheny County also 
regulates emissions from coke batteries and their standards are 
considerably more stringent than Federal or State. Clairton 
maintains a very high percentage compliance with these 
standards. In addition, Clairton continues to proactively 
develop and implement programs to address environmental 
challenges. U.S. Steel's Clairton Plant has been and continues 
to be a leader in environmental performance and stewardship.
                              ----------                              

    Mr. Wynn. I thank the gentleman.
    At this time, the Chair would recognize Mr. Pallone.
    Mr. Pallone. Mr. Chairman, I will waive my statement and 
use the time for questions.
    Mr. Wynn. Thank you.
    Chair will recognize Ms. Solis.
    Ms. Solis. Yes, Mr. Chairman, I will waive and also hold my 
time.
    Mr. Wynn. The Chair recognizes Mr. Barrow.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. Thank you, Mr. Chairman.
    Mr. Administrator, you may not remember when we met a few 
years ago. Thank you for being with us today. I will make my 
comments very brief.
    As we are looking at your budget, we are kind of looking at 
the business plan for your agency over the course of the next 
year, and I just want to encourage you all to look into the 
area of efficiency standards for heavy duty class A trucks. 
Emission standards without any regard to efficiency can cost us 
in the long run. What we gain in air quality by tightening up 
on emission standards, we can lose if we have trucks running 
consuming a lot more fuel to cover the same distances. So what 
I want to do is encourage you all as you build your business 
plan for this year and for the next, that you look into that 
area because I think that is an area that I am getting a lot 
feedback from folks in my district that focusing on the one 
without focusing on the other, we are losing at one end what we 
are gaining on the other. If you could think about something 
without thinking about the thing to which it relates, you have 
the quality of being a good lawyer. What I want us to do is I 
want us to be thinking about the things to which these things 
relate so we are not thinking of this in a lawyerly fashion, 
but looking at this from a common sense point of view.
    That is all I wanted to share with you. It is good to be 
with you again, and I look forward to hearing your testimony.
    Mr. Wynn. I thank the gentleman.
    At this time, I recognize the gentleman from North 
Carolina, Mr. Butterfield.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman. First, 
let me thank the witness for coming forward today and 
participating in this hearing. It is long overdue, to say the 
least. I also want to thank Chairman Boucher for coming 
together with Mr. Wynn to have this joint hearing. We need to 
do more of this. It should produce good results.
     I have only been in the Congress now for 3 years, but my 
staff tells me that we have not had congressional oversight 
over EPA appropriations for at least the last 6 years. I hope 
my staff is incorrect about that, but if it is correct, we need 
to make sure that that problem is corrected.
    After reading through the Administrator's testimony, I am 
somewhat alarmed, Mr. Chairman, by his assessment of our 
current situation. His opinion seems to be in line with the 
tenancies that we have come to expect from the administration. 
Our environment is doing better now than it was a generation 
ago, but not as good as it could or should be doing.
    When the EPA's new Clean Air and Mercury rule was released, 
I applauded that step as a step in the right direction. 
Unfortunately, in my State of North Carolina, it took a lawsuit 
from our attorney general and strong rhetoric from the governor 
and the delegation just to get the EPA to enforce existing 
clean air standards on the TVA, who for years has contributed 
to non-attainment in many North Carolina counties. The 
statement that I have before me says that ``the President's 
request continues the administration's commitments to safe 
drinking water.'' Unfortunately, the request is a $14.8 million 
decrease from last year's request, and the lowest it has ever 
been when you account for inflation.
    The President's proposal on land preservation and 
restoration is equally troubling. This year's proposal includes 
$15 million less than last year's, even while EPA budget 
documents say that it will not complete 40 percent of the 
projects that you expect to complete last year. There are a 
number of sites where you acknowledge that remedial projects 
are stalled, but you won't say how many. I hope you will 
mention that today. You point out in your written statement 
that around 1,000 national priority list sites have been 
completed. My concern is with nearly 700 sites where that is 
not the case.
    Are we seeing a pattern here? I hope not, but it appears to 
be. What I am hoping to hear today is less about how great 
things are going, and more about what we can do together to 
make sure that the EPA is properly funded and given adequate 
guidance to make sure that it can carry out its mission of 
serving the environmental interests of the American people.
    Again, I want to thank the Administrator for coming today, 
and thank the chairman for his leadership in this area. I yield 
back my time.
    Mr. Wynn. I thank the gentleman.
    At this time, the Chair would recognize the distinguished 
ranking member of the full committee, Mr. Barton of Texas.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. I appreciate this 
hearing this morning. It is good to see our two witnesses here.
    I think it is important that we focus on their budget for 
the upcoming fiscal year. I think it is also important that we 
look at the results that the agency has achieved in its 30-year 
history to measure the environmental progress of the United 
States, in light of the efforts and money that has been spent 
on achieving them. Last week's witnesses raised some important 
issues about priority setting within the agency. Recognizing 
current budgetary limits, few themes arose from those witnesses 
that I hope we can look into a little bit deeper today.
    First, what public benefit has arisen from the expenditures 
that have been made in the past? Many of the witnesses last 
week said that increases in spending do not always directly 
correlate to increases in environmental protection.
    Number 2, I think it is very important that decision making 
should be grounded in the evidence and in science where the 
science exists, and trust funds should be used for their 
intended purposes. Finally, whenever it is appropriate, we 
should use cost-benefit analysis to determine how well the 
money has been spent and where to spend additional funds.
    I understand that overseeing the EPA is something like 
herding a herd of cats, or at least attempting to. The problem 
is that EPA's job is monumental, and we expect on some days 
literally an environmental miracle from our many, many 
dedicated people that work at the EPA. It is not a perfect 
agency. We should help the EPA to make sure that it can be as 
perfect or as competent as possible. It is entering its fourth 
decade of existence. Its infrastructure and its organization is 
predicated on a collection of well-meaning but disparate laws. 
We need to ensure that the EPA's efforts are focused, reasoned, 
cost-effective, and successful in achieving the program goals 
that it is responsible for.
    For this reason, I think that the most important issue for 
our hearing today is whether, as EPA's mission statement 
proclaims, ``public health is being protected and a cleaner, 
healthier environment is being produced for the American 
people.'' The proof is in the pudding. Clean and safe water, 
increased land preservation and restoration, improved research, 
better compliance, and increased corporate stewardship are all 
areas that we should have measurable results, based on what EPA 
has actually done.
    Speaking of air quality, I think this is an area where the 
EPA has done very well. By any objective measurement, the Clean 
Air Act has been a success. We have reduced emissions of most 
of the pollutants that the Act targets, often quite 
substantially. These emission reductions allow Americans to 
live healthier and longer lives, and preventing tens of 
thousands of deaths and hundreds of thousands of illnesses 
every year. This is a major achievement. The agency can be 
proud of it. Members on both sides of the aisle of this 
committee can also be proud of it. It is important that as we 
move forward, the EPA continue to improve its air quality, 
while at the same time, ensuring that we improve the quality of 
life for all Americans.
    While I have got a little time, I want to comment on 
something that is happening on the floor today that is relevant 
to the EPA. Apparently, we are going to create a Select 
Committee on Energy Independence and Global Warming. To quote 
my good friend Mr. Dingell of Michigan, that's like setting up 
another committee to study feathers on a fish. I don't believe 
it is going to serve any intended purpose, other than serving 
as a platform for some Members to grandstand and play to the 
politically correct constituencies that are so--I can't say the 
right word without being profane--are so insistent that we 
destroy our economy in the name of political correctness. By 
its own admission, this select committee is going to have no 
legislative jurisdiction. It is only going to exist for 2 
years. It can't report bills. It goes out of existence December 
31, 2008. In my opinion, it is a huge mistake. It is going to 
do nothing but muddy the waters, waste a lot of resources, and 
valuable time of the members that are selected to serve on it. 
I still hope that maybe we will come to our senses and vote 
that particular select committee down.
    With that, Mr. Chairman, thank you for holding the hearing, 
and I look forward to hearing what our witnesses have to say.
    Mr. Wynn. I thank the gentleman for his opening statement.
    At this time, I would recognize the gentleman from Maine, 
Mr. Allen.
    Mr. Allen. Mr. Chairman, I will waive my opening and ask 
that it be submitted for the record.
    Mr. Wynn. Without objection, so ordered.
    I believe that concludes our opening statements. Any other 
statements for the record may be included at this time.
    [The prepared statements of Mr. Hastert and Mr. Burgess 
follow:]

   Prepared Statement of Hon. J. Dennis Hastert, a Representative in 
                  Congress from the State of Illinois

    Thank you, Chairman Wynn.
     I'd like to begin by thanking you, Chairman Boucher and 
Chairman Dingell for calling this hearing. I look forward to 
hearing from Administrator Johnson and working with all three 
of you to conduct appropriate oversight of the Environmental 
Protection Agency to ensure that it continues to protect the 
environment in a manner that looks after the health and well-
being of all Americans.
     While the focus of this hearing is split between the 
jurisdictions of our two respective subcommittees, I will 
confine my remarks to my subcommittee's jurisdiction and 
discuss air quality. Specifically, I wish to highlight the 
dramatic improvements in air quality seen over the last 37 
years and the manner in which EPA has encouraged that 
improvement.
     To paraphrase a noted economist--things are always getting 
better, but some will always insist they are getting worse. The 
facts speak for themselves, things are getting better. Since 
the Clean Air Act was enacted in 1970, emissions of the six 
criteria pollutants addressed by the Act have been cut in half. 
Specifically, emissions of lead decreased 98 percent, volatile 
organic compounds 54 percent, carbon monoxide 52 percent, 
sulfur dioxide 49 percent, and nitrogen oxides 24 percent. All 
this was achieved even as the economy has grown by more than 
187 percent, the number of vehicle miles traveled in the United 
States increased by 171 percent, and U.S. energy consumption 
grew by 47 percent. This is a record of success upon which we 
can all share credit and be proud and constitutes the proper 
measure of EPA's success. One cannot accurately measure the 
success of the Clean Air Act by merely looking at the dollars 
appropriated.
     I'm also pleased that EPA's success in the air program 
goes beyond command and control regulation. We have made 
significant progress toward cleaner air using voluntary 
programs developed in concert with stakeholders and State and 
local government. A prime example is Energy Star, a Government-
backed program that improves the environment through promoting 
and recognizing greater energy efficiency. Through partnerships 
with hundreds of organizations, Energy Star has eliminated 
millions of tons of emissions and saved consumers money at the 
same time.
     As we proceed, I would encourage my colleagues to use 
their time in this hearing to learn about EPA's successes and 
let the Agency know that it should continue to pursue cleaner 
air in a manner that best benefits all Americans. Specifically, 
EPA should continue to combine appropriate regulation with 
voluntary partnerships developed after input from interested 
parties.
     In conclusion, I look forward to hearing from 
Administrator Johnson and to the exchange of ideas at today's 
hearing. I also welcome additional opportunities to work with 
Chairmen Wynn, Boucher, and Chairman Dingell, and Ranking 
Members Shimkus and Barton to ensure that EPA continues to do 
its job in an appropriate manner.
     Thank you Mr. Chairman
                              ----------                              


  Prepared Statement of Hon. Michael C. Burgess, a Representative in 
                    Congress from the State of Texas

    Mr. Chairman, thank you for convening this hearing today.
    One of my most important responsibilities as a Member of 
Congress is to ensure that my constituents' tax dollars are 
being spent wisely. It is for that reason that I look forward 
to the ongoing debate about our national funding priorities.
    Administrator Johnson, thank you for appearing before us 
this morning. As we begin the fiscal year 2008 appropriations 
cycle, it will be helpful to hear from you about the 
President's budget request for the Environmental Protection 
Agency.
    My district is located in North Texas, and one of my 
region's most important and challenging issues over the next 
decade will be how best to cleanup our air, so I am especially 
interested to hear your testimony on the EPA's air programs.
    Administrator Johnson, thank you again for appearing before 
us this morning. I yield back.
                              ----------                              

    Mr. Wynn. Again, I would like to welcome Administrator 
Johnson. We are delighted to have you here. As you can see, we 
have lots of questions. We will allow you a 5-minute opening 
statement, and your prepared testimony will be submitted and 
included in the full record of this hearing.
    At this time, it gives me great pleasure to recognize 
Administrator Johnson.

     STATEMENT OF HON. STEPHEN L. JOHNSON, ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Thank you very much, Chairman Dingell and 
Chairman Boucher and Chairman Wynn, members of the committee. I 
am very pleased to be here to discuss the President's fiscal 
year 2008 budget request for the U.S. Environmental Protection 
Agency.
    The President' $7.2 billion request builds upon EPA's 
record of accomplishments and funds its role as our Nation 
enters the next phase of environmental progress. Over our 36 
years, EPA has laid a strong foundation to shift America to a 
green culture. Our citizens are embracing the fact that 
environmental responsibility is everyone's responsibility. So 
today, instead of only having 17,000 EPA employees working to 
protect the environment, we now have 300 million Americans as 
environmental partners.
    These are exciting times. Our air, water, and land are 
cleaner today than a generation ago, and with this budget, our 
progress will continue.
    The evolution of environmental progress has come about in 
part because we have proven that a healthy environment and a 
healthy economy can, in fact, go hand in hand. But as the 
economy continues to grow, so do our energy needs. In order to 
meet the President's ambitious clean energy and air goals, 
EPA's budget requests over $82 million to support our Energy 
Policy Act responsibilities. This includes $8.4 million to 
implement the renewable fuel standards and $35 million for 
grants to cut diesel emissions from trucks and school buses.
    EPA also plays a vital role in advancing the 
administration's aggressive, yet practical, strategy for 
reducing greenhouse gas emissions. The President has requested 
$117.9 million for EPA's climate change programs, including $44 
million for the successful Energy Star program, $5 million for 
the Asia Pacific Partnership Initiative, and $4.4 million for 
Methane to Markets Program.
    The evolution of environmental progress requires EPA to 
work effectively with our State and local partners. The 
President's budget builds on this cooperation by providing $2.7 
billion to help our partners improve their water quality. We 
are also promoting the use of innovative tax exempt private 
activity bonds for capital investments and drinking water and 
waste water projects.
    Additionally, collaboration is the key to protecting 
America's great water bodies. In order to strengthen the 
efforts of EPA and our partners, the President is requesting 
$28.8 million for the Chesapeake Bay, $56.8 million for the 
Great Lakes, $4.5 million for the Gulf of Mexico, and $1 
million for Puget Sound.
    At EPA, we are working productively with our partners to 
deliver a healthier, more prosperous future. The President's 
budget provides $1.2 billion for the Superfund program to 
continue transforming hazardous waste sites back into community 
assets.
    After highlighting some of our cooperative initiatives, we 
also must recognize the necessity of vigorously enforcing our 
Nation's environmental laws. The proposed fiscal year 2008 
enforcement budget, $549.5 million is the highest enforcement 
budget ever.
    As EPA helps shape America's green culture, we understand 
the need to advance environmental science. The President's 
commitment to sound science is reflected in his $134 million 
request, an increase of $9.4 million, to fund human health 
risk, clean air, and nanotechnology research.
    Finally, I must also mention EPA's evolving role from being 
guardians of the environment to also guardians of our homeland. 
The President has requested $152 million for homeland security 
responsibilities in water security and decontamination.
    While the Nation's environmental progress continues to 
evolve, so too does EPA's role. This budget will fulfill EPA's 
responsibilities of being good stewards of our environment, and 
good stewards of our Nation's tax dollars. By making smart uses 
of our resources, we are not only building on our Nation's 
environmental accomplishments, we are creating a lasting legacy 
for future generations of Americans.
    Thank you, and I look forward to addressing your questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.136
    
    [GRAPHIC] [TIFF OMITTED] T8829.137
    
    [GRAPHIC] [TIFF OMITTED] T8829.138
    
    [GRAPHIC] [TIFF OMITTED] T8829.139
    
    [GRAPHIC] [TIFF OMITTED] T8829.140
    
    [GRAPHIC] [TIFF OMITTED] T8829.141
    
    [GRAPHIC] [TIFF OMITTED] T8829.142
    
    [GRAPHIC] [TIFF OMITTED] T8829.143
    
    [GRAPHIC] [TIFF OMITTED] T8829.144
    
    [GRAPHIC] [TIFF OMITTED] T8829.145
    
    [GRAPHIC] [TIFF OMITTED] T8829.146
    
    [GRAPHIC] [TIFF OMITTED] T8829.147
    
    [GRAPHIC] [TIFF OMITTED] T8829.148
    
    [GRAPHIC] [TIFF OMITTED] T8829.149
    
    [GRAPHIC] [TIFF OMITTED] T8829.150
    
    Mr. Wynn. Thank you very much for your statement, and also 
for the very positive attitude you have had about EPA.
    However, I do have some concerns. I looked at your Web site 
and it says ``President Bush has charged EPA with accelerating 
the pace of environmental protection while maintaining our 
Nation's economic competitiveness, and I am committed to this 
challenge.'' That was your quote, but if you look at 5 years of 
decreasing budget request for Superfund, $31 million less for 
Brownfields, and basically the lowest funding in history for 
the Drinking Water State Revolving Fund, and being only one of 
two agencies with a budget decrease, I have to ask you to 
explain to the committee how we are going to do this 
acceleration that you referred to.
    Mr. Johnson. Well, thank you, Mr. Chairman.
    Our fiscal year 2008 budget the President has proposed 
continues to deliver results while meeting a balanced budget.
    As part of our budget, we are leveraging tax dollars for 
the environment. Examples of that is our Brownfields program. 
Leveraging our Energy Star program, helping us deal with both 
energy security as well as greenhouse gas emissions. We have 
numerous examples of where our limited tax dollars are being 
used wisely to leverage other dollars.
    Mr. Wynn. Well, despite this leveraging, on the subject of 
Brownfields, you are doing only about one-third, maybe a little 
bit more than one-third--you are responding to slightly more 
than one-third of the actual requests, and this is according to 
the National Conference of Mayors. So how do you characterize 
that as an acceleration of the Brownfields program?
    Mr. Johnson. Well, sir, our goal for Brownfields program is 
to turn those community eyesores into community assets, and the 
President's budget, which is $138.6 million of State and tribal 
assistance grants, does that. What does that mean? We, in 2008, 
are focusing on delivering results. In 2008, that means we 
project we will assess 1,000 properties. We expect that to 
leverage 5,000 new jobs, and also result in leverage funds of 
$900 million.
    Mr. Wynn. Can I just interject and ask a question?
    Mr. Johnson. Sure.
    Mr. Wynn. How many more Brownfields applications will you 
be able to do in 2008, because that is what the mayors are 
asking?
    Mr. Johnson. Generally speaking, we get quite a few 
applications. For those that work through the screening 
process, I would say generally twice the number of applications 
for the funds available.
    Mr. Wynn. But how many more in 2008 than in 2007, because 
that is basically my definition of acceleration.
    Mr. Johnson. Again, my focus is given the funding that is 
available for Brownfields, we are focusing on the--and I gave 
you the statistics. I think it is important to point out that 
over the past number of years since Brownfields, in fact, the 
level of funding has remained relatively constant, even though, 
in fact, in years past the President has asked for more money 
for Brownfields, Congress has chosen not to give us additional 
funds. And in fact, for the 2008 budget, I should say, this 
budget request is in alignment with what Congress has been 
doing.
    Mr. Wynn. Let me move on to Superfund briefly. You 
projected 40 completions and you now have adjusted that 
projection to substantially fewer. How do you account for that 
and how do you characterize that again as an acceleration in 
environmental protection?
    Mr. Johnson. Well again, our focus on Superfund is turning 
those problem properties back into community assets, and for 
construction completions, it is important to note that these 
are long-term construction projects taking 10 to 15 years.
    Mr. Wynn. I understand that. You projected 40 at the 
beginning of the year. You are now readjusting that to say 
well, now we'll only do 24, and my question is, No. 1, why 
less, and 2, could you have not anticipated whatever problem it 
is you are going tell me caused you to adjust downward?
    Mr. Johnson. Well, what we have found is the sites of today 
are significantly more complex than they were yesterday, and as 
we were projecting 40, we were assuming that the number of 
remedies per site and the pace of construction was going to be 
far greater than what it----
    Mr. Wynn. Are you suggesting they are more complex than 
Love Canal, which was one of the major cleanup efforts, and I 
guess the other follow-up question is why didn't you anticipate 
that they would be more difficult when you told Congress you 
would do 40?
    Mr. Johnson. You mentioned Love Canal. That is a great 
example. Congressman Terry from Nebraska is dealing with a 
Superfund site called Omaha Lead, and the Love Canal site was 
about 70 acres. The site in Mr. Terry's home State is nearly 
9,000 acres, and so in terms of size, complexity, the 
measurements that we have--and Mr. Chairman, if you would, I 
would love to present this for the record. I apologize that I 
don't have any bigger chart, but what it shows is that from 
1993 to 2000, the number of remedies per site, which a measure 
of complexity, was 1.7. From 2001 to 2006, the remedies per 
site was 2.5. For those sites that are currently under 
construction, that is, constructions are not complete, the 
remedies per site are 4.3 remedies per site. So we are seeing 
very complex sites. The resources remain the same, the sites 
are more complex.
    Mr. Wynn. My time is up. I would only comment that I cannot 
believe that you could not have anticipated, and did not, in 
fact, anticipate the higher level of complexity when you 
projected the 40 completions. I don't understand what happened 
in mid-year that caused you to conclude, oh my goodness, these 
are more complex than we thought.
    That concludes my questions. I turn the questioning over to 
my colleague, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and I will just start 
by saying I know that Superfund remediation is a 10 to 15-year 
program that goes back many years. I dealt with one up in 
Quincy, IL, an issue.
    But let me start with my questions. Some of my colleagues 
are criticizing the Bush administration because during the 8 
years of the Clinton administration, the average number of 
Superfund sites completing remedy construction was 76, but in 
the past 6 years, that average number of sites has declined to 
41.5, and you are projecting only 24 construction completions 
in fiscal year 2007. This is kind of in addition to what we 
were just talking about. What caused the increase in 
construction completions during the 1990's and the drop off in 
2001?
    Mr. Johnson. In fact, in the first 12 years there were 
1,251 sites that were identified, and it was acknowledged that 
these were long-term construction projects of 10 to 15 years. 
In fact, it wasn't until 1993 that the agency put in place a 
new measure because there was no interim measure of success, 
and so a new measure was put in place in 1993 called 
construction completion, which means when all immediate threats 
have been eliminated and no further on-site physical 
construction is needed. It doesn't mean that it is safe for 
complete reuse. As the agency began its effort--I shared with 
you statistics from 1993 to 2000, and 2001 to 2006, and what we 
are dealing with today. These are considerably more complex 
sites.
    Mr. Shimkus. With regard to how we know or don't know, what 
we find is we get into the sites and we find that we discover 
the site conditions change. We discover at a new site new 
contaminants, the extent of the contamination is sometimes 
found to be greater, so in spite of our best efforts of 
planning and forecasting, these are unknown sites and it is not 
until we physically get in there looking at the groundwater or 
looking at the dirt until we fully understand the extent and 
the complexity. Our construction completion adjustment reflects 
the complexity and what we have learned as we have begun to 
cleanup these sites.
    Mr. Shimkus. And I know you showed this chart earlier, and 
I don't know if my colleagues have that, and I would want to 
make sure that we share this with the minority. You talked 
about the remediation issue, because he raised it up. I think 
that remediation issue is key. Earlier sites were less 
difficult than sites that were held over, and that is part of 
the reason why it is more challenging.
    Second question is my colleagues think simply increasing 
revenues into the Superfund is the answer to speeding up 
cleanups. In fact, many strongly support reinstating the 
Superfund taxes. Tell me, would this help EPA cleanup Superfund 
sites?
    Mr. Johnson. In our judgment, no. The Superfund tax expired 
December 1995. It was never a tax on pollution, it was a tax on 
the sale of chemicals and petroleum, and the amount of funds 
appropriated by Congress never matched the amount of funds 
coming in for the tax. Again, I apologize, but I do have 
another chart that shows the tax revenue coming in, and it 
shows the appropriation level, and as you can see from the 
chart, the appropriation level has remained relatively constant 
since 1992.
    Mr. Shimkus. Mr. Chairman, I would like to ask that be 
distributed. I think you all would probably want to see that, 
too.
    Mr. Wynn. Without objection, we will include that.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Wynn. I stepped on your punch line on that chart.
    Mr. Johnson. Well, as you can see the congressional 
appropriations that remained relatively constant while tax 
revenue has gone way up in the early days, then gone down.
    Mr. Shimkus. Thank you.
    Let me just, for my final 20 seconds, let me just go to 
your bio. You have been in EPA for over 20 years. You are a 
career service employee. You have a bachelor's in biology, and 
an M.S. in pathology. I want to recognize the fact that you are 
not a political appointee--you are, but you have come through 
the ranks in EPA service and we appreciate the work that you.
    I yield back.
    Mr. Johnson. Thank you very much, sir.
    Mr. Wynn. Thank you.
    At this time, the Chair would recognize the distinguished 
chairman of the full committee for questions, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy. 
Mr. Johnson, welcome to the committee.
    Mr. Johnson. Thank you.
    Mr. Dingell. Mr. Johnson, we note that you are late in 
issuing the fine particulate implementation rules that provide 
State guidance on air quality plans that they must submit in 
April 2008. We have been in some correspondence on this matter. 
On January 19, I wrote you requesting that you produce the 
following documents. The letter said this. ``All documents 
relating to this rulemaking that contain or reflect discussions 
with, or comments from OMB, or other parts of the executive 
branch as a part of formal or informal review of the proposed 
final rule.'' Have you received that letter?
    Mr. Johnson. Yes, sir.
    Mr. Dingell. I believe you have responded to it, and on 
February 9, you said that you did not meet the deadline that I 
had sent, but you would keep working on the response.
    On March 1, Mr. Stupak and I requested you deliver these 
documents by March 7, yesterday. Were they delivered?
    Mr. Johnson. We have committed to have a full response to 
you by, I believe the date is April 2.
    Mr. Dingell. Now, let me try and understand, and let me 
know whether you understand what we had requested. We simply 
requested through the committee the delivery of certain 
documents, is that right?
    Mr. Johnson. You asked for certain documents, that is 
correct, sir.
    Mr. Dingell. Yes. Now, is there a reason why you cannot 
deliver those documents to the committee?
    Mr. Johnson. As is always the case, and certainly my 26-
year history with EPA, documents that are deemed deliberative 
need to be reviewed before being released.
    Mr. Dingell. No, no, no, Mr. Administrator. Deliberative 
documents are within the purview of the responsibility of this 
committee.
    Do you assert any privilege on the refusal to deliver these 
documents, and if so, what privilege do you assert?
    Mr. Johnson. Mr. Chairman, the volume of documents that you 
requested has not allowed us to complete our search and review 
process by this time, and that is why the vast----
    Mr. Dingell. So you are telling us then, Mr. Administrator, 
that the reason that you have not been able to deliver these is 
that you have not completed your search. Is that correct?
    Mr. Johnson. That is correct, sir.
    Mr. Dingell. Alright. Now, have you found any of the 
documents that we are referring to?
    Mr. Johnson. Because I am not conducting the actual 
document search myself, I would have to talk to one of our 
staff.
    Mr. Dingell. Well, the question here is very simple.
    Mr. Johnson. Mr. Chairman, as I understand, we have found 
some, yes.
    Mr. Dingell. Alright. What is there that precludes you from 
making a partial delivery of the documents? Is there any reason 
why you cannot deliver some and then make available the balance 
of them?
    Mr. Johnson. I would be happy to provide a partial 
response.
    Mr. Dingell. Then I will expect by the conclusion of 
business today that those documents will be delivered in 
response to the request through the committee, those which you 
have. And I expect that you will pursue with great vigor the 
balance of the documents which you are still trying to find. 
Can you deliver those documents which you've already identified 
as being in compliance with the request of the committee?
    Mr. Johnson. My staff is advising me that in order to 
physically get the documents to make sure that they are all 
together, I would respectfully ask for tomorrow.
    Mr. Dingell. Alright, tomorrow will be a fine day.
    Mr. Johnson. Thank you.
    Mr. Dingell. We look forward to them by the conclusion of 
business.
    Now, is there any claim of privilege of any kind which 
would foreclose you from delivery, any of these documents, 
including those not currently identified, as being in 
compliance with the request of the committee?
    Mr. Johnson. I am not aware of any at this time.
    Mr. Dingell. Very good.
    Have you been instructed by any person that you are not to 
deliver these documents to the committee or that you are 
instructed in any way to delay or to in any way foreclose the 
committee from the timely delivery of these documents by any 
person in the administration?
    Mr. Johnson. No.
    Mr. Dingell. Very good.
    Then how long will it take you now, Mr. Johnson, to 
identify the balance of the documents to be submitted to this 
committee, if you please?
    Mr. Johnson. In my March 7 letter to you, Mr. Chairman, I 
respectfully asked that we respond to your full request by 
April 2.
    Mr. Dingell. Is there a reason why April 2 is the date by 
which we would receive them? Is there any reason why they could 
not be delivered sooner?
    Mr. Johnson. It is my understanding, sir, just given the 
volume of documents that you are requesting that it takes us 
time to try to find them, research, and provide them to you. We 
want to be complete in responding to your request.
    Mr. Dingell. Then, Mr. Johnson, I think I am to assume that 
you are giving this committee the assurance that all of those 
documents will be made available to us by April 2, is that 
correct?
    Mr. Johnson. That is correct.
    Mr. Dingell. Very good.
    It is always the hope of this committee that we may deal in 
a most friendly and a collegial and cooperative means and 
method with our dear friends in the executive branch, and we 
hope that you have the same good feeling towards us, that you 
share this kind of feeling and this kind of cooperation does 
obviate a lot of unpleasantness which could otherwise occur. I 
hope as events go forward that you will keep these thoughts in 
mind.
    Mr. Johnson. I am fully in support of that, too, sir.
    Mr. Dingell. I note that my time is expired. I thank you, 
Mr. Johnson.
    Mr. Johnson. Thank you.
    Mr. Dingell. We will withhold our request until April 2. I 
know that we will see those documents here, to the pleasure and 
appreciation of us all, on that date.
    Thank you.
    Mr. Johnson. Thank you, sir.
    Mr. Dingell. Thank you, Mr. Chairman.
    Mr. Wynn. At this time, I recognize the distinguished 
ranking member of the full committee, Mr. Barton of Texas.
    Mr. Barton. Thank you, Mr. Chairman.
    Before I ask my questions, I want the Administrator to know 
document requests that are legitimate, the minority totally 
supports the majority in getting those documents. If for some 
reason there is a request that you consider to be not 
legitimate, if you would contact myself we will work with you 
and Mr. Dingell to alleviate it. But in general terms, this 
committee requests official documents we expect them to be 
tendered in the timeframe that is appropriate.
    I would like to ask you about the CAIR Act.
    Mr. Johnson. Yes.
    Mr. Barton. The mercury rule that was promulgated and 
implemented, I think, several years ago, could you expound on 
how you think implementation of that Act is going and what the 
results have been to date?
    Mr. Johnson. The Clean Air Interstate Rules are actually 
the first regulations I signed as Administrator, and it will 
achieve close to a 70 percent reduction of both SO\2\ and NOx 
emissions over the coming years from coal fire power plants. 
This results in literally, over time, hundreds of billions of 
dollars of human health benefits to American citizens. This 
rule was put in place. States are in the process of 
implementing it, some through State implementation plans, some 
through partial State implementation plans, some through 
adopting the Federal implementation plan. But we are seeing 
good progress and certainly want that to continue.
    With regard to the Clean Air Mercury Rule, again, we are 
the first Nation in the entire world to regulate mercury from 
coal-fired power plants. We want to eliminate mercury as a 
health hazard from the citizens of the United States. In fact, 
we are one of the world leaders in taking on that challenge of 
dealing with the global problem of mercury, and of course, the 
Clean Air Mercury Rule is one of those examples of things we 
put in place.
    Mr. Barton. Are we actually in the stage where it has been 
implemented anywhere and reductions are occurring, or is it 
still in the implementation stage?
    Mr. Johnson. Well, it requires technology and it is my 
understanding that companies are beginning to install the 
technology. I will turn to Bob. Do we have any specifics of a 
company?
    Mr. Barton. Can you identify yourself?
    Mr. Myers. Bob Myers, Office of Air and Radiation.
    We can provide specifics for the record. We are obviously 
at the beginning of a program in two phases. The first phase is 
2010, so investments are made now to meet that degree to which 
equipment is on the ground now specifically for that 2010 date. 
We will try and provide some information.
    Mr. Johnson. So far we are still kind of ramping up. There 
is not an actual cleanup or mercury reduction that has occurred 
yet.
    Mr. Myers. There could be some reductions. It is a matter 
of assessment to try to see how exactly what the rule has 
produced. We also have, obviously, the investments associated 
with CAIR and the first 2010 date is the co-benefit level for 
mercury, so the investments in CAIR essentially get the mercury 
reduction. What I can provide right now with specificity is 
exactly how many in the ground in the plant investments are 
operating right now, but we will try to do that shortly.
    Mr. Barton. It seems to me you ought to be up here instead 
of down there, but that is a different story.
    You said we are the first Nation. Have any other nations 
adopted a similar rule on mercury since we have?
    Mr. Johnson. Not that I am aware of, but that is an 
excellent question. Bob, are you aware of any other countries?
    Mr. Myers. Not at this point in time that I'm aware of.
    Mr. Barton. The United States of America, it is routinely 
pilloried in international media for dragging our feet on 
environmental issues. Not only leading the way, we are the only 
Nation even attempting to control mercury, is that correct?
    Mr. Johnson. I would have to check the record to see what 
other countries, because we have been aggressively pushing 
other countries as part of our international effort to deal 
with mercury from a variety of sources, including air, 
including stocks of mercury, as well as things including 
mercury that is included in little switches of older cars that 
we have taken a very aggressive stance on here in the United 
States.
    Mr. Barton. My time is expired. I will have some questions 
in writing, Mr. Chairman, for EPA on the funding of the leaking 
underground storage tank program. I am dismayed that we have--
the trust fund is growing and expenditures for actual cleanup 
seem to be declining, and I hope that is area on a bipartisan 
basis we can work with the administration to increase funding, 
because we do have many localities that have leaking 
underground storage tanks, and that was one of the priorities 
in the Energy Policy Act, to beef that fund up and to get the 
States doing inspections and actually cleaning it up. So we 
will have some questions for the record for that.
    I yield back.
    Mr. Wynn. I thank the gentleman. I concur that that is a 
likely area for bipartisan cooperation. The trust fund is 
clearly being underutilized and that is of detriment to our 
citizens. At this time, the Chair would recognize Ms. Baldwin 
for a total of 8 minutes.
    Ms. Baldwin. Thank you, Mr. Chairman.
    Mr. Administrator, are you familiar with the Supreme Court 
case Cooper Industries, Incorporated v. Aviall Services, 
Incorporated ?
    Mr. Johnson. Yes, I am familiar with it.
    Ms. Baldwin. In that case, the Court held that a private 
party may not obtain contribution from other liable parties 
under CERCLA section 113(f)(1) unless the private party has 
been the subject of an administrative order or enforcement 
action by the EPA. This holding is very important because it 
challenges the previous practices of parties initiating 
voluntary cleanups without EPA intervention or involvement.
    I am wondering if you could tell us what effect this case 
has had on voluntary cleanups throughout the United States?
    Mr. Johnson. Well, we are currently monitoring the Aviall 
decision, because as you point out, in fact the Circuit Court 
split in January 2007 and the Supreme Court has granted cert. 
So at this point, we are monitoring the situation and I am 
unaware, at this point, of specific impacts on particular 
Brownfield sites, but as I said, we are currently monitoring.
    One of the things that I would like to note, that is a 
program very much akin to Brownfields and one that certainly 
urge members of Congress to pass, and that is our Good 
Samaritan legislation. There are over 500,000 abandoned hard 
rock mines in the United States, key word abandoned. And we 
have Good Samaritans who want to go in and cleanup, but because 
of liability provisions associated with our Clean Water Act and 
CERCLA, they don't want to become the liable party for the 
entire site. And so we think it is a good thing to allow Good 
Samaritans to get in and help these sites, and so here is a 
great opportunity to accelerate environmental progress. And so 
I urge Members of Congress to help us move forward.
    Ms. Baldwin. I want to continue speaking a little bit about 
Aviall. Of course, my understanding is it goes beyond 
Brownfields in terms of its impact. Attorneys in the field have 
described the impact of the case as having created a needless 
policy crisis, so I am not sure that I am hearing from you the 
same level of concern about the impact of this.
    I guess since it has been over 2 years since the original 
Supreme Court decision in December 2004, and you certainly 
responded to, I think it is Chairman Dingell's inquiries about 
the impact of the Aviall decision. Have you made any real 
effort in the EPA to collect data on the impact that this might 
be having on voluntary cleanups? Again, I would hope that the 
EPA is encouraging this type of activity with regard to the 
113(f)(1) section.
    Mr. Johnson. We definitely want to encourage continued 
cleanup through Brownfields. It is a highly successful program, 
and as I said, want to extend it to hard rock mines.
    Let me ask my staff.
    Ms. Buhl. Good morning. I am Lynn Buhl and I am in the 
Enforcement Program at EPA.
    Yes, we were concerned by the ruling Aviall, and we have 
asked our regional offices repeatedly if they are getting phone 
calls, if they are getting a number of parties coming in and 
asking to enter into an agreement with us when they may not 
otherwise have done so, and the answer is not really. A couple 
of States have expressed concern. It is very hard for us, 
though, to know what is not happening in the private sector 
that we simply are not a part of.
    So we are worried about it. We are a little suspicious that 
a lot of things may not be happening that we would like to see 
happening, but we just don't have the anecdotal evidence.
    Ms. Baldwin. OK.
    I am curious. The EPA has consistently said that the Agency 
supports voluntary cleanups. Even in your testimony, Mr. 
Administrator, you talked about having 300 million partners in 
your efforts to protect the environment.
    Mr. Johnson. Yes.
    Ms. Baldwin. Does the EPA support the Fifth Circuit Court 
of Appeals decision in Aviall, and as you may recall, when it 
was at the Fifth circuit, the decision would have encouraged 
voluntary cleanups and subsequent contribution actions by 
allowing parties performing cleanups to recover some of their 
costs without EPA's involvement through an enforcement action 
order. I am wondering what posture you took at the 5th circuit.
    Ms. Buhl. I believe we took the position that you need to 
take a very strict interpretation of the statute.
    Ms. Baldwin. Did your agency, when DoJ was taking the 
position on behalf of the U.S. Government, did you express 
concerns about the path they were taking in terms of the impact 
on voluntary cleanup, again, something I hope that you would 
want to encourage?
    Ms. Buhl. I apologize. I was not there at the time and not 
present in the discussions, but I am happy to inquire and 
follow up on your question.
    Ms. Baldwin. I want to switch to the issue of mercury. Last 
July, the EPA issued its first ever comprehensive overview of 
the Agency's activities surrounding mercury. EPA's roadmap for 
mercury focused on six key areas where the goal is to reduce 
health risks associated with mercury exposure. Among them are 
research and monitoring. The roadmap states that the Office of 
Research and Development will continue to pursue its long-term 
goals to reduce health risks associated with mercury and to 
better understand the transport and fate of mercury in the 
environment. I am wondering what is the Office of Research and 
Development's current budget for mercury research specifically?
    Mr. Johnson. I will ask Dr. George Gray to come up to the 
microphone, who heads up our office's research and development, 
but in the meantime, as I mentioned to Mr. Barton, that mercury 
really is a global challenge and EPA and the United States are 
leading the way. I mentioned our Clean Air Mercury Rule, we 
have now a partnership program for getting the mercury out of 
those old automobiles. That is 75 tons of mercury that would 
have gone into the environment, either the air, water, or land, 
that we have eliminated through this agreement.
    Ms. Baldwin. But I am sure you are interested in this issue 
and, in fact, have legislation of my own on this specific 
issue.
    What I am really interested in, though, is knowing the 
budget level for the Office of Research and Development with 
regard to mercury research.
    Mr. Gray. I am George Gray, the Assistant Administrator for 
the Office of Research and Development.
    This year's presidential budget helps us accelerate our 
efforts on mercury and increases our budget to $4.3 million for 
our research on mercury. That research ranges from looking at 
ways to further implement the Clean Air Mercury Rule, looking 
at technologies for removing mercury from power plant gases, to 
understanding the way in which it moves around in geochemical 
cycles. We have a strong program that has, as I said, an 
increase of about $500,000 in this year's presidential budget.
    Ms. Baldwin. And then the roadmap also looks at----
    Mr. Wynn. Excuse me, the gentlelady's time is expired.
    Ms. Baldwin. Oh, I will submit my final question in 
writing. Thank you.
    Mr. Johnson. Thank you.
    Mr. Wynn. I thank the gentlelady.
    At this time, the Chair would recognize former Speaker, the 
distinguished gentleman from Illinois, Mr. Hastert.
    Mr. Hastert. Thank you, Mr. Chairman. It is interesting, 
because what I found that the EPA probably does some of its 
best work when it works together with other Government 
agencies. In my home district in Illinois, the town of West 
Chicago, at one time we had 13 billion cubic feet of fluorium 
tailings, and it was through the cooperative efforts of the 
Illinois EPA, the U.S. EPA, not only did we get those fluorium 
tailings moved to a safe place--these were just dumped in the 
middle of a town, radioactive material, but a lot of the other 
material that was produced during the 1950's, nobody really 
knew about radiation then. It was taken for people to use in 
sandboxes and dumped as fill and found its way into Crest Creek 
and then the Dupage River, and a cooperative effort of the U.S. 
EPA, the Illinois EPA and some lucrative regulatory agencies, 
we have been able to clean this up, and we are almost there. It 
has only taken us almost 22 years. I think that type of 
cooperation when your agency doesn't stand alone as an entity 
by itself, it really reaches out to State and local agencies to 
work together, you have been, at least in my view, the most 
successful.
    Which takes me to another issue. In the area of Missouri 
and Wisconsin and Illinois, we end up every spring with an 
issue of biofuels, and biofuels are a result of trying to meet 
clean air standards in changing climates. Of course, the winter 
blend of gasoline is different than the summer blend of 
gasoline. But every year, we see a spike in the cost of 
gasoline in those areas, especially the metropolitan areas of 
Wisconsin, Milwaukee, Madison, the areas of Chicago and East 
St. Louis, and St. Louis area. And so it has been a frustration 
for us to try to get some type of accommodation for transition. 
Can you give us an idea of how that might be implemented?
    Mr. Johnson. Yes, sir, I can.
    Of course, our goal with our fuel program is to both meet 
our air quality standards as well as to make sure that we have 
an abundant and affordable fuel supply. The President asked me 
shortly after our situation with Hurricanes Katrina and Rita, 
and concern over gasoline shortage to work with our States, our 
governors, to evaluate biofuels and to see whether there was a 
problem both in availability and impact on price. Working with 
our State partners--and thank you for the great comments about 
our partnership--we looked at the issue of biofuels and I would 
be happy to provide a copy of that to you and for the record, 
because what it indicated was is that while on occasion there 
might be an issue with availability of biofuels, by and large 
it was a tool that States, particularly governors, wanted and 
needed to be able to manage both air quality issues as well as 
fuel supply.
    So I would be happy to supply----
    Mr. Hastert. I think probably the issue is not the biofuels 
themselves, it is the transition periods, and the peripheral 
vision of blending those fuels, trying to get them in empty 
tanks and move through the availability of pipelines to move 
this, stuff has to be flushed, and there is a transition time 
where it is not really winter, it is not really summer, I see a 
possibility of at least a leniency at least blending these 
fuels so they are not completely separate, and then moving into 
the complete fuel line as temperatures get warmer. So it is a 
consideration, it something we have talked about for a long 
time. I appreciate your attention to it.
    One last thing I would like to cover. You have the new 
diesel standards coming into effect this year and I wonder, 
what kind of cost analysis have you done as far as increased 
costs? What is the increased cost to engines and operation, do 
you know at all?
    Mr. Johnson. We have done extensive cost analysis on diesel 
engines, both on road, off road, and a proposed regulation that 
I just proposed last Friday dealing with marine engines and 
locomotives. I would be happy for the record to give you the 
specifics and our detailed analysis.
    Locomotives, for example, I do know that it is somewhere 
between about 2 percent of the cost of moving to a clean diesel 
locomotive and of course, the requirement is a number of years 
away because we are in the process of----
    Mr. Hastert. Is that about the same for truck engines?
    Mr. Johnson. Truck engines, Bob, do you recall? I don't 
have the specifics off the top of my head.
    Mr. Myers. Yes, we did perform a detailed regulatory impact 
analysis associated with the cost increases in truck engines. 
It depends on the technology. Again, I would like to verify for 
the record, but I think in terms of the high end of the range 
was along the lines of roughly $1,500 and hundreds of dollars 
at the low end of the range. That would be not necessarily the 
increase of costs if somebody might price it. We do our 
analysis based on what we think the actual cost to the 
manufacturer would be.
    Mr. Hastert. Alright, I appreciate it. I just want to say I 
think that is a giant step in cleaning up air, and of course, 
diesel is one of the most intrusive pieces of clean air. But on 
the other hand, that cost is passed on to consumers and the 
consumers then pick up that cost, whether it is the cost of 
freight, cost of buying a truck or a diesel mower or whatever 
it happens to be, so I appreciate what you have done. I 
appreciate your service. I would like to have those cost 
analyses for the record.
    Thank you very much.
    Mr. Johnson. Thank you. If I could, Mr. Chairman, just to 
add to that, the cost for the diesel locomotive and marine 
would be about $600 million is what our estimate shows. The 
public health benefits, 20 times that, $12 billion per year, 
and so we see that kind of significant ratio of cost and 
benefit throughout all of our diesel, and of course, just to 
lastly add, we look at all of our diesel regulations that we 
put in place and add that to the Clean Air Interstate Rule, in 
fact, short of getting lead out of gasoline, these are the most 
health protective and health beneficial standards to our air in 
the history of the United States.
    Mr. Hastert. I thank the gentleman, and I yield back.
    Mr. Wynn. At this time, the Chair would recognize Mrs. 
Capps for 8 minutes.
    Mrs. Capps. Thank you, Mr. Chairman. Welcome, Mr. Johnson.
    Mr. Johnson. Thank you.
    Mrs. Capps. I am going to be putting up a chart that is 
entitled ``Hazardous Substance Superfund Account'' and this is 
provided by the Congressional Research Service.
    [The chart follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.299
    
    Mrs. Capps. If you have a chance to notice, the President's 
request for 2008 is at the bottom of the chart. You see that it 
is actually less in terms of real dollars for cleanup than any 
of the previous 10 years, I will give you a minute to find it, 
but is this not correct? The President's request for 2008, the 
bottom of that middle column----
    Mr. Johnson. The President's request is $1.2 billion.
    Mrs. Capps. Yes, which is, if you look at all of the 
numbers on the right column, it is actually less in terms of 
real dollars for cleanup than any of the previous 10 years. Is 
this correct?
    Mr. Johnson. I don't know how this was----
    Mrs. Capps. This was provided by CRS.
    Mr. Johnson. Taking it at its root then it is what it is.
    Mrs. Capps. Alright. Then my first question out of several, 
can you explain to me what is going on here? Why is the 
President's request not keeping up with inflation?
    Mr. Johnson. Well, the President's request is focusing on, 
again, for Superfund of turning problem properties into 
community assets, and the President's budget helps achieve--in 
fact, it achieves what our goals and objectives are for----
    Mrs. Capps. I don't want to interrupt you, but I want to 
get on to something more specific. It is true, though, that it 
is a decrease in funding?
    Mr. Johnson. Well, let me also point out that I think it is 
also important that if you look at Superfund, it is not just 
EPA, but when you look at across the Federal Government, 
Department of Defense, it is actually $8.5 billion.
    Mrs. Capps. You are on the witness stand here today, sir, 
with all due respect, and I am looking at this portion of the 
funding.
    Now I want to turn to a more specific local situation in my 
district, but it appears to me that without funding, the pace 
of cleanups will be adversely affected. Two years ago, the 
Acting Assistant Administrator, Mr. Dunn, commented that 
effects of the funding shortfall--and this is his quote ``For 
the last 3 years, EPA hasn't started cleanup at some new sites. 
If we assume that EPA's budget will remain flat for the 
foreseeable future, construction funding could be delayed at 
more and more sites.'' Another quote more recently from 
Assistant Administrator Ms. Bodine, announcing that EPA would 
only achieve 24 Superfund construction cleanups as opposed to 
the 40 cleanups cited in the President's proposed budget.
    Yesterday EPA proposed the Halaco Engineering Company in my 
district in California for listing on the National Priorities 
List. Your proposal identifies to the surrounding communities 
that this is, indeed, a dangerous place, would be probably 
hazardous to one's health, and yet, there is going to be a time 
lag by all of the facts that we have. I want you to give me 
assurances to my constituents that the Halaco site is going to 
be remediated anytime soon, given that this EPA Superfund 
levels are effectively decreasing.
    Mr. Johnson. Yes. With regard to the specific site, I will 
ask Susan Bodine if she would come to the table. We will say 
for those sites that we have identified that there is an 
imminent hazard, then we aggressively pursue, making sure that 
we bring an interim answer to a point so that we are 
eliminating that imminent hazard.
    Mrs. Capps. Thank you. Could I ask if you would please, I 
would like to have these documents in writing so that I can 
convey them, because I do want to go--well, go ahead and give 
me a brief answer, but I would like something more lengthy that 
I can share with my constituents.
    Ms. Bodine. Susan Bodine, Assistant Administrator for 
Emergency Response.
    You quoted former Acting Administrator on the concern that 
we had unfunded new starts. In 2005, we had nine unfunded new 
starts, in 2006 there were six unfunded new starts.
    Mrs. Capps. Is this not a correct quote or a statement by 
you that you would be achieving 24?
    Ms. Bodine. Yes, that is accurate. We have actually 
provided information to Chairman Wynn and Chairman Dingell with 
respect to the reasons as to why----
    Mrs. Capps. Right, well, I would like to have those reasons 
as well. I would like to get that in writing.
    Ms. Bodine. I can provide that to you.
    And then with respect to the Halaco site, yes, it has been 
proposed to the national list. We will take comment on that 
proposal and presumably in due course it will be listed. As we 
have talked about and as other members have discussed, 
Superfund is a long-term process so we would be proceeding with 
the investigation and picking the remedy for that site. Those 
are not high-cost activities, and at the point of that we would 
get to construction, it, of course, would then be--if there are 
responsible parties, we would be asking them to cleanup. The 
fund lead, at that point, it would go through our 
prioritization process where we have our experts prioritize 
sites based on their level of risk.
    Mrs. Capps. Thank you.
    Ms. Bodine. At the beginning of the process----
    Mrs. Capps. Exactly, but there is now a delay, because 
there is a backlog of sites.
    Ms. Bodine. No, there is no delay in moving forward with 
listing or with doing investigation or with picking remedies 
and I can't tell you what would happen 5 or 6 years from now 
when this would be ready for funding.
    Mrs. Capps. OK, thank you.
    I do have another topic to bring up, since this time with 
Mr. Johnson is very important to me. Turning to clean air, the 
EPA finally issued standards for ozone and fine particle 
pollution requirements, which now means that the State and 
local governments need to meet these responsibilities. At the 
same time, in this budget you are proposing $35 million in 
budget cuts. Does this mean a decrease in grants to State and 
local air pollution control agencies who are charged with 
meeting these standards?
    Mr. Johnson. What it means is that we certainly value the 
work of our States and this is a shift of the monitoring 
network to the States. It was never envisioned that the Federal 
Government would continually pay for monitoring networks, so 
this represents a shift of a portion of that to the States.
    Mrs. Capps. So this would be a burden for States and local 
agencies to meet these standards?
    Mr. Johnson. Well, with regard to the standards, we were 
just talking earlier about the Clean Air Interstate Rule, which 
was the Federal Government's role in dealing with that trans-
state boundary air pollution, but yes, the States for their 
local air provinces would need to develop appropriate 
mitigation for the issues in their State.
    Mrs. Capps. And they will do this now with these new 
standards being published? They have been in effect for several 
years but they have now been published so that they now have 
new requirements to meet.
    Mr. Johnson. There are new requirements to meet, that is 
correct, and they have to go through----
    Mrs. Capps. It is hard for me to justify these cuts at a 
time when States are right in the middle of developing and 
implementing their own strategies for ozone fine particulate 
and many other programs, and I wish I had more time, because as 
a public health nurse, I find the President's budget so 
unacceptable. In times of rising rates of childhood asthma, 
cancer, neurological and developmental disorders, decreasing 
funding for environmental programs--I don't see how we can 
justify decreasing them. I believe, Mr. Chairman, that we have 
a lot of work ahead of us to restore funding in these very 
critical areas.
    I have no more time, but I would love to have a response 
from you.
    Mr. Johnson. Well, if the chairman would allow, in fact, 
there are a number of items in our budget, for example, one 
that I want to point out is that we--actually as part of the 
President's budget, there is an increase of $6 million to fund 
children's health research centers, so we are going from seven 
to nine to help in that. As I mentioned in my opening 
testimony, for research and development we have additional 
funds in there to help particularly air research for children 
by way of roads, because of the concern over asthma.
    So there are a number of very specific programs in our 
budget which are designed to help us better understand and 
better protect our most sensitive subpopulations.
    Mrs. Capps. But in this area, which is your responsibility, 
there are cuts.
    Mr. Johnson. In air monitoring, it is a shift to where 
responsibility to the State, which was always something that 
the Federal Government would never pay for all State 
monitoring, but that was a responsibility that was shared by 
the States and the Federal Government----
    Mrs. Capps. So it is a shared responsibility.
    Mr. Johnson. It is a shared responsibility.
    Mr. Wynn. The gentlelady's time is expired.
    Mrs. Capps. Thank you.
    Mr. Wynn. The Chair would recognize Mr. Pitts for 8 
minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Administrator, there appears to be some confusing 
regarding the Agency's efforts to address climate change. Could 
you describe the Agency's efforts in this regard?
    Mr. Johnson. If I could, sir, I would like to put in the 
context of the administration, in fact, our Nation's commitment 
to--we have an unparalleled commitment, international 
commitment in the United States to address climate change. From 
2001 through 2006, we as a Nation have spent $29 billion to 
fund science, technology, and even providing some tax 
incentives to address climate change. At EPA, we have a part of 
the program which deals with issues such as Energy Star, 
Methane to Markets, climate leaders, Asia Pacific Partnership. 
We are an active participant, and as an administration, we have 
an aggressive program to address climate change.
    If I might, Energy Star, for example, in 2005 by consumers 
buying products with the little Energy Star label, they saved 
$12 billion in energy costs. If you want to put that in terms 
of greenhouse gas emissions, they reduced greenhouse gas 
emissions equivalent to 23 million automobiles.
    And so what we are finding is our programs are working. Of 
course, the President in his State of the Union has now put two 
charges before you members of Congress, and that is to pass the 
alternative fuel standard, as well as the CAFE standard, both 
of which help not only energy security, but also help us on the 
environment, particularly greenhouse gas.
    Mr. Pitts. Thank you.
    Another line of questioning, Brownfields. Brownfields 
funding is an important program to many of us on this 
committee, and I have a couple of questions based on the 
testimony our committee received last week from the U.S. 
Conference of Mayors.
    First, Mayor Bollwage seemed to suggest that anyone who 
sends a Brownfields application to EPA should automatically get 
a Federal grant. The first question is, is it the Agency's 
experience that every grant application it receives is worthy 
of funding?
    Second, Mayor Bollwage claimed that EPA denied two-thirds 
of the Brownfields applications because it did not have the 
funding, and the mayor suggested that if EPA had more money, 
these sites that were denied Brownfields grants would be able 
to obtain Federal grants. Is it true, second, that EPA denied 
funding to these sites solely due to the lack of Brownfields 
funding?
    And lastly, Mayor Bollwage suggested that Federal 
Brownfields cleanup grants should be used to help fund cities 
applications for Brownfields grants, as well as the 
administration of the grants once received. This is not an 
allowable use under the law, and cities, especially those that 
tap the success of the existing Brownfields program have 
willingly put up their money for these purposes. Do you support 
changing the statute to allow cleanup grant dollars to be 
siphoned away from cleanup, and instead allowed to go to 
administrative costs?
    Mr. Johnson. Alright, yes, sir. Let me try to take each of 
your questions in turn.
    First, to make sure that everyone is aware that the fiscal 
year 2008 budget request is actually higher than what the 
President's budget request was for Brownfields last year. In 
fact, as I already mentioned, as you look through the history 
of Brownfields, in fact that in spite of the President's 
request for much larger sums, Congress has chosen to keep this 
program relatively stable. We think it is a great program. It 
leverages dollars, it converts those eyesores into sources of 
pride.
    With regard to administrative costs, we do not support. In 
fact, as you are well aware, the current legislation prohibits 
those administrative costs from--being able to use the funds 
for administrative costs. The reason why we don't support it is 
that we want to see those dollars not go to administrative 
costs, but we want to see them go to cleanups. And, in fact, as 
you appropriately point out, what we are finding is that people 
are willing to invest in the administrative costs to be able to 
get a grant to go forward with.
    With regard to the grants that we receive, we receive a 
great number of grant applications. Not every one of them is 
worthy for funding. I don't have the statistics, but I would be 
happy to share with you for the record what information we have 
as to the numbers and which ones have been evaluated and found 
to be worthy or not.
    Mr. Pitts. Thank you, I appreciate you providing that 
information.
    Mr. Johnson. Thank you.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Wynn. Does the gentleman relinquish the balance of his 
time?
    Mr. Pitts. Yes, I yield back.
    Mr. Wynn. I thank the gentleman.
    At this time, the Chair would recognize Mr. Pallone of New 
Jersey for 8 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I just want to quickly go back to the Brownfields issue, 
and then move on to Superfund.
    My own interpretation of history here, because I was 
involved in the authorization of the Brownfields program, and 
it was really the first and maybe the only pro-environment bill 
that the President signed. So I am a little sympathetic to the 
fact that the President does support the Brownfields program. I 
am not going to disagree with you. But it is true, of course, 
that the Republican majority in the last few years since it 
went into effect has not been funding it adequately. So I guess 
my point I am trying to make to the Administrator is if it was 
possible to get significantly more money for some of these 
applications that Mr. Pitts mentioned, you clearly would fund 
more of these. In other words, these applications have merit, 
they are just not being funded because you only have limited 
resources.
    If you could just answer that question.
    Mr. Johnson. Again, there is a lot of work to be done and 
there are a number of potential Brownfield sites, and again, 
the President's 2008 budget continues the progress and we are 
looking forward to having the budget passed so we continue that 
progress.
    Mr. Pallone. I know you can't say you want more money, so 
all I am asking is a lot of these applications that are not 
being funded clearly do have merit, is that true?
    Mr. Johnson. I don't know what the statistics are, but 
again, we will be happy to provide it for the record. I do know 
that a number of applications come in that have not been 
completely well-thought through, if will, and others that have 
merit. But I would be happy to provide that information for the 
record.
    Mr. Pallone. OK. I mean, I would point out that when it 
comes to the assessment and there are these other grants, so 
these assessments and another kind of grants where the 
President's budget actually is less. I mean, in that category 
there was $120.5 million in 2006 but in 2007, the budget 
request was only $89 million, and now it is $89 million again. 
So that account has gone down.
    But I am not looking to criticize the administration on 
this. I think more of the blame rests with the Republican 
majority in not providing more funding and actually limiting 
some of the funding, as you suggest.
    With regard to Superfund, my concern is that according to 
your own site managers, there are 15 Superfund sites in New 
Jersey where human exposure is not, I stress not, under 
control, more than any other State. But there are a number of 
these sites around the country where the human exposure is not 
under control. My concern is that I would think that protecting 
human health is probably the most important issue when it comes 
to these Superfund sites, and yet it seems like controlling 
exposure to people has not been a top priority.
    So I just wanted to ask you, isn't it time that you get 
human exposure under control? If you had, again, more funding, 
would you do more to get human exposure under control in New 
Jersey and across the country? Why isn't that seemingly a 
priority? Is it because of the money, or is there another 
reason?
    Mr. Johnson. No, it is a priority. I think that it would be 
helpful and beneficial to have Susan Bodine come up and explain 
what we mean by Superfund sites that are not under control.
    Mr. Pallone. That would be helpful, if you would. I know my 
time is running out, but----
    Ms. Bodine. Again, beginning in about 1993 we identified 
sites as where there was a complete exposure pathway. It 
doesn't mean that there is actual exposure, because of course, 
we are not going to go in and test people to see if they have 
actually been exposed, but where we find a complete exposure 
pathway and we have identified all of those as human exposure 
not under control.
    We do take everything possible to take steps to cut off 
that exposure, but for example, if we put up a fence and we see 
evidence that someone is cutting through a hole in the fence 
and getting on the site, we will list that as exposure not 
under control.
    For example, if we put a community on bottled water, or if 
they are all on a community water system but one person 
refuses, at this point we will say that is not under control 
because we have this one outlier.
    So there are a variety of reasons why a site may be not 
under control. Where we have immediate acute exposures, we take 
action right away through our emergency removals, our time 
critical removal programs. That doesn't mean there may still be 
long-term risks----
    Mr. Pallone. I appreciate that and I appreciate your 
response, but I just want to give you one example. One of these 
sites is the Ringwood Mines Landfill site in New Jersey, this 
is in my opinion one of the biggest Environmental Justice 
tragedies in the country, and I use Environmental Justice. It 
involves a minority low-income community, actually Native 
American, in our State of New Jersey, that has toxic paint 
sludge dumped on them by the Ford Motor Company, and the Agency 
came in and said they have conducted an Environmental Justice 
assessment, and said that the site is ``an adversely impacted 
area'', but really nothing was meaningfully done, in my 
opinion, to do anything about the human exposure, other than to 
say OK, it is adversely impacted from the Environmental Justice 
point of view.
     I just want to use that as an example. Do you plan to do 
more work and comprehensively address the injustices, and in 
this case, the human exposure? I could go through all 15, but I 
think this is one of the worst. As you know, this is one where 
you did relist the site and I do appreciate that. It was off 
the list and now it is on the list, but now that it is back on 
the list, something has got to be done about the human 
exposure, because everything that she described is true. I 
mean, there are immediate problems, there are long-term 
problems, but I don't really feel that any of them are really 
being significantly addressed at this time. I don't know if you 
can comment on this.
    Ms. Bodine. Yes. Ford Motor Company is taking actions at 
that site under an administrative order issued by EPA. I have 
statistics which I have provided for the record on the 
thousands of cubic yards of sludge, and yes, this is a problem. 
There is paint sludge and other materials that were on the site 
and that have been removed as part of the administrative order 
actions, as part of these emergency actions, and we are 
continuing to do more site characterization at some of the 
mined areas around it. But all of that work is proceeding and 
it is a priority.
    Mr. Pallone. Alright. Let me just ask one more thing. I 
only have a minute left.
    This goes back to the Toxics Release Inventory Program. You 
know that myself and the two New Jersey Senators introduced a 
bill, and Ms. Solis also playing a major role in trying to go 
back to the original regulation as opposed to the changes that 
the EPA promulgated.
    I was concerned because the GAO found that the EPA did not 
adhere to all aspects of its rulemaking guidelines when they 
developed a new TRI reporting requirements. What is your answer 
to the GAO report on that? I mean, it seems to confirm the fact 
that not everything was done properly in this rulemaking, which 
obviously we now want to overturn.
    Mr. Johnson. Well, the GAO also points out in the report 
that the Administrator and Assistant Administrators have 
flexibility in the rulemaking process, and in fact, we did 
follow the Agency process. There is flexibility and we went 
through the appropriate notice and comment rulemaking. We 
certainly had an active program in the Agency to come to the 
final recommendation and my final decision on TRI.
    I should note that since this is a budget hearing, that TRI 
is an important program. This year's 2008 request is $15.7 
million, which is the highest request in 5 years. So it is a 
program we certainly support and believe in, and certainly is 
reflected in the President's 2008 budget.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wynn. Thank you.
    The Chair would recognize Mr. Terry for 8 minutes.
    Mr. Terry. Thank you. I do appreciate that opportunity, Mr. 
Chairman, and like a couple of my colleagues on this committee, 
I want to focus on Superfund in my district, and I do 
appreciate that you brought it up in our discussion or answer 
to the chairman, considering the complexity of it.
    I will make one comment that I think is shared amongst all 
of us on this committee that have Superfund or other 
environmental issues, and this is we want it done yesterday. We 
don't like it done over a 10-year or like the Speaker said, 22 
years. We want it done in 1 day and we want it done perfectly, 
and ours should be the priority over everybody else's. I 
realize you have those political complexities on top of the 
scientific complexities.
    I am generally pleased with the dedication of the EPA to 
the Superfund site in my district. As you mentioned, 
Administrator Johnson, it is 9,000 acres and makes up, I think, 
almost about 15 percent of the geographic area of my district. 
It is a changing area. It is mostly African American. There are 
a lot of young families in that area. I appreciate that you 
have made those households with children the priority and 
cleaning those properties first.
    So I appreciate your dedication. I will, with every one of 
my colleagues in the delegation, continue to hound you to make 
sure that it stays on track and isn't diverted for political 
purposes because some other district becomes a political 
hotspot or something. So you have been above that political 
fray and I appreciate that, because it really is a safety issue 
within my district.
    Now, with funding, I would support additional funding 
within the Superfund so that you don't have to make as many 
priority choices between projects. But I am a little bit unsure 
how your budget works. I just want to ask a couple of questions 
within the Superfund fund.
    There has been discussions with the panel we had up here 
last week that suggested that the tax on chemicals and 
petroleum should be reinstated to bring the amount of your 
budget up to past. Well, you have proven that it is at least 
equal using general funds as it was in the past. So I 
appreciate you showing that.
    So my follow-up would be the other part of making industry 
just levy a tax on industry because they exist, the alternative 
is what is currently written in the law, and I know firsthand 
because of my district that you have been very aggressive in 
making polluters pay, and in my view, you have even gone so 
far, it is like if you brush by one of the potential 
responsible parties on the street, you would then become 
another potential responsible party. It is down to the point 
where I think you have gone way beyond what we think of 
polluters.
    My question then is in that regard about how aggressive you 
have become or the administration has become on making sure 
that the polluters are paying the full cost of remediation in a 
Superfund site, is that reflected, those dollars that come in, 
are those reflected in your budget or is that just the 
Government dollars? And how effective is your aggressiveness in 
making polluters pay in? Now, certainly in our blood sight you 
have an issue of the SARCO leaving the country and folding and 
defaulting on their obligations, so I just wonder how effective 
that has been, whether that is on budget or off budget, how are 
those dollars accounted for?
    Mr. Johnson. Well, we have been very successful and we do 
aggressively go after the polluter, because we do believe that 
polluters should be the ones paying. On average, we are 
achieving about 70 percent polluter pays, we have a responsible 
party. Certainly the law charges us to seek that responsible 
party and have them pay, and that is what we do.
    Having said that, we also try to be reasonable, 
particularly for those that are, if you will, the small 
contributors to it. Is there a diminimus threshold? We 
certainly prefer to settle. As I have often said, the air and 
the water and our land get any cleaner when we are sitting in a 
courtroom, and so we continue to try to negotiate settlement.
    With regard to numbers, let me ask Marcus, my deputy, to 
share with you the number that we now----
    Mr. Peacock. Just to get a sense of how large the breadbox 
is here, Congressman, the total PRP commitments for cleanups 
from fiscal year 2001 through 2006 was almost $6 billion, so 
those dollars are not reflected in the President's request. In 
fact, PRP spends money on PRP lead sites, we never find out 
what that amount of money is, and that is most certainly in the 
billions as well.
    Mr. Terry. Very good. So actually, there is more investment 
in cleanups than what we are discussing here today within the 
budget?
    Mr. Johnson. That is correct, and as I pointed out that 
that is what is in EPA's budget. The PRP lead is another pot of 
money which Marcus Peacock just went over, and then when you 
look at our other Federal partners, it is $8.5 billion. So as a 
government, between our $1.2 billion in Superfund and then our 
other Federal partners, $8.5 billion, we as a Nation are 
investing a great deal of money in cleaning up these hazardous 
waste sites.
    Mr. Terry. I appreciate that. Certainly, in my particular 
version of justice, I think you should go after those that 
cause the pollution. The polluters should pay for the 
remediation, and I appreciate your aggressiveness.
    I will just make a quick editorial comment on Brownfields, 
because Omaha--and I was involved in the City Council, as I 
mentioned, when one of the authorities on our panel last week 
actually sued me personally and in my capacity as a City 
Council member, which I will never forget, but the Brownfields 
that we cleaned up really was a partnership between the State 
and the city, and both of us put up some money as well as the 
polluter. And that was done and cleaned up within about 2 years 
from beginning to end. So there are times, at least in my view, 
that when the local communities take control of a site, and no 
offense, but leave the EPA out except for being advisory, it 
actually works better. And so when we pound our chest about 
more Federal involvement in the Brownfields, I sit there and 
cringe. No offense to that, but sometimes the local folks when 
they want to step up can actually do a darn good job of making 
a Brownfield useful for the community.
    And that ends my time.
    Mr. Johnson. That is one of the reasons it is one of the 
most complicated sites.
    Mr. Wynn. At this time, the Chair would recognize 
distinguished vice chair of the subcommittee and a leading 
advocate on environmental issues, the gentlelady from 
California, Ms. Solis.
    Ms. Solis. Thank you, Mr. Chairman, and good morning, Mr. 
Johnson.
    Mr. Johnson. Good morning.
    Ms. Solis. I just want to go straight into a line of 
questioning and hopefully, you will be able to respond yes or 
no on some of these questions.
    When were you first informed by the Inspector General about 
his draft evaluation of Performance Track?
    Mr. Johnson. My recollection of the first discussion that I 
had with regard to Performance Track was actually with the head 
of my policy office, who said that he had had a discussion with 
the Inspector General with regard to Performance Track.
    Ms. Solis. But you have not had that particular 
conversation with the Inspector General yourself?
    Mr. Johnson. No, following that conversation, I did meet 
with the Acting Inspector General and talked about Performance 
Track, but really more in the sense of as the Inspector General 
performs program evaluations. By the way, I believe are very 
valuable to the Agency and are very appropriate, and 
encouraging our Inspector General to do more, that in the 
program evaluations what is helpful for me as a senior manager 
is to not only know and understand what is wrong or what areas 
need to be fixed, but also highlight those things that are 
going extraordinarily well so we continue to do those things.
    Ms. Solis. Did you think that the evaluation was fair and 
balanced?
    Mr. Johnson. I didn't see the evaluation, so----
    Ms. Solis. But when you spoke to the Inspector--what date 
was that?
    Mr. Johnson. I don't know, I would have to go back and look 
at a calendar.
    Ms. Solis. Can you get me that information?
    Mr. Johnson. I would be happy to.
    Ms. Solis. OK.
    Moving on, my next question. Mr. Johnson, as I understand 
the eligibility for Performance Track, a facility supposedly is 
not allowed to be a member if it or its parent company is under 
investigation or has convicted an environmentally related crime 
within the last 5 years. If that is true, how are three 
Monsanto facilities members, despite their parent company 
having paid $1 million in fines as a result of criminal 
indictment by the Department of Justice? How are they then 
eligible for this program?
    Mr. Johnson. On the specifics, I would have to defer to 
Brian Mannix, the head of our policy shop. Let me say, the 
Performance Track which was launched in the year 2000 now has 
470 members. It was recognized by Harvard University in 2006 as 
one of the top innovations in Government.
    I think it is important to put it in perspective. It is an 
outstanding program. It is beyond compliance, and the 
specifics, Brian?
    Mr. Mannix. I wouldn't want to comment on the enforcement 
record of a particular company without a chance to review it, 
so I would be happy to answer that for the record, but I don't 
know the answer.
    Ms. Solis. But they did remain a part of the performance 
track program, in spite of the fact that according to your old 
standards they would have been outside of the bounds of the 
program?
    Mr. Mannix. Some facilities are part of the Performance 
Track program, yes.
    Ms. Solis. That fall out of the restrictions that you place 
on them for being a part of it, that is what I am trying to get 
at.
    Mr. Mannix. I am sorry?
    Ms. Solis. For example, in the case of Monsanto, they have 
been convicted of environmentally related crimes in the last 5 
years, and yet they are a part of this program.
    Mr. Mannix. Again, there are facilities in the program as 
to what the enforcement record is at other sites in the 
company, I would have to review that before----
    Ms. Solis. OK, and you could give us that information?
    Mr. Mannix. Yes.
    Ms. Solis. OK.
    This week, EPA announced new members with a press release 
stating that Performance Track facilities must meet all 
environmental regulatory requirements, and you praised Members 
as environmental leaders, because they go beyond what is 
expected or required by law. I have a chart that I would like 
to share with you.
    [The chart follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.300
    
    My chart shows one example of a facility which is a member 
of the Performance Track despite compliance problems. The 
company, U.S. Steel/Clairton Coke Works has paid over $140,250 
in fines for 10 separate Clean Air Act violations in just the 
past 3 years. Is this the kind of compliance history that a 
company is allowed to have and still qualify to be a part of 
the Performance Track program? Yes or no.
    Mr. Mannix. Again, I would have to review the record of the 
company before commenting on the specifics.
    Ms. Solis. Please provide the committee that information.
    My next question, in your testimony, the Agency is 
supposedly a good steward of taxpayer dollars, but my 
understanding is that EPA has awarded contractors millions of 
dollars to support Government employees implementing this 
program Performance Track. Contractors run telemarketing call 
centers to recruit applicants for this program. They draft 
press releases, templates, and articles to promote Fortune 500 
companies and design advertising and motivational posters to 
hang at Performance Track workplaces, such as these that are 
noted here before the committee.
    Are you spending the taxpayer's dollars to pay contractors 
to do public relations work for corporations?
    Mr. Mannix. In part, Performance Track is a recognition 
program, and yes, we do provide posters to companies so that 
they can proudly display their membership and their 
accomplishments.
    Ms. Solis. Even when those same groups are found in 
violation of the law?
    Mr. Mannix. We don't tolerate violations of the law.
    Ms. Solis. OK, next question.
    The California Air Resources Board estimates that each year 
there are about 5,400 premature deaths and 2,400 
hospitalizations and about 140,000 cases of asthma. This is a 
filter that I would like to demonstrate to the committee that 
is currently being used, a filter that is a monitor located 
near the ports of Los Angeles and Long Beach in a residential 
neighborhood that is predominantly low income minority. The 
filter was white, white as this paper, and now it looks like 
this, and there are three little dots to show you what it 
looked like when it was placed at the facility. Twenty-four 
hours later, which is equal to the amount of a typical human 
would breathe in 2\1/2\ half months, this is what it would look 
like, that accumulation in just that one cycle of 24 hours. The 
black color is largely diesel exhaust, and a toxic air 
contaminant in California, due to its carcinogenic risk.
    While I am pleased that EPA proposed a rule for locomotives 
and marine vessels, I am very concerned that it will not 
protect the health and well-being of minority and low income 
communities. My staff has reviewed this new rule that you just 
issued, and for the life of me, we can't find any discussion 
that would speak to the issue of Environmental Justice for 
review under this proposed rule. So could you please speak to 
that? Is there any mention at all?
    Mr. Johnson. I am pleased to, because this rule applies to 
all Americans, and in fact, the good news is because of our 
aggressive stance on diesel, on road, off road, and the 
proposal that I just signed on a week ago Friday, we will see 
significant health benefits across the population, particularly 
those sensitive subpopulations near or around port cities.
    Ms. Solis. But is there an exact area in the 800-page 
document where that is cited? That is what we want to know.
    Mr. Johnson. I would have to look. As I said, I know that 
it applies to all Americans, and in fact, anyone who is close 
to a port or to where locomotives are will benefit even greater 
than those that live further away.
    Ms. Solis. Well, this is a very, very critically important 
issue for many of us across the country, but in particular, in 
Long Beach and the Wilmington area, and as just noted, this 
filter is quite alarming to know that just in the course of 24 
hours, this is the same impact that is occurring with those 
young families that reside around the area. Many of them, I 
have to tell you, are military families.
    Mr. Johnson. That is why we have been aggressively going 
after diesel and in fact, urge you to support the President's 
2008 budget request, because there is $35 million in that 
budget to help deal with legacy engines, whether they be from 
trucks, school buses, or construction equipment.
    Our goal is to have that black puff of smoke which you see 
evidenced on that filter something you only read about in a 
history book.
    Ms. Solis. Very deadly carcinogenic.
    Thank you.
    Mr. Wynn. The gentlelady's time is expired. I thank the 
gentlelady.
    Next speaker will be the distinguished gentleman from 
Pennsylvania, Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    I want to get back to the issue of Clairton Coke Works, 
because it is a Pittsburgh company, in a moment, but first I 
want to ask a couple questions.
    First, how does the EPA work with industry when your are 
implementing some new standards that may impact upon them 
financially and also impact upon our job and manufacturing 
base? How do you go about that?
    Mr. Johnson. We have a number of programs that range from 
enforcement to compliance assistance to education, training, 
outreach, to partnership, and my experience after 26 years of 
being at EPA is that when we can come together to work 
collaboratively to address environmental challenge with our 
partners, it works a lot better. In fact, the results are 
cheaper, faster, and better results.
    We do have, as part of that effort, we have identified 13 
sectors in our business community where we have been 
aggressively reaching out to them to help and to work with them 
to achieve greater environmental results while maintaining 
economic competitiveness.
    Mr. Murphy. Thank you.
    Also, earlier you were referring to the mercury issue and 
the work that the United States has done as a Nation to really 
work at eradicating mercury through automobiles, air, et 
cetera. I know it is a significant concern for coal companies 
in trying to eliminate and reduce that, and yet, my 
understanding of the science of mercury is that it floats in 
the atmosphere, such as China, which is opening up a power 
plant every week, does not have controls on that, and the 
mercury that they produce--correct me if I am wrong on this, 
but even if we eliminate all of it from our factories we would 
still see a significant amount of mercury coming in, drifting 
in from other places around the world that do not scrub out or 
eliminate their mercury. Am I correct on that?
    Mr. Johnson. That is correct. There is trans-boundary air 
pollution. Pollution knows no political or geographic 
boundaries; that is precisely why the President asked a number 
of us, myself included, to be part of the strategic economic 
dialog with China. In my case, to work with them to help 
address the pollution, which obviously affects their citizens, 
but also creates trans-boundary air pollution.
    One of the initiatives of the President's 2008 budget is 
the Asia Pacific Partnership, which our $5 million is part of 
the President's overall $50 million request, to help in this 
very effort, so it is a critical effort that we work with our 
international trading partners, particularly China, India, 
South Korea in particular.
    Mr. Murphy. I hope that continues because I know it 
concerns me that when we are taking measurement samples of our 
air to compute in there, a lot of what is measured is not even 
coming from the continental United States.
    On the issue of so much that we are working on with air 
pollution, it is so important we work together on this. We 
still have to recognize 50 to 55 percent of our energy comes 
from coal. The Pennsylvania seam may have had more of an 
economic impact in the United States than almost any other 
geological formation on Earth, and we continue to be dependent 
upon it. I know there are forces who are trying to shut down 
coal's role, but we need it, especially in manufacturing, one 
of those being coke, and I am sorry that the gentlelady from 
California has left, because I wanted to ask--my understanding 
is the Clairton Coke Works that U.S. Steel owns, which is 
actually in Mr. Doyle's district, and many of the employees are 
from mine and many from U.S. Steel Works are also in my 
district as well. My understanding is that they are in 
compliance. They worked for several years with the EPA on this. 
I hope that is something you can get back to us and----
    Mr. Johnson. We have to get back to you on that.
    Mr. Murphy. Because it should be one of those things we 
have to find out if working together with the EPA has yielded a 
positive outcome, which we all want to see, but we also want to 
make sure we are not shutting down an industry. The steel 
industry in Pittsburgh is obviously important, and this 
Clairton Coke Works has been around for a long time, working 
and producing a vital element to make steel. So I hope that is 
something you can get back to us on and see. Because if there 
is some good news of how the compliance and working together 
has yielded some positive results, we would like to know about 
that and see how money is spent on that.
    Thank you very much. I yield back.
    Mr. Wynn. I thank the gentleman.
    Next we will hear from Mr. Allen, distinguished gentleman 
from Maine for 8 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you, Mr. 
Johnson, for being here.
    Mr. Johnson. Thank you.
    Mr. Allen. I want to begin by going back--your testimony is 
that the budget request for the Drinking Water State Revolving 
Fund is essentially the same as the 2007 level, but it doesn't 
appear that any of your budget considerations have taken into 
account the concerns expressed by the State environmental 
directors last week. Their basic point was that a dollar today 
doesn't buy as much as a dollar 5 years ago.
    We have a chart, and I would like that to be put up.
    [The chart follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.301
    
    This chart is prepared by the Congressional Research 
Service, and what it shows is that when you look at the fiscal 
year 2008 budget request, adjusted for inflation, and this 
looks at the last 10 years of funding for this particular 
program, adjusted for inflation in 2006 dollars. When you look 
at that, your budget requests to $802 million, or the lowest in 
the history of the program.
    Mr. Johnson. Correct.
    Mr. Allen. Do you agree with that?
    Mr. Johnson. It meets the President's commitment for a 
sustainable infrastructure and remember, this is a revolving 
loan fund and so as time goes on, that account continues to be 
built. The President's commitment was for drinking water 
between the years 2004 and 2018 that there be $12 billion 
revolving at $1.2 billion per year. The President's request of 
$842.2 million, which I believe is a $5 million increase, helps 
achieve the President's commitment.
    And may I also add, I think one of the important things 
that I would certainly urge Members of Congress to take a look 
at is the notion of private activity bonds. We have an outside 
group of financial advisors as well as a number of others, 
including mayors and others, have said if you could fix the 
private activity bond issue on the revolving loan fund, we 
believe we will get more investment.
    Mr. Allen. But we haven't fixed that yet, have we?
    Mr. Johnson. We haven't fixed it yet and that is part of 
the President's 2008 budget request is to fix that is actually 
amending section 146 of Internal Revenue Tax Code, so it would 
eliminate that cap.
    Mr. Allen. Right. I understand that, but you wouldn't 
disagree that the amount of money requested because of the 
factor of inflation is--the amount of money that can be put 
through this program buys less each year. That is what the 
chart says.
    Mr. Johnson. Having not seen the chart, just taking it by 
its face value, that is what the chart indicates. However, 
again, what the 2008 budget does do is it meets the President's 
commitment of revolving at $1.2 billion a year, and that is----
    Mr. Allen. But the only point I am trying to make, and I 
don't think you disagree with this, is if you have a flat 
commitment year after year after year, you can do less each 
year because everything costs more. That is the basic point. I 
think that is pretty simple, isn't it?
    Mr. Johnson. The point I was trying to reach is that in the 
case of our water infrastructure, this is another case where 
environmental responsibility is everyone's responsibility. The 
Federal Government has a role. Certainly rate payers have a 
role, and we have been looking for innovative ways to help 
accelerate the pace of dealing with our infrastructure. Private 
activity bonds is one.
    The other one which I just want to mention is a partnership 
program which we have initiated called Water Sense, and it is 
modeled after Energy Star. In fact, I just launched it this 
past year because I thought that it was important for consumers 
to be made aware of and to have a certification process so that 
consumers could make the preferential purchase that they are 
more efficient, and so we see a number of efforts to help 
ensure that our infrastructures----
    Mr. Allen. I understand those programs are fine, but my 
understanding is if you look at overall water infrastructure 
funding by the Federal Government, it has declined over the 
last 4 years by about 50 percent overall. Your Agency did a 
need survey and assessment in 2005 and concluded the total 
drinking water infrastructure needs stood at more than $263 
billion. In Maine, it is $300 million alone. I mean, I think 
what you are saying is somebody else has to pay for that. It 
can't be the Federal Government because we are going to keep 
our commitment flat. That seems to be what the President's 
commitment is and what you are suggesting the Agency should do.
    Mr. Johnson. What I am saying is I agree that the needs are 
great and in the range of $300 billion. Also, pointing out that 
it is not just the Federal Government's responsibility, but 
from individuals to----
    Mr. Allen. I hear you.
    Let me ask you another question before my time runs out.
    The Department of Defense, I understand, in contrast to 
previous BRAC grounds, has decided to withdraw funding to EPA 
for oversight of the 2005 round of BRAC cleanups. 
Traditionally, DoD has funded oversight by reimbursing EPA for 
full-time equivalent staff. For example, in fiscal year 2006, 
EPA had 75.5 FTEs dedicated to oversight work at 73 sites from 
the first four rounds of BRAC, and most of that was allocated 
to the regional offices. The DoD's intention in the 2005 BRAC 
ground is not to fund these FTEs.
    Now, if that is the case, the burden of paying for 
oversight of BRAC related cleanups moves to you, and given the 
meager EPA budget request, it is hard for me to see how that 
occurs, which means those costs would now be born by States or 
localities, making property transfer and disposal much more 
difficult, and in many cases, endangering people who live near 
those sites. My basic question is, were you consulted? Do you 
agree? Is this a good thing for DoD to pass those costs on to 
you?
    Mr. Johnson. Well, we at EPA continue to participate and 
seek reimbursement from Department of Defense, and Susan, if 
you would have some additional comments to provide?
    Ms. Bodine. Yes. As the Congressman pointed out, we have 
reimbursable FTEs for BRAC 1 through 4, and not for BRAC 5. We 
did consult with our regional offices as to the impacts of BRAC 
5 and were told that the additional resources, the reimbursable 
FTEs wouldn't be necessary, but that we are going to continue 
to monitor the situation so if it turns out that we do need 
additional resources, then we will go to DoD and seek 
reimbursement. But we were told, based on our review, that it 
wasn't necessary.
    Mr. Allen. So but if they are not necessary, does that mean 
that you are just taking people who are doing other things for 
EPA and moving them into that work? I mean, the work doesn't go 
away, I don't think.
    Ms. Bodine. No, but it is much--the BRAC 5 have many fewer 
NPL sites, national priority list sites. The work is much less 
and it is work that we can do within our existing resource 
base.
    Mr. Allen. OK. Do the States agree with that conclusion?
    Ms. Bodine. I believe the States expect us to still 
participate in the BRAC process, and we will continue to 
participate in the BRAC process.
    Mr. Allen. Thank you. My time is expired.
    Mr. Wynn. The gentleman's time has expired.
    Next we go to the gentleman from Oklahoma, Mr. Sullivan.
    Mr. Sullivan. Thank you, Mr. Chairman. Thank you for being 
here today.
    Mr. Johnson. Thank you.
    Mr. Sullivan. Mr. Johnson, as you may be aware, the 
attorney general of my State of Oklahoma, has sued a number of 
poultry companies for the natural resource damages under 
CERCLA. Because of the downstream liability concerns for 
smaller contract poultry producers, this case has caused many 
in my State to question whether manure is really a hazardous 
substance within the definition of pollutant or contaminant 
under CERCLA. I personally think we should see if there are 
ways to ensure environmental protection without the default 
assumption being that the courthouse is the first stop in these 
efforts.
    I have two questions for you, sir.
    First, I understand that you testified before the House 
Appropriations Committee about an administrative effort the EPA 
was undertaking in regard to animal waste and CERCLA. Could you 
please explain that effort and its scope for me?
    Second, if my State of Oklahoma is successful in its suit 
and other parties use the courts to establish that manure is 
the constituent or contaminant under CERCLA, could you please 
explain the enforcement predicament that this would place on 
the Agency. How much would EPA have to increase enforcement 
staffing and funding to patrol farms that EPA has historically, 
as a group, not considered an environmental threat?
    Mr. Johnson. Thank you. Again, our interest is to make sure 
we are providing environmental protection while at the same 
time supporting agriculture.
    In the case of the comment that I made is yes, we will be 
proposing a regulation that would exempt air releases from 
animal waste from CERCLA emergency notification requirements. 
We have heard from our 26-State emergency planning commissions 
that they believe that it is a waste of their time to hear a 
report from an emergency because there is a farm, if you will, 
nearby. And so we are going to be proposing a regulation that 
does not exempt farms from regulation under CERCLA. It does not 
exempt farms from regulation under the Clean Air Act, and of 
course, we have an ongoing science process to better understand 
what the air emissions may or may not be from agriculture. We 
are looking to try to have effective regulations that are 
efficient, while at the same time, focusing on where problems 
may be and not where they are not.
    And so, soon we will be having that draft regulation coming 
out for public comment.
    Mr. Sullivan. I will tell you, what I am really interested 
in--and for 5 years I have been here, is we have a problem with 
the poultry industry. We are downstream from them and they have 
been dumping litter and runoff and all that, and we have had 
mismanagement practices at the State which haven't really 
helped that much.
    I will tell you what is frustrating, sir, is that EPA will 
come down in our area if someone has--let us say a developer 
has some silt fences that aren't working and someone calls. 
Well, the region 6 people come up and find those builders, but 
they will not get involved. And this thing, I think the EPA is 
the Environmental Protection Agency for the entire United 
States. What they say is that you need to work this out. Well, 
you wouldn't tell a developer and someone complaining about 
those silt fences failing, you would come and find them. Well, 
how come the EPA has not gotten involved in this effort? Why 
don't they step in and try to do something about this, because 
my city of Tulsa is looking at changing and redoing their water 
supply. It is going to cost hundreds of millions of dollars to 
do that. Our lakes and streams are terrible. I don't know if 
you have seen them, but you can't even see your foot if you are 
standing in four inches of water, and it is just absolutely 
atrocious that nothing has been done.
    Can you answer that, why the EPA will not get involved? 
They say you guys figure it out.
    Mr. Johnson. Let me ask Ben Grumbles, who is the head of 
our water program. He can give you a good up-to-date report.
    Mr. Sullivan. Is the problem too big for the EPA?
    Mr. Grumbles. The problem, particularly when in an 
interstate context, it involves a great deal of collaboration. 
EPA, as I know you know when you first came to Congress and I 
met with you to respond to and address various concerns, we 
have a couple of key areas where we are involved and 
Congressman, we commit to continue to stay involved and to help 
work out the water quality standards issue, for one, about when 
there are different standards for different States upstream, 
downstream, it is important for EPA to be involved in that.
    In the context of runoff or non-point source pollution, the 
way the Clean Water Act is written, it really does put a 
greater role for the States. There is not a Federal EPA 
regulatory role, but that doesn't mean we don't step up and 
help, through science and a collaborative process. There is 
also the watershed approach, the planning that I know is a 
focus for us to work with you and your constituents, and the 
upstream constituencies.
    I also would say that when there are large CAFOs, it is 
important to regulate them, and that is why we are committed to 
finalizing a regulation on nitrogen and phosphorus under the 
Clean Water Act for concentrated animal feeding operations, 
including poultry.
    Mr. Wynn. The gentleman's time is expired.
    Mr. Sullivan. Well, we really need your help.
    Mr. Wynn. At this time, the Chair would recognize Mr. 
Stupak, the gentleman from Michigan, for 5 minutes.
    Mr. Stupak. Thank you, Mr. Chairman, but I believe it would 
be 8 minutes.
    Mr. Wynn. Did you waive originally? You claimed the time 
you sat in the chair.
    Mr. Stupak. No, I didn't give an opening statement, but I 
will take 2 minutes for sitting in the chair, so I should be up 
to 10 minutes.
    Mr. Wynn. I think we are going in the wrong direction, Mr. 
Stupak.
    The gentleman is recognized for 8 minutes.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Johnson, thanks for being here.
    Mr. Johnson. Thank you.
    Mr. Stupak. Two weeks ago, the General Accounting Office 
reported that it would cost $12 billion in public funds to 
cleanup half of the 54,000 leaking underground storage tanks. 
Michigan's share would be $1.64 billion. American motorists are 
being taxed on every gallon of gasoline to pay for the leaking 
underground storage tank trust fund to cleanup petroleum and 
MTBE leaks from these tanks. The trust fund will have a surplus 
of over $3 billion in fiscal year 2008.
    I want to direct your attention to the chart here, and I 
believe they are just handing you a copy right now.
    [The chart follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.302
    
    Mr. Johnson. Yes, thank you.
    Mr. Stupak. It was prepared by the Congressional Research 
Service, using EPA budget numbers. It shows annual revenues of 
$300 million to the trust fund, $200 million from tax revenues 
and over $100 million from interest on existing trust fund 
corpus. With over $300 million in annual revenues, why is the 
EPA only seeking $72.5 million from the LUST fund when there 
are over 113,000 cleanups not completed? Why wouldn't you ask 
for $300 million?
    Mr. Johnson. Well, this is a prime example of why we don't 
want the Superfund tax, because while the tax revenue has come 
in, as you look even----
    Mr. Stupak. Well, this about LUST.
    Mr. Johnson. Exactly precisely the point is that this is 
exactly what has happened with the Superfund tax, as is what is 
happening with the underground storage tank tax is that while 
the revenues have gone up, Congress has appropriated 
considerably less money.
    Mr. Stupak. What did you ask for? You only asked for $72.5 
million. Have you ever asked for $300 million?
    Mr. Johnson. We continue to ask for and align ourselves----
    Mr. Stupak. Asked for how much? How much did you ask for?
    Mr. Johnson. We asked for $72.4 million. That is for 
cleanups, and $22.3 million for inspections.
    Mr. Stupak. You asked for $94 million.
    Mr. Johnson. We are urging Congress to take a look at the 
requirement for inspections every 3 years, and in fact, what we 
have heard from the States is that it would be much more 
efficient to allow self certification----
    Mr. Stupak. But you have all this money here to cleanups. 
We have over 113,000 leaking underground storage tanks. How 
come we are not asking for the money to cleanup when the money 
is there?
    Mr. Johnson. We don't have the money. Congress has the 
money. What we have asked for is--and what the President has 
asked for continues the steady progress towards addressing 
underground--leaking underground storage tanks.
    Mr. Stupak. It doesn't look like any steady progress to me 
on that chart, it looks pretty flat or actually going 
backwards. I mean, the frustration of American people is they 
are paying for every gallon of gas and putting $200 million in 
this fund, and we still can't get the leaking underground 
storage tanks cleared up. So why don't you just ask for the 
$200 million, and we'll leave $100 million in for interest. Why 
don't you just ask for that so we can get this program done?
    Mr. Johnson. We want to continue to make steady progress 
while achieving a balanced budget. We estimate that 350,000 of 
the leaking underground storage tanks have already----
    Mr. Stupak. Well, you believe it is proper to place a 
gasoline tax on the public, but instead, use those funds as a 
Federal deficit reduction device rather than cleaning up 
contaminated leaking underground storage tanks?
    Mr. Johnson. Again, that is a decision for Congress, and 
what I can say is even before 2003 and 2001, Congress has 
chosen to appropriate a relatively level of source. Let me just 
give you another statistic, if I could----
    Mr. Stupak. I don't want you filibustering here. I have 8 
minutes. I'm trying to get 2 more from the chairman and he 
won't give it to me, so I can't let you filibuster.
    Mr. Johnson. Mr. Chairman, please.
    Mr. Stupak. The EPA decelerated the pace of environmental 
protection by dropping the Agency's annual cleanup performance 
goal of leaking underground storage tanks from 22,000, that is 
what it was in 2003. You were going to do 22,500. Now, you went 
down to 13,000 in 2008. That is a 42 percent drop. It seems 
like the Agency is not making any progress. You are going 
backwards. The goal is 22,500 in 2003, now you are down to 
13,000 in 2008. That is a 42 percent drop over 6 years. Why?
    Mr. Johnson. I have to ask. Susan, do you want to come up?
    While Susan is coming up, the one I wanted to point out was 
this President's budget is higher than any amount appropriated 
in all but 6 years since 1987.
    Mr. Stupak. No, my question, sir, is fiscal year 2003, 
22,500 were targeted for cleanup. Fiscal year 2008, the budget 
year we are in, it is 13,000. That is a 42 percent drop. Why?
    Ms. Bodine. Thank you, Congressman.
    The underground storage tank program is a State run 
program, and----
    Mr. Stupak. I am very familiar with it. Just answer the 
question. Why is it going down 42 percent in 6 years? No 
filibustering, please.
    Ms. Bodine. We rely on the States to tell us how many tanks 
they are going to be cleaning up, and they are telling us that 
they will cleanup fewer because the ones that are left----
    Mr. Stupak. So if the States ask for more money, you will 
give them more money?
    Ms. Bodine. They are telling us that with States----
    Mr. Stupak. Have the States asked for more money? Yes or 
no.
    Ms. Bodine. I would have to get back to you on that. I 
don't know that, but I can get back to you on that.
    Mr. Stupak. Alright. Let me ask this question. In 1992, 
there was an agreement between Michigan and Canada, solid 
municipal waste moving from Canada into the United States. In 
1982, the EPA was going to put forth a proper framework for 
notice and consent of the movement of waste and the flow of 
trash between our two countries. EPA has never done it. In 1993 
in a question to Mr. Dingell, when asked when those rules and 
regulations would be put out, the EPA said ``shortly''. It is 
now 14 years. We still do not have a program. And everybody who 
came from EPA--and over the last 6 years we haven't had many 
EPA hearings, but each time I ask and each time I use the word 
shortly, and each time I get back these nice letters saying we 
are working on it. We have the pilot program. We will have this 
completed shortly. It is 14 years. We still don't have the 
rules or regulations.
    Mr. Johnson. We lack the authority to ban municipal waste 
imports.
    Mr. Stupak. Yes, I have heard that before so I asked for 
language, and we never get any language from the EPA. If you 
lack authority, how could you do a pilot program if you didn't 
have authority?
    Mr. Johnson. Our pilot program went to look at to see 
whether, in fact, they were----
    Mr. Stupak. Moving trash?
    Mr. Johnson. Well, what the movement was and did it contain 
any hazardous waste, or was it indeed municipal solid waste as 
it was. And we concluded that the report inspections was 
completed in fiscal year 2006, and I would be happy to provide 
another copy of that for the record, if you would like.
    Mr. Stupak. Well, when are you going to put forth the rules 
and regulations, 14 years?
    Mr. Johnson. Again, we lack the authority to ban municipal 
solid waste imports.
    Mr. Stupak. But do you support Mr. Dingell's bill, then, 
H.R. 518?
    Mr. Johnson. We have taken no position on that bill.
    Mr. Stupak. You haven't taken a position on any one of the 
bills we have introduced for the last 6 years on this issue. 
Will you take a position on Mr. Dingell's bill, H.R. 518, which 
is a bipartisan bill signed by Great Lakes members who want to 
see the flow of Canadian trash greatly curtailed into this 
country?
    Mr. Johnson. We have not taken a position.
    Mr. Stupak. Will you take a position? Six years you have 
been trying to take a position. We change the numbers every 2 
years, the same bill. Will you take a position on that bill?
    Mr. Johnson. I will be happy to get back to you for the 
record.
    Mr. Wynn. The gentleman's time is expired.
    Mr. Stupak. Fourteen more years I am going to have to wait? 
I don't know if I will be here that long.
    Mr. Wynn. The Chair recognizes Mr. Deal of Georgia.
    Mr. Deal. Thank you, Mr. Chairman. I would yield to Mr. 
Murphy briefly.
    Mr. Murphy. I thank the gentleman.
    I just want to clarify. I have been checking this issue 
about the Clairton Coke Works, because they have been around 
for many years. The Clairton Coke Works is operated by U.S. 
Steel and is actually in full compliance with the EPA and full 
compliance with the National Emissions Standards. Not only 
that, it actually operates under stricter standards than the 
EPA or the National Emissions Standards, because the State of 
Pennsylvania has stricter standards and Allegheny County has 
even stricter standards than the State of Pennsylvania, and it 
is operating under strict standards for all of those.
    Mr. Chairman, I would like with unanimous consent to be 
able to provide all this information, as well ask the 
gentlelady from California to provide her information, because 
it may be an example of how the EPA and industry can work 
together to make sure they are working for the public health 
and achieve the things that we wish.
    I yield back.
    Mr. Wynn. Since the gentlelady from California is not here, 
for her I am happy to include without objection, and I will 
certainly ask her if she would like her information included.
    Mr. Deal. Mr. Johnson, thank you for being here today.
    Mr. Johnson. Thank you.
    Mr. Deal. Very briefly, since the issue of poultry waste 
and CERCLA has come up, as a representative from perhaps one of 
the largest broiler producing districts in the entire United 
States, my communities have serious concerns about the 
expansion of authority, regulation or otherwise, under CERCLA, 
which we do not think was initially intended to address this 
issue.
    So a little bit different perspective than perhaps what you 
have heard earlier references made to that, but moving on to 
another consideration. And it would be primarily observation, 
followed by a very brief question or two. We have heard from 
many of my colleagues, many on the Democratic side of the 
aisle, about issues that relate to Superfund, relate to 
Brownfields, et cetera, and it has been with criticism that 
enough money is not being spent, actions are not being taken 
fast enough, and then, of course, criticism of existing 
industries, such as Mr. Murphy has already tried to clarify, 
the issue about alleged continuing pollution.
    I would point out that in this concept that we have heard 
of Environmental Justice, I would like to insert another term 
for your consideration, and that is geographic justice. My 
constituents in rural areas don't really complain about 
spending Federal dollars to cleanup these sites, but I would 
point out that in most instances, those are sites that are the 
result of industrialization in this country, and they provided, 
even though they polluted in hindsight, they provided good 
paying jobs for those parts of the country that benefited 
richly from those job sites. Just as the jobs that are now 
being complained about industries that they don't particularly 
like, many of my constituents would welcome them to the rural 
parts because they need those kind of jobs. We are not 
complaining about spending money for these geographical sites 
that have benefited in the past but now have pollution 
problems.
    But there is an issue of geographic justice that I don't 
think is being paid much attention to. For example, I think we 
ought to, in our environmental policies, not promote further 
concentrations of population, further concentrations of 
industry in areas that are already polluted, but I am afraid 
that many of the policies that we have in place are doing 
exactly that. Instead of dispersing, we are promoting further 
concentration. Let me give you specific examples of that.
    My congressional district in the northwest corner borders 
Alabama and Tennessee. That portion is in the Chattanooga 
metropolitan statistical area. Several of my rural counties are 
now in non-compliance under air quality. They have very good 
information that it is not because of things that are coming 
within their area or things they have any control over. In 
fact, they had a study from NASA that showed that one of their 
non-compliances was because they were burning wheat fields in 
the Midwest and it was simply blowing there.
    My time is running out.
    My question is this. You indicated that there is going to 
be a shift of responsibility for air monitoring to the States. 
Many of those counties, the one in particular that is in non-
compliance, has no testing site within the county. They have 
testing sites in another State, Alabama and Tennessee, and they 
are concerned. They feel like if you want to get a good 
reading, get one from them and not penalize readings coming 
from somewhere else. In fact, one of the readings in my State 
is in the middle of a national forest, and it is in non-
compliance because of pollen in the air.
    Who has the authority to determine the location of air 
monitoring sites? Is it the State or is the Federal Government? 
Whose approval has to be obtained?
    Mr. Johnson. It is done in cooperation. Again, we work with 
our State partners to make sure these we are trying to achieve 
national----
    Mr. Wynn. The gentleman's time is expired.
    Mr. Deal. Mr. Chairman, let him answer my question, my only 
question.
    Mr. Wynn. Because of the pending vote, I am trying to get 
another Member recognized. I am sure he would be happy to 
submit his answer to you or give you an answer in private.
    Mr. Johnson. I would be happy to have my staff also sit 
down with you. Thank you.
    Mr. Wynn. I would like to recognize the gentleman from 
Massachusetts, Mr. Markey.
    Mr. Markey. Administrator Johnson, the Intergovernmental 
Panel on Climate Change has determined that the planet is 
warming as a result of carbon dioxide pollution and other 
emissions of greenhouse gases, by mankind, and that we could 
face a potential environmental catastrophe of severe hurricanes 
and other storms, droughts, rising sea levels, and massive 
species extinction if we do not reverse current trends.
    Do you agree with the IPCC's findings?
    Mr. Johnson. Yes, we do. In fact, and because of investment 
by the United States and----
    Mr. Markey. Do you do agree?
    Mr. Johnson. Yes.
    Mr. Markey. Do you support a mandatory cap and trade 
program to curb carbon and other greenhouse gas emissions?
    Mr. Johnson. Sir, what I do support is what the President 
announced at the State of the Union, and that is an aggressive 
yet practical strategy----
    Mr. Markey. No, you support a mandatory program to?
    Mr. Johnson. Yes, in fact, support a mandatory program in 
the sense of CAFE standard, as well as a mandatory----
    Mr. Markey. Do you support a mandatory 4 percent annual 
increase in CAFE standards over the next decade?
    Mr. Johnson. Support an increase in CAFE standards----
    Mr. Markey. Mandatory.
    Mr. Johnson. Mandatory increase in CAFE standards, yes.
    Mr. Markey. So you support a mandatory 4 percent?
    Mr. Johnson. Four percent.
    Mr. Markey. That is what the President used in his State of 
the Union address. So you support a mandatory 4 percent 
increase?
    Mr. Johnson. That is what I support.
    Mr. Markey. OK. And that is very helpful to me.
    So do you support a mandatory cap and trade system?
    Mr. Johnson. No, I do not.
    Mr. Markey. No, you do not, OK.
    Would you support a Federal renewable portfolio standard to 
mandate that electric utilities get 20 percent of their 
generation from clean renewable sources, such as wind, solar, 
geothermal or biomass by 2020?
    Mr. Johnson. Let me just make clear on the CAFE. The 
proposal from the President is to ask Congress to defer to 
Department of Transportation to actually----
    Mr. Markey. So you don't support mandatory----
    Mr. Johnson. The President identified is part of a 20 
percent in 10 years, the 5 percent would come from CAFE----
    Mr. Markey. So you don't support----
    Mr. Johnson. I just want to make it clear----
    Mr. Markey. No, you are not clear. You don't support a 
mandatory 4 percent increase in CAFE, is that correct?
    Mr. Johnson. I support what the President asked for.
    Mr. Markey. Is that mandatory or not mandatory?
    Mr. Johnson. It is a mandatory CAFE standard through the 
Department of Transportation to determine the percentage to 
achieve what the President has outlined----
    Mr. Markey. Alright. I can't let you go on. The answer is 
either mandatory or non-mandatory, not mandatory except that 
the Department of Transportation decides it is not mandatory. 
Which is it for you, sir, mandatory or not?
    Mr. Johnson. For me, I support the President.
    Mr. Markey. OK. That's all we need to know.
    Would you support mandating a 10 percent increase in 
overall electric power sector efficiency and a 5 percent 
increase in natural gas utility efficiency by 2020 to be 
achieved by demand reduction programs, more efficient power 
generation, transmission, and distribution systems, 
accelerating introduction of more energy efficient buildings 
and appliances? Would you support that?
    Mr. Johnson. I support increased energy efficiency.
    Mr. Markey. But again, we need goals. Everyone supports it. 
Is it a goal that will deal with catastrophe or is it----
    Mr. Johnson. I support energy efficiency.
    Mr. Markey. Well, that doesn't help us again.
    What you are telling me, again, Mr. Administrator, is that 
the Bush administration's policy of denial and delay is 
continuing as you sit there today. It is little wonder that 
today is the first time in nearly 6 years that the EPA 
Administrator has actually appeared before this committee. The 
FBI does not have as good a witness protection program as the 
Bush administration and the Republican Congress has had to keep 
the EPA from actually testifying on these issues.
    Today we can see why. You really don't have a policy to 
deal with the number one environmental challenge now facing the 
planet, the threat of global warming. I can only hope that this 
policy soon comes to an end and that your administration, Mr. 
Administrator, becomes serious about working for mandatory 
goals that are set in each one of those areas rather than this 
non-specific, completely useless testimony in terms of helping 
Congress understand what the goals of this administration are.
    You also have a requirement to set standards for the 
underground sequestration of emissions from coal-fired plants. 
When do you plan on providing those specific guidelines?
    Mr. Johnson. With regard to geologic carbon sequestration, 
EPA and Department of Energy have been working on guidance that 
would guide the pilot projects so that we can evaluate the 
technical aspects for these class 5 experimental technology 
wells. We have started the public dialog. This is an issue for 
underground injection----
    Mr. Markey. How many years before you can give a----
    Mr. Wynn. The gentleman's time is expired.
    Mr. Markey. Can you provide the answer so the committee has 
it?
    Mr. Johnson. I would be happy to provide one for the 
record.
    Mr. Markey. Thank you.
    Mr. Wynn. The subcommittee has no further members seeking 
questions.
     I remind members if they have additional questions, they 
can submit them for the record to be answered by the witness. 
The questions should be submitted to the committee clerk in 
electronic form within the next 10 days. The clerk will notify 
your offices of the procedures.
    I want to thank the Administrator, Mr. Johnson, and his 
team for appearing before us today, and without objection, this 
hearing is now adjourned.
    Mr. Johnson. Thank you, Mr. Chairman.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] T8829.303
    
    [GRAPHIC] [TIFF OMITTED] T8829.304
    
    [GRAPHIC] [TIFF OMITTED] T8829.305
    
    [GRAPHIC] [TIFF OMITTED] T8829.306
    
    [GRAPHIC] [TIFF OMITTED] T8829.151
    
    [GRAPHIC] [TIFF OMITTED] T8829.152
    
    [GRAPHIC] [TIFF OMITTED] T8829.153
    
    [GRAPHIC] [TIFF OMITTED] T8829.154
    
    [GRAPHIC] [TIFF OMITTED] T8829.155
    
    [GRAPHIC] [TIFF OMITTED] T8829.156
    
    [GRAPHIC] [TIFF OMITTED] T8829.157
    
    [GRAPHIC] [TIFF OMITTED] T8829.158
    
    [GRAPHIC] [TIFF OMITTED] T8829.159
    
    [GRAPHIC] [TIFF OMITTED] T8829.160
    
    [GRAPHIC] [TIFF OMITTED] T8829.161
    
    [GRAPHIC] [TIFF OMITTED] T8829.162
    
    [GRAPHIC] [TIFF OMITTED] T8829.163
    
    [GRAPHIC] [TIFF OMITTED] T8829.164
    
    [GRAPHIC] [TIFF OMITTED] T8829.307
    
    [GRAPHIC] [TIFF OMITTED] T8829.165
    
    [GRAPHIC] [TIFF OMITTED] T8829.166
    
    [GRAPHIC] [TIFF OMITTED] T8829.167
    
    [GRAPHIC] [TIFF OMITTED] T8829.168
    
    [GRAPHIC] [TIFF OMITTED] T8829.169
    
    [GRAPHIC] [TIFF OMITTED] T8829.170
    
    [GRAPHIC] [TIFF OMITTED] T8829.171
    
    [GRAPHIC] [TIFF OMITTED] T8829.172
    
    [GRAPHIC] [TIFF OMITTED] T8829.173
    
    [GRAPHIC] [TIFF OMITTED] T8829.174
    
    [GRAPHIC] [TIFF OMITTED] T8829.175
    
    [GRAPHIC] [TIFF OMITTED] T8829.176
    
    [GRAPHIC] [TIFF OMITTED] T8829.177
    
    [GRAPHIC] [TIFF OMITTED] T8829.178
    
    [GRAPHIC] [TIFF OMITTED] T8829.179
    
    [GRAPHIC] [TIFF OMITTED] T8829.180
    
    [GRAPHIC] [TIFF OMITTED] T8829.181
    
    [GRAPHIC] [TIFF OMITTED] T8829.182
    
    [GRAPHIC] [TIFF OMITTED] T8829.183
    
    [GRAPHIC] [TIFF OMITTED] T8829.184
    
    [GRAPHIC] [TIFF OMITTED] T8829.185
    
    [GRAPHIC] [TIFF OMITTED] T8829.186
    
    [GRAPHIC] [TIFF OMITTED] T8829.187
    
    [GRAPHIC] [TIFF OMITTED] T8829.188
    
    [GRAPHIC] [TIFF OMITTED] T8829.189
    
    [GRAPHIC] [TIFF OMITTED] T8829.190
    
    [GRAPHIC] [TIFF OMITTED] T8829.191
    
    [GRAPHIC] [TIFF OMITTED] T8829.192
    
    [GRAPHIC] [TIFF OMITTED] T8829.193
    
    [GRAPHIC] [TIFF OMITTED] T8829.194
    
    [GRAPHIC] [TIFF OMITTED] T8829.195
    
    [GRAPHIC] [TIFF OMITTED] T8829.196
    
    [GRAPHIC] [TIFF OMITTED] T8829.197
    
    [GRAPHIC] [TIFF OMITTED] T8829.198
    
    [GRAPHIC] [TIFF OMITTED] T8829.199
    
    [GRAPHIC] [TIFF OMITTED] T8829.200
    
    [GRAPHIC] [TIFF OMITTED] T8829.201
    
    [GRAPHIC] [TIFF OMITTED] T8829.202
    
    [GRAPHIC] [TIFF OMITTED] T8829.203
    
    [GRAPHIC] [TIFF OMITTED] T8829.204
    
    [GRAPHIC] [TIFF OMITTED] T8829.205
    
    [GRAPHIC] [TIFF OMITTED] T8829.206
    
    [GRAPHIC] [TIFF OMITTED] T8829.207
    
    [GRAPHIC] [TIFF OMITTED] T8829.208
    
    [GRAPHIC] [TIFF OMITTED] T8829.209
    
    [GRAPHIC] [TIFF OMITTED] T8829.210
    
    [GRAPHIC] [TIFF OMITTED] T8829.211
    
    [GRAPHIC] [TIFF OMITTED] T8829.212
    
    [GRAPHIC] [TIFF OMITTED] T8829.213
    
    [GRAPHIC] [TIFF OMITTED] T8829.214
    
    [GRAPHIC] [TIFF OMITTED] T8829.215
    
    [GRAPHIC] [TIFF OMITTED] T8829.216
    
    [GRAPHIC] [TIFF OMITTED] T8829.217
    
    [GRAPHIC] [TIFF OMITTED] T8829.218
    
    [GRAPHIC] [TIFF OMITTED] T8829.219
    
    [GRAPHIC] [TIFF OMITTED] T8829.220
    
    [GRAPHIC] [TIFF OMITTED] T8829.221
    
    [GRAPHIC] [TIFF OMITTED] T8829.222
    
    [GRAPHIC] [TIFF OMITTED] T8829.223
    
    [GRAPHIC] [TIFF OMITTED] T8829.224
    
    [GRAPHIC] [TIFF OMITTED] T8829.225
    
    [GRAPHIC] [TIFF OMITTED] T8829.226
    
    [GRAPHIC] [TIFF OMITTED] T8829.227
    
    [GRAPHIC] [TIFF OMITTED] T8829.228
    
    [GRAPHIC] [TIFF OMITTED] T8829.229
    
    [GRAPHIC] [TIFF OMITTED] T8829.230
    
    [GRAPHIC] [TIFF OMITTED] T8829.231
    
    [GRAPHIC] [TIFF OMITTED] T8829.232
    
    [GRAPHIC] [TIFF OMITTED] T8829.233
    
    [GRAPHIC] [TIFF OMITTED] T8829.234
    
    [GRAPHIC] [TIFF OMITTED] T8829.235
    
    [GRAPHIC] [TIFF OMITTED] T8829.236
    
    [GRAPHIC] [TIFF OMITTED] T8829.237
    
    [GRAPHIC] [TIFF OMITTED] T8829.238
    
    [GRAPHIC] [TIFF OMITTED] T8829.239
    
    [GRAPHIC] [TIFF OMITTED] T8829.240
    
    [GRAPHIC] [TIFF OMITTED] T8829.241
    
    [GRAPHIC] [TIFF OMITTED] T8829.242
    
    [GRAPHIC] [TIFF OMITTED] T8829.243
    
    [GRAPHIC] [TIFF OMITTED] T8829.244
    
    [GRAPHIC] [TIFF OMITTED] T8829.245
    
    [GRAPHIC] [TIFF OMITTED] T8829.246
    
    [GRAPHIC] [TIFF OMITTED] T8829.247
    
    [GRAPHIC] [TIFF OMITTED] T8829.248
    
    [GRAPHIC] [TIFF OMITTED] T8829.249
    
    [GRAPHIC] [TIFF OMITTED] T8829.250
    
    [GRAPHIC] [TIFF OMITTED] T8829.251
    
    [GRAPHIC] [TIFF OMITTED] T8829.252
    
    [GRAPHIC] [TIFF OMITTED] T8829.253
    
    [GRAPHIC] [TIFF OMITTED] T8829.254
    
    [GRAPHIC] [TIFF OMITTED] T8829.255
    
    [GRAPHIC] [TIFF OMITTED] T8829.256
    
    [GRAPHIC] [TIFF OMITTED] T8829.257
    
    [GRAPHIC] [TIFF OMITTED] T8829.258
    
    [GRAPHIC] [TIFF OMITTED] T8829.259
    
    [GRAPHIC] [TIFF OMITTED] T8829.260
    
    [GRAPHIC] [TIFF OMITTED] T8829.261
    
    [GRAPHIC] [TIFF OMITTED] T8829.262
    
    [GRAPHIC] [TIFF OMITTED] T8829.263
    
    [GRAPHIC] [TIFF OMITTED] T8829.264
    
    [GRAPHIC] [TIFF OMITTED] T8829.265
    
    [GRAPHIC] [TIFF OMITTED] T8829.266
    
    [GRAPHIC] [TIFF OMITTED] T8829.267
    
    [GRAPHIC] [TIFF OMITTED] T8829.268
    
    [GRAPHIC] [TIFF OMITTED] T8829.269
    
    [GRAPHIC] [TIFF OMITTED] T8829.270
    
    [GRAPHIC] [TIFF OMITTED] T8829.271
    
    [GRAPHIC] [TIFF OMITTED] T8829.272
    
    [GRAPHIC] [TIFF OMITTED] T8829.273
    
    [GRAPHIC] [TIFF OMITTED] T8829.274
    
    [GRAPHIC] [TIFF OMITTED] T8829.275
    
    [GRAPHIC] [TIFF OMITTED] T8829.276
    
    [GRAPHIC] [TIFF OMITTED] T8829.277
    
    [GRAPHIC] [TIFF OMITTED] T8829.278
    
    [GRAPHIC] [TIFF OMITTED] T8829.279
    
    [GRAPHIC] [TIFF OMITTED] T8829.280
    
    [GRAPHIC] [TIFF OMITTED] T8829.281
    
    [GRAPHIC] [TIFF OMITTED] T8829.282
    
    [GRAPHIC] [TIFF OMITTED] T8829.283
    
    [GRAPHIC] [TIFF OMITTED] T8829.284
    
    [GRAPHIC] [TIFF OMITTED] T8829.285
    
    [GRAPHIC] [TIFF OMITTED] T8829.286
    
    [GRAPHIC] [TIFF OMITTED] T8829.287
    
    [GRAPHIC] [TIFF OMITTED] T8829.288
    
    [GRAPHIC] [TIFF OMITTED] T8829.289
    
    [GRAPHIC] [TIFF OMITTED] T8829.290
    
    [GRAPHIC] [TIFF OMITTED] T8829.291
    
    [GRAPHIC] [TIFF OMITTED] T8829.292
    
    [GRAPHIC] [TIFF OMITTED] T8829.293
    
    [GRAPHIC] [TIFF OMITTED] T8829.294
    
    [GRAPHIC] [TIFF OMITTED] T8829.295
    
    [GRAPHIC] [TIFF OMITTED] T8829.296
    
    [GRAPHIC] [TIFF OMITTED] T8829.297
    
    [GRAPHIC] [TIFF OMITTED] T8829.298
    
    [GRAPHIC] [TIFF OMITTED] T8829.308
    
    [GRAPHIC] [TIFF OMITTED] T8829.309
    
    [GRAPHIC] [TIFF OMITTED] T8829.310
    
    [GRAPHIC] [TIFF OMITTED] T8829.311
    
    [GRAPHIC] [TIFF OMITTED] T8829.312
    

</pre></body></html>
